<html>
<title> - GERMS, VIRUSES, AND SECRETS: GOVERNMENT PLANS TO MOVE EXOTIC DISEASE RESEARCH TO THE MAINLAND UNITED STATES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



  GERMS, VIRUSES, AND SECRETS: GOVERNMENT PLANS TO MOVE EXOTIC DISEASE 
                 RESEARCH TO THE MAINLAND UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                              MAY 22, 2008

                               ----------                              

                           Serial No. 110-120


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov








 GERMS, VIRUSES, AND SECRETS: GOVERNMENT PLANS TO MOVE EXOTIC DISEASE 
                 RESEARCH TO THE MAINLAND UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2008

                               __________

                           Serial No. 110-120


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
58-136 PDF                WASHINGTON : 2008
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             FRED UPTON, Michigan
FRANK PALLONE, . r., New Jersey      CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            BARBARA CUBIN, Wyoming
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
ELIOT L. ENGEL, New York             HEATHER WILSON, New Mexico
ALBERT R. WYNN, Maryland             JOHN B. SHADEGG, Arizona
GENE GREEN, Texas                    CHARLES W. ``CHIP'' PICKERING, 
DIANA DeGETTE, Colorado              Mississippi
    Vice Chair                       VITO FOSSELLA, New York
LOIS CAPPS, California               ROY BLUNT, Missouri
MICHAEL F. DOYLE, Pennsylvania       STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO MACK, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

               David L. Cavicke, Minority Staff Director

                                 _____

              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
CHARLIE MELANCON, Louisiana              Ranking Member
    Vice Chair                       ED WHITFIELD, Kentucky
HENRY A. WAXMAN, California          GREG WALDEN, Oregon
GENE GREEN, Texas                    MIKE FERGUSON, New Jersey
MIKE DOYLE, Pennsylvania             TIM MURPHY, Pennsylvania
JAN SCHAKOWSKY, Illinois             MICHAEL C. BURGESS, Texas
JAY INSLEE, Washington               MARSHA BLACKBURN, Tennessee
JOHN D. DINGELL, Michigan (ex        JOE BARTON, Texas (ex officio)
    officio)

                                  (ii)











                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     3
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     5
Hon. Charles W. ``Chip'' Pickering, a Representative in Congress 
  from the State of Mississippi, opening statement...............     6
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................   196

                               Witnesses

Nancy R. Kingsbury, Ph.D., Managing Director, Applied Research 
  and Methods, U.S. Government Accountability Office; accompanied 
  by Sushil Sharma, Ph.D., D.R.P.H., Assistant Director of 
  Applied Research and Methods, U.S. GAO.........................     8
    Prepared statement...........................................    11
Tim E. Carpenter, Ph.D., Professor and Co-director, Center for 
  Animal Disease Modeling and Surveillance, University of 
  California, Davis..............................................    44
    Prepared statement...........................................    47
Ray L. Wulf, President and Chief Executive Officer, American 
  Farmers and Ranchers...........................................    81
    Prepared statement...........................................    85
Howard Hill, D.V.M., Chief Operating Officer, Iowa Select Farms..    97
    Prepared statement...........................................    99
Leroy Watson, Legislative Director, The National Grange of the 
  Order of Patrons and Husbandry.................................   109
    Prepared statement...........................................   111
Gary Voogt, President-elect, National Cattlemen's Beef 
  Association....................................................   124
    Prepared statement...........................................   126
Bruce I. Knight, Under Secretary, Marketing and Regulatory 
  Programs, U.S. Department, U.S. Department of Agriculture......   141
    Prepared statement...........................................   142
Jay M. Cohen, Under Secretary, Science and Techology Directorate, 
  U.S. Department of Homeland Security...........................   148
    Prepared statement...........................................   150
Larry Barrett, D.V.M., M.S., D.A.C.V.P.M., Director, Plum Island 
  Animal Disease Center..........................................   164
    Prepared statement...........................................   167

                           Submitted Material

Letter of June 2, 2008, from American Farmers & Ranchers to 
  Chairmen Dingell and Stupak....................................   197
Photograph of Plum Island........................................   198
Comments by Senator Pat Roberts on Senate Armed Services 
  Committee Subcommittee on Emerging Threats and Capabilities, 
  hearing of March 14, 2003......................................   199
Subcommittee exhibit binder......................................   201

 
 GERMS, VIRUSES, AND SECRETS: GOVERNMENT PLANS TO MOVE EXOTIC DISEASE 
                 RESEARCH TO THE MAINLAND UNITED STATES

                              ----------                              


                         THURSDAY, MAY 22, 2008

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Bart 
Stupak (chairman) presiding.
    Members present: Representatives Stupak, Green, Inslee, 
Dingell (ex officio), Shimkus, Whitfield, and Pickering.
    Also present: Representatives Moran and Boyda.
    Staff present: Scott Schloegel, John Arlington, John Sopko, 
Lisa Cody, Kyle Chapman, Alan Slobodin, and Krista Carpenter.
    Mr. Stupak. This meeting will come to order.
    Today we have a hearing entitled ``Germs, Viruses and 
Secrets: Government Plans to Move Exotic Disease Research to 
the Mainland United States.'' Each member will be recognized 
for a 5-minute opening statement. I will begin.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Good morning. This is the second in a series of 
hearings on biomedical research laboratories this committee has 
held. The first hearing was on the proliferation of high-
containment bio labs in the United States. In future hearings, 
we expect to look at the proliferation of high-containment labs 
outside the United States including the role of government 
funding these labs.
    Today's hearing will focus on the Department of Homeland 
Security's, DHS, proposal to close Plum Island Animal Disease 
Center and build a new, much larger high-containment lab which 
DHS calls the National Bio- and Agro-Defense Facility, or NBAF.
    For 50 years, the Plum Island laboratory was owned and 
operated by the U.S. Department of Agriculture and was this 
country's leading foreign animal disease research laboratory. 
In June 2003, operational responsibility for Plum Island was 
transferred to DHS under the Homeland Security Act. While the 
research staff continued to be employed by Department of 
Agriculture. The majority of research carried out at Plum 
Island is concentrated on foot-and-mouth disease, which is a 
very highly contagious disease.
    The Plum Island lab was built on Plum Island in order to 
isolate this extraordinarily hazardous virus and other diseases 
handled at the lab. The natural barrier of water surrounding 
the island along with its remoteness at the far eastern end of 
Long Island were seen as an effective buffer zone between Plum 
Island and farming activities in the rest of the country.
    Now the Department of Homeland Security wants to close Plum 
Island and build a new facility on the mainland. This proposal 
is embodied in H.R. 1717, which would do three things: 
authorize the building of the National Bio- and Agro-Defense 
Facility, NBAF, which as proposed by DHS would be the world's 
largest animal disease research center and include the world's 
largest Biosafety Level 4 laboratory--the BSL-4 labs handle the 
most deadly diseases for which there is no cure; delegate to 
DHS broad new authority over animal disease research and 
zoonotic disease research, including their human health 
effects; and move live virus of foot-and-mouth disease to the 
mainland United States for the first time in history.
    In summary, DHS proposes to become the primary agency for 
animal disease research and take over zoonotic disease 
research, which is now carried out by the Centers for Disease 
Control and Prevention and the National Institutes of Health. 
DHS seems to have given inadequate consideration to the risk of 
transferring foot-and-mouth disease to the mainland, which 
prompted this committee to examine this issue ourselves.
    As part of this subcommittee's investigation, we looked at 
prior accidental releases of foot-and-mouth disease to see what 
the economic consequences might be. A 2001 outbreak in the 
United Kingdom was estimated to cost a little over $16.3 
billion and nearly brought down their government. One of our 
witnesses testifying today has estimated that a major outbreak 
on the mainland United States could cost as much as $40 
billion.
    In 1978, there was an accidental release of foot-and-mouth 
disease from the Plum Island lab, which infected animals kept 
on the island. Fortunately, the virus never spread any further, 
due in part to the fact that the lab is buffered by water. In 
the investigative report that followed the 1978 outbreak, the 
Plum Island director at the time, Jerry Callis, concluded that 
the water barrier surrounding the island was instrumental in 
containing the spread of the disease.
    What the report did not say, however, was even more 
significant. The Committee staff interviewed Dr. Callis and he 
revealed that at the time of the 1978 outbreak, he and others 
on the staff were able to persuade the World Animal Health 
Organization, known as OIE, not to issue an embargo of American 
meat products because the foot-and-mouth had not escaped from 
the island. Had the OIE declared an embargo, as it would today 
if such an outbreak occurred on the mainland, it would have 
halted the export of all American meat products for at least 6 
months and the cost to the livestock industry would have been 
enormous. We will be interested to hear today how DHS and USDA 
would seek to balance devastating consequences of this 
magnitude with the convenience of opening a lab on the 
mainland.
    We will also be interested in examining the costs of the 
proposed NBAF. The official DHS estimate is that NBAF will cost 
approximately $450 million to build but the Committee has 
learned that DHS engineers have also raised the estimate to 
between $600 and $750 million. Moreover, this does not include 
the cost of demolition, decontamination, and environmental 
cleanup of the existing facility at Plum Island if it is 
abandoned.
    Earlier this year, DHS assured us that they had broad 
support for their proposal from the private sector. To test 
that theory, we sent letters to more than 100 livestock 
associations asking their views of moving this disease to the 
mainland. Today we will have with us representatives from some 
of the larger associations which responded. These are the 
farmers who have much to lose if something goes wrong, and I 
understand they have strong opinions on the subject.
    Let me be clear: I do not oppose the creation of a National 
Bio- and Agro-Defense Facility, NBAF, but I do oppose moving 
the research of this devastating foot-and-mouth disease to the 
mainland United States. For more than 50 years, foot-and-mouth 
disease has been researched safely on Plum Island and moving it 
to the mainland would be a foolish tempting of fate that could 
cause countless farmers and ranchers their livelihoods and 
cause billions of dollars should a foot-and-mouth disease 
release occur.
    I want to thank the witnesses appearing here today. I know 
that some of you have come a long way to testify, and I want 
you to know that we appreciate you taking the time to be here 
with us.
    That concludes my opening statement.
    Mr. Stupak. I would next turn to my ranking member, my 
friend, Mr. Shimkus, for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman, and thanks for 
convening this important hearing.
    Today's hearing will expose several issues surrounding the 
proposal and construction of the new National Bio- and Agro-
Defense Facility. We all agree that it is our responsibility to 
protect the American public's health while ensuring the safety 
of our agriculture and food infrastructure by maintaining an 
up-to-date biocontainment facility capable of researching and 
developing cures for deadly and contagious zoonotic and animal 
diseases. The witnesses today will discuss the costs associated 
with this facility and whether this new facility should remain 
on Plum Island or be moved to the mainland.
    The Homeland Security Act of 2002 transferred ownership of 
Plum Island Animal Disease Center, a small island off the coast 
of New York owned by the Federal Government where current 
research on both domestic and foreign animal diseases takes 
place, to the Department of Homeland Security. Since the 
transfer, DHS has been the lead agency for the center supported 
by the U.S. Department of Agriculture researchers and 
employees. The main issues surrounding the creation of a new 
NBAF include ensuring that the Department of Homeland Security 
and the United States Department of Agriculture have adequately 
assessed the health and economic risks and costs-benefits 
associated with the construction, operation, and maintenance of 
this new biocontainment facility.
    Today we want assurance from the government and industry 
experts that the American public will remain safe independent 
of where the new facility is located. We want Americans to know 
that the proper precautions will be taken if a new biolab 
facility is created in their community. Several witnesses, 
including DHS, USDA, and livestock associations, will explain 
how that safety is to be ensured. I look forward to hearing 
from the witnesses about the advances in modern technology and 
the importance of proper training in relation to the 
construction and operation of a biocontainment facility of this 
magnitude. In fact, the new NBAF would be the world's largest 
animal disease research center and include the world's largest 
BSL-4 laboratory. DHS estimates the cost of this facility to be 
between $450 and $750 million.
    Of particular interest to DHS and USDA and the livestock 
industry is the continued research of the highly contagious 
animal disease, foot-and-mouth disease. By statute, for the 
past 60 years the research on live foot-and-mouth disease has 
been limited to Plum Island. Releases of foot-and-mouth disease 
in England led to an outbreak in 2001 that cost England's 
economy an estimated $15 billion. The Government Accountability 
Office will discuss its evaluation of DHS's evidence supporting 
its decision that conducting foot-and-mouth disease research on 
the mainland is as safe as conducting it on an island. Under 
Secretary Cohen from DHS and Under Secretary Knight from USDA 
are here to explain how the agencies determined that the 
transfer of foot-and-mouth disease and other animal disease 
research to the mainland is safe and what the next steps in the 
NBAF process entail.
    Today we are here to examine the facts, hear from 
government officials, the industry insiders and the outside 
experts that can explain the scope and needs for a new facility 
and examine the advantages and disadvantages of creating this 
facility on an island or on the mainland. I am not here to 
advocate a particular site. I am here to support this 
bipartisan oversight examination of the NBAF process and to 
gain clarity on the issues surrounding the construction of the 
facility while ensuring that we as lawmakers help protect the 
U.S. agriculture and human health.
    Thank you, Mr. Chairman, and I yield back my time.
    Mr. Stupak. I thank you, Mr. Shimkus.
    As you can see, there is a lot of interest in this issue. I 
expect Mr. Dingell will be here momentarily for an opening 
statement. Mr. Pickering is a member of the Energy and Commerce 
Committee, not of this subcommittee. At his option, we would 
allow him, if he wants to give an opening statement, we would 
allow that. Mr. Moran is not a member of this committee but is 
a valuable member of this Congress. If you would like to stay 
and at the end maybe have an opportunity to ask some questions, 
you are welcome to. Ms. Boyda is also not a member of this 
committee but is very interested in this issue, and I expect 
there will be other members who are not part of this committee 
who would come and we will show them the same courtesy and 
respect afforded to all members.
    Of the full committee, Mr. Dingell, chairman, for an 
opening statement and then we will go to Mr. Pickering if he 
chooses.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, this is a very important 
hearing, and I congratulate you for shining much-needed light 
on the hidden world of bioresearch. I especially look forward 
to shining some of that light on the bio research activities of 
the Department of Homeland Security, DHS, today. It is a 
curious body. They appear to be much concerned about the 
efficiency of the agency but to care very little about the 
safety of the American public with regard to movement of 
diseases of animals into our society.
    As I said at the first hearing on bio-labs, the DHS 
proposal to close the Plum Island Animal Disease Center and 
move the live foot-and-mouth virus to the mainland of the 
United States is not only baffling but dangerous. Following 
extensive investigation by the Government Accountability 
Office, GAO, and the committee staff, 7 months later the DHS 
proposal remains most curious. It also manifests significant, 
not only incompetence but arrogance and secrecy, something 
which should not be permitted by government agencies.
    Foot-and-mouth is one of the most contagious diseases in 
the world. We know from recent incidents in the United Kingdom 
that it can escape from even a high-level biosafety lab. We 
know that an outbreak of foot-and-mouth disease could have a 
catastrophic effect on the livestock industry here in the 
United States just as it did in the United Kingdom in 2001. In 
fact, the U.S. Department of Agriculture told the committee 
staff just 2 days ago that an accidental outbreak in the United 
States could cause as much as $57 billion in damages.
    Equally troubling, it appears that DHS is out of step with 
the rest of the world. GAO investigators visited major labs 
across Europe and found that in other developed countries, the 
trend is to do just the opposite of what DHS has proposed. 
Germany has built its new lab on an island. Denmark has built 
its new lab on an island. The Parliament in the U.K. is 
debating the relocation of its land to an island. Why? Because 
of safety concerns and preventing escape of the agents that 
bring these kinds of diseases into the broader world.
    Why then would DHS propose to move live virus of foot-and-
mouth disease from Plum Island to the American mainland? GAO 
was unable to find a scientific reason for the move. They found 
apparent agreement that the current Plum Island lab needs 
substantial renovation and it should be renovated, but they 
found no justification for moving the lab to the mainland. They 
also found no cooperation from DHS, which has refused to make 
available to GAO the information that it needs to properly 
carry out its responsibilities or to serve this committee or to 
assist in this inquiry. Indeed, DHS has refused to make 
available important parts of information sought by this 
committee on the grounds that it is ``proprietary.'' I look 
forward to hearing an explanation as to why that information is 
proprietary at DHS.
    In the end, DHS assures us that modern technology will make 
it perfectly safe to handle foot-and-mouth disease in a high-
tech biolab in the heart of livestock country. I wonder if 
history will confirm their judgment or will make them look like 
a source of danger to the society. Mr. Chairman, on that score 
I would note that history is littered with the smoking, 
stinking wreckage of impregnable, indestructible, and 
unsinkable.
    Given the potentially catastrophic effects that a release 
of foot-and-mouth could have on our livestock industry and on 
the national economy and on the national budget, it seems to me 
that DHS has the burden of showing to us why this is necessary 
and why it is in the public interest and why they cannot be 
open in answering the questions that this committee lays upon 
them.
    In that regard, I must regrettably point out that DHS has 
not been forthcoming in providing the records and information 
requested by the Committee as I mentioned earlier. In several 
instances, the Committee has only been provided copies of 
certain key records after the committee staff discovered their 
existence despite the fact that the Committee has specifically 
requested all such records. At this late date there are still a 
number of relevant documents outstanding and missing after 
being requested by the Committee including the statement of 
work for the environment impact statement for Plum Island and 
the proposed National Bio- and Agro-Defense Facility, NBAF. I 
would note that the National Environmental Policy Act, of which 
I am author, requires that this process be open and that the 
public be included in the process. We want to know why it is 
that DHS presumes itself above the law on this particular 
matter and what question of national security here says that 
that information and that process may be suppressed to meet the 
convenience of DHS. Clearly this is unacceptable and grossly 
improper.
    Finally, I am interested in the testimony from ranchers who 
own the livestock in this country on how they view the DHS 
proposal. All the consultants and technical experts that DHS 
can hire may stand behind this idea but it will still be the 
farmers and ranchers who bear the risk and suffer the 
consequences of they are wrong and the taxpayers will be called 
upon to make whole the American people who are put at risk or 
hurt by the follies of DHS.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Chairman Dingell.
    Your option, Mr. Pickering as a member of this committee, 
the option of giving an opening statement if you would like or 
waive it.
    Mr. Pickering. Thank you, Mr. Chairman.
    Mr. Stupak. You will be recognized for 5 minutes then.

  OPENING STATEMENT OF HON. CHARLES W. ``CHIP'' PICKERING, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Pickering. Thank you, Mr. Chairman. I would like to 
make a brief statement. I want to thank you for allowing me to 
participate in the subcommittee and for this hearing. It is of 
critical importance that we get this right and I believe that 
we can get it right.
    I believe that there is agreement that we need to have a 
new facility. The Plum Island facility is outdated. It is not 
modern and we can do a better job of this vital research and a 
new facility I believe is in everyone's best interest and there 
is agreement to do so. So the question becomes, should we do 
this on the mainland or should we continue to do it on an 
island? The new biocontainment facilities that we currently 
already do in places like Atlanta in the heart of Atlanta close 
to Emory where the CDC's BSL-3 and BSL-4 facilities are already 
studying the same type of pathogens, very dangerous diseases, 
very high risk to human health, and doing so safely. So we have 
modern facilities that are doing similar research in mainland 
facilities and around the world that is also the case, and as 
we look at why we should do this, one, that it is more 
economical, it can be done safely. This makes sense for the 
taxpayer and it makes sense for animal and human health.
    The Farm Bill that we just passed, in fact that we just 
overrode the President's veto on, a majority of Republicans and 
a majority of Democrats on that committee called for the 
establishment of the new NBAF facility on the mainland, strong 
bipartisan support, overrode the President's veto to do so. I 
think the Congress has spoken very clearly in a very strong 
political bipartisan consensus-based approach that this should 
be the policy and it affirmed the policy that we have been 
taking over the last 3 years to do so. There is also strong 
support from the scientists and those most affected by this 
research. The American Veterinary Medical Association has sent 
a letter to both Congressman Stupak and Congressman Shimkus, 
and this is what they say: ``The American Veterinary Medical 
Association supports DHS's decision to build a National Bio- 
and Agro-Defense Facility. A modern, well-designed and operated 
facility does not present an unacceptable risk to animal or 
human health and would be more economical to build, maintain 
and operate on the mainland.'' The chief health official in 
Mississippi makes the point that all the organisms to be 
studied at the new NBAF are already being safely studied in 
other biocontainment laboratories in the continental United 
States including CDC's BSL-3 and -4 laboratories located in the 
heart of a densely populated residential area of Atlanta and 
adjacent to Emory University's main campus.
    So it is being done today and it is being done safely. It 
can be done more economically. We all agree a new facility 
needs to be built. Those most closely associated, the cattlemen 
and the farmers in the region of Mississippi and Louisiana, and 
I am sure Mr. Moran will say that the farmers and the ranchers 
and the scientists in Kansas believe that this can be done 
safely, and we believe very strongly that Mississippi is a 
better site. I think Mr. Moran may differ with that but we 
agree that a facility can be done on the mainland and that this 
is the wise and right policy of the United States that we have 
undertaken over the last 3 years and just yesterday 
overwhelmingly endorsed in the override veto of President Bush.
    So I look forward to this hearing. There is strong 
scientific and political support for the policy to establish on 
the mainland a new NBAF, and I look forward to the testimony 
today. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Pickering.
    Ms. Boyda is here from Kansas as well as Mr. Moran. They 
are not members of the committee. Therefore, they would not be 
allowed to do an opening statement under the Rules of the 
Committee in this House. However, when we get to our 
questioning rounds, both Mr. Moran and Ms. Boyda, if they would 
like to speak, I would with the unanimous consent of the 
Minority allow questions.
    However, I am going to caution everyone right now, we are 
not here today to make a decision where NBAF should go. We have 
had requests from Mississippi, Texas, Kansas, Georgia, North 
Carolina. They all want to sit in the hearing today and they 
all want to advocate for their State. We are not here 
advocating for any one State. We are here talking about NBAF, 
should it be built or not built, and whether foot-and-mouth 
disease should be moved to the mainland. That is the purpose of 
this hearing. So I just want to put that forth so everybody 
understands why we are here and what we are doing. This is an 
investigative and oversight subcommittee. We want to make sure 
if we are going to do this, it is done right.
    So with that caution, we have our first panel before us. 
Let me introduce them. Dr. Nancy Kingsbury, who is the Managing 
Director of Applied Research and Methods at the Government 
Accountability Office. Dr. Kingsbury is accompanied by Dr. 
Sushil Sharma, who is the Assistant Director of Applied 
Research and Methods at the Government Accountability Office, 
and Dr. Tim Carpenter, who is Professor and Co-Director of the 
Center for Animal Disease Modeling and Surveillance at the 
University of California, Davis. We welcome you to our 
committee.
    It is the policy of this subcommittee to take all testimony 
under oath. Please be advised that witnesses have the right 
under the Rules of the House to be advised by counsel during 
their testimony. Do any of you wish to be represented by 
counsel at this time? Everyone is indicating no. Therefore, I 
would ask you to please rise and raise your right hand to take 
the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect that the witnesses 
replied in the affirmative. They are now under oath. We will 
begin with their opening statements, 5 minutes for an opening 
statement.
    Dr. Kingsbury, if you don't mind, we will start with you, 
please, and thank you for being here.

  STATEMENT OF NANCY R. KINGSBURY, PH.D., MANAGING DIRECTOR, 
 APPLIED RESEARCH AND METHODS, U.S. GOVERNMENT ACCOUNTABILITY 
 OFFICE; ACCOMPANIED BY SUSHIL SHARMA, PH.D., DRPH, ASSISTANT 
   DIRECTOR OF APPLIED RESEARCH AND METHODS, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Dr. Kingsbury. Thank you, Mr. Chairman. Thank you very much 
for your invitation to appear at this hearing. As you know, in 
response to your request, we have been reviewing the evidence 
that the Department of Homeland Security says it relied on to 
make the decision to relocate NBAF on the mainland and in 
particular foot-and-mouth disease research on the mainland.
    We recognize that there have been significant advances in 
the technologies of modern biocontainment laboratories and that 
some BSL-4 laboratories have operated without significant 
incidents on the mainland, indeed, in center cities. However, 
the research undertaken at Plum Island is unique in at least 
one respect and poses a special set of challenges because it 
includes, among others, research on the live virus strains that 
cause foot-and-mouth disease.
    Foot-and-mouth disease is the most highly infectious animal 
disease that is known. Infection can occur from exposure to a 
small number of virus particles and nearly 100 percent of 
exposed animals become infected. The virus can spread from 
infected animals in various ways. In some circumstances, the 
wind can spread the virus. The traditional response once an 
infection is confirmed is to depopulate infected and 
potentially infected herds, usually resulting in the slaughter 
of tens of thousands of animals or more. From the research 
perspective, FMD poses special challenges because of the need 
to manage large numbers of large animals within biocontainment.
    You asked us to evaluate the evidence DHS used to support 
its decision that research on live foot-and-mouth disease 
viruses can be done safely on the U.S. mainland, whether an 
island location provides any additional protection over and 
above that provided by modern high-containment laboratories on 
the mainland, and the economic consequences of an outbreak of 
foot-and-mouth disease on the mainland.
    To address these questions, we interviewed officials from 
DHS and USDA, and visited Plum Island. We obtained and reviewed 
relevant legislation, regulations, literature on foot-and-mouth 
disease and the economic effects of outbreaks, and other 
documents including the study that DHS identified as the source 
of evidence for its decision. We also talked to experts on 
animal diseases and high-containment laboratories dealing with 
animal, zoonotic, and human pathogens including the directors 
of other facilities that do research on foot-and-mouth disease 
viruses in Europe and Australia. We also met with 
representatives of the American Society for Microbiology, the 
National Grange, the National Cattlemen's Beef Association. and 
the National Pork Producers' Council.
    We found that DHS has not conducted or commissioned any 
study to determine whether foot-and-mouth disease research can 
be done safely on the U.S. mainland. Instead, DHS based its 
decision that work with FMD virus can be done safely on a 2002 
USDA-sponsored study that addressed a different question. We 
found that the study was selective in what it considered, and 
it did not assess the history of releases of FMD virus or other 
dangerous pathogens. It also did not address in detail the 
issues of containment related to research involving large 
animals such as cattle. In addition, the study was inaccurate 
in comparing other countries' experience with foot-and-mouth 
disease with the situation in the United States.
    Most of the experts we consulted during this work agree 
that while location in general confers no advantage in 
preventing an initial release of an infectious agent such as 
FMD, location can help prevent the spread of pathogens and thus 
a resulting disease outbreak if there is a release. The history 
of work at biocontainment facilities suggests strongly that 
there will always be some risk of a release because of failure 
of technology or, more likely, human error. Thankfully, these 
events are rare. While it may be possible to engineer a 
facility to minimize that risk, the study that DHS told us it 
relied on to reach the conclusion that the risk is acceptable 
does not provide evidence of how that could be done 
successfully. More recently, DHS told us that it plans to also 
rely on the results of the environmental impact statements it 
has commissioned for each of the six potential sites it has 
identified to provide further evidence about the safety of 
conducting FMD research on the mainland. As Mr. Dingell 
mentioned, DHS would not provide us information about the 
requirements for the environmental impact statements it has 
commissioned so we cannot comment on whether the statements 
will, for example, assess the risk of technical or human error 
and the potential impact of the release of a dangerous virus 
outside the facility.
    The 2002 study that DHS has relied on describes several 
facilities in other countries that do research on foot-and-
mouth disease as evidence that it is safe to do so on the 
mainland setting. Some of the statements in the study about 
these facilities are not correct. The Pirbright facility in the 
United Kingdom is on the British mainland in an area of small 
farms. As recently as last summer, however, FMD virus escaped 
the facility and infected nearby animals. Both Denmark and 
Germany have recently built new agricultural and human 
pathogenic research centers but both countries chose to do so 
on an island because of the additional layer of safety that 
location provides. Australia has recently opened a facility on 
the mainland that is recognized as the most advanced in the 
world for research on dangerous pathogens, but at the present 
time live foot-and-mouth disease cannot be used there so 
Australia outsources its FMD research to Thailand. And Canada 
has built a facility in Winnipeg that is to conduct research on 
foot-and-mouth disease but the facility is located in an urban 
area away from farmland and has a very small capacity to 
conduct tests on large animals.
    With respect to the potential economic impact, it is 
important to note that the United States has been free of foot-
and-mouth disease since 1929. A single outbreak of the disease 
on the U.S. mainland could have significant economic 
consequences. Not only would it result in the slaughter of a 
large number of animals, it would likely result in a ban on 
imports of American beef by many countries. The value of U.S. 
livestock sales was $140 billion in 2007 without about 10 
percent of those sales accounted for by export markets. 
Accordingly, this sector of the economy could be dramatically 
affected should an outbreak of foot-and-mouth disease occur.
    In summary, Mr. Chairman, we believe that more evidence is 
needed to clearly demonstrate that research on live FMD viruses 
can be conducted as safely on the mainland as on an island. 
Release of a pathogen as infectious as FMD is likely to have 
significant consequences that need to be explicitly taken into 
account in making a location decision.
    With that, I welcome any questions that you and the members 
may have.
    [The prepared statement of Dr. Kingsbury follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Stupak. Thanks, Dr. Kingsbury.
    Dr. Sharma, did you wish to make an opening statement?
    Mr. Sharma. No.
    Mr. Stupak. Dr. Carpenter, your opening statement, please, 
sir.

 STATEMENT OF TIM E. CARPENTER, PH.D., PROFESSOR, CO-DIRECTOR, 
CENTER FOR ANIMAL DISEASE MODELING AND SURVEILLANCE, UNIVERSITY 
                      OF CALIFORNIA, DAVIS

    Dr. Carpenter. Thank you for the invitation, and what I 
wanted to do is a little bit different. I am going to be 
talking from some slides, and based on what I am hearing, I 
think you have a fairly good knowledge of the disease but I 
would like to walk through some of these to give you some 
background for the modeling outputs ultimately.
    [Slide shown.]
    You know about the virus. It is highly contagious, survives 
in meat, milk, et cetera, in the environment and it affects 
cloven hoofed animals, so beef, cattle, et cetera. Its lesions 
and clinical signs, it can be detected fairly easily if they 
are obvious or it may not. It may be relatively unapparent in 
sheep and goats and may be missed. It depends. It can be 
confused with other diseases as well, diseases that are endemic 
in the United States. Transition, there are four routes: direct 
contact, animals moving, contacting one another, being shipped 
across the country; indirect contact, maybe human vehicles 
contacting infected environments or animals; airborne spread, 
it has been shown that possibly it can be spread for over 100 
miles; and local area spread is a relatively obscure way of 
transmission to a neighbor close by.
    [Slide shown.]
    OK. These numbers, you have heard about FMD has not been in 
the United States for about 80 years and it has been in the 
U.K. a number of times. What I wanted to point out here is how 
variable it can be. In the United States, we had two outbreaks 
in the 1920s. The size of those outbreaks ranged from over 
130,000 animals being killed to 3,000 or 4,000. In the U.K., 
there are four outbreaks that I have there. The most recent we 
have been talking about, it only affected eight farms. Previous 
to that in 2001, there were over 2,000 infected premises and a 
total of about 9,000 to 10,000 affected animals slaughtered. So 
the range of animals slaughtered ranges from 1,500 or so to 
over 6.5 million, same disease, a different serotype possibly 
but same disease.
    [Slide shown.]
    Geographically, going from left to right here, shows the 
1967, 2001 and 2008 epidemics. You can see the 2001 in the 
center is much larger, extends up into southern Scotland, into 
Wales, compared with the western part of England in 1967, and 
in the most recent 2008, this area here is the area that was 
infected and that is where Pirbright is and that is where the 
eight farms occurred, and that was a very, very short-lived 
epidemic.
    [Slide shown.]
    Here is the devastation. In March of 2001, there were, I 
believe, about 3 million animals slaughtered, or about 80,000 a 
day in various ways: burial, burning. None of them, I don't 
think, are satisfactory.
    [Slide shown.]
    Economic impact, we have heard a lot of talk about that in 
the U.S. and in California. In the U.S., maybe $40 billion. 
These are old estimates, updated in 2001 dollars. In 
California, maybe it is around $8 to $10 billion estimated. And 
in the U.K., it was estimated about $15 billion U.S.
    [Slide shown.]
    OK. Here is what we are doing at Davis. We have got a model 
we have been working on for about 10 years and we are still 
going to keep working on it. We have collected data from 
different organizations around the country and collected 
information from the USDA on locations of premises. We have 
talked with experts to get their impression or subjective 
opinion of potential for transmission, for instance, or 
effectiveness of control strategies and we have collected 
information on animal movements, where do they go, how 
frequently are they moved and how many animals are moved. We 
put all that information in the model and do simulations, and 
that is what I want to show you some examples of now.
    [Slide shown.]
    And what I am showing you is focusing in California but at 
the end I have got a movie of what might happen if FMD were 
introduced into Kansas. So in California, I think the important 
points here are, it depends where the index, the first case is. 
If we are looking at a small backyard of beef, it is going to 
be a relatively small impact. If we are looking at an intensive 
dairy, it is going to be large. If we are looking at a sales 
yard, it is going to be very extensive. These are results that 
we did for California and I think the important point is that 
we estimated that if there were FMD, we would have 
approximately 400,000 or more animals infected. That could be 
reduced dramatically by a statewide movement ban, which would 
mean shutting down movement of animals within the State. Also, 
it could be reduced dramatically by vaccination. The important 
here I want to show is in the bottom slide with the figure with 
the little dots there, what they represent is number of 
carcasses that would have to be disposed on a daily basis, and 
it peaks there around 10,000 or 12,000, which is an incredibly 
large number of animals, much, much smaller than what they saw 
in the U.K. but these are cattle as opposed to sheep. OK. Time 
for the movie.
    [Movie shown.]
    Now, what I have got here is, when we do a simulation, we 
do maybe 1,000 of these runs. We try and recreate 1,000 
epidemics, and this is just one and it is not meant to be a big 
one or a small one. It is just a random one, with the exception 
that it simulates that four animals being shipped to a sales 
yard and then dispersed. If it were a backyard, we may not ever 
see it. So here we go. We start off, and you can't really 
appreciate the coloring but it is showing the spread down to 
Texas, up to Nebraska, and it is going to be spreading out to 
Idaho, and then the black represents, we have got movement 
control. So we are not really sure what is going to happen with 
movement control. It could be on a statewide basis. It could be 
nationally for the first few days. That is one problem the U.K. 
had. They waited 3 days until they put in the movement ban, but 
we can evaluate that if it were on a nationwide level or on a 
statewide level. So that is what I have got.
    [The prepared statement of Dr. Carpenter follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Stupak. Thank you. We will start with questions. I will 
begin. We will go 5 minutes so we can get through this.
    Dr. Kingsbury, if I may, you indicated that in Winnipeg, 
Canada, they were going to do it at a lab in a somewhat 
isolated area. Is that correct? They were going to put a hoof-
and-mouth disease lab in Winnipeg, Canada?
    Dr. Kingsbury. Yes.
    Mr. Stupak. And it was going to be small?
    Dr. Kingsbury. Well, we understand that they have 
relatively small capacity to handle animals like one or two at 
a time, so that is in comparison to what I understand is the 
plan for NBAF where that would be tens of animals managed at 
the same time.
    Mr. Stupak. All right. Did GAO find with regard to its 
investigation that DHS has conducted or commissioned any study 
to determine whether foot-and-mouth disease work can be done 
safely on the mainland?
    Dr. Kingsbury. They rely on a 2002 study that was 
originally commissioned by the Department of Agriculture that 
looked at the question of whether it was technically feasible 
to have foot-and-mouth disease research conducted on the 
mainland. That is a very different question from whether it can 
be done safely, and none of the actual evidence that is 
presented in that report goes directly to the question of how 
they assure the safety under these conditions. We talked----
    Mr. Stupak. Well, did they do a risk assessment?
    Dr. Kingsbury. There is nothing in this study that looks 
like a risk assessment.
    Mr. Stupak. Did they do anything like a--by ``they'' I mean 
the Department of Homeland Security--cost-benefit analysis, 
something like Dr. Carpenter did, where----
    Dr. Kingsbury. Not that we are aware of.
    Mr. Stupak. In your research, you can still do NBAF without 
having foot-and-mouth disease as part of that program. Is that 
correct?
    Dr. Kingsbury. Certainly.
    Mr. Stupak. DHS and Department of Agriculture both say that 
thanks to modern technology, the location of a high-containment 
laboratory performing foot-and-mouth disease research is no 
longer important. Do you agree with that?
    Dr. Kingsbury. I am not sure I understood that question.
    Mr. Stupak. OK. The way I understand it, DHS and Ag say 
that location of a high-containment lab performing foot-and-
mouth disease is no longer important, you can do it anywhere 
because of modern technology.
    Dr. Kingsbury. Well, modern technology certainly reduces 
the risk and the comparisons that have been made including even 
here this morning between BSL-4 laboratories in the heart of 
Atlanta and the risks associated with foot-and-mouth disease 
research I think are not quite comparing apples and apples. The 
risk of a release from a facility is non-zero. It may be very, 
very small. The question is, is it smaller or larger if you are 
doing research on large numbers of animals inside a 
biocontainment zone. It may be possible to do that. We are not 
saying it is not. We are just saying, we have not seen any 
evidence that that has been fully evaluated.
    Mr. Stupak. Well, your testimony also seems to indicate 
that other countries have moved back or moved their research on 
foot-and-mouth disease to an island. I think you mentioned 
Germany and Denmark. Is the U.K., which we both highlighted, 
Dr. Carpenter, are they looking at any other way of doing their 
foot-and-mouth disease research, Dr. Sharma or Dr. Kingsbury or 
anybody?
    Dr. Kingsbury. I don't think we know that, although there 
may be some debate about that going on. I think the case of 
Germany is instructive because the original island facility was 
built in East Germany, and when East and West Germany came 
together, they built one on the mainland, but now that--rather 
West Germany built one on the mainland. When East and West 
Germany came together, they made a conscious decision to put it 
back on the island.
    Mr. Stupak. Dr. Sharma, do you want to add anything on 
that?
    Mr. Sharma. No.
    Mr. Stupak. Dr. Carpenter, if I may, you talk about the 
statewide movement. Who is responsible for the restrictions of 
a movement if there is a foot-and-mouth disease outbreak? Is it 
the State or would it be the Federal Government?
    Dr. Carpenter. That is a good question. Actually, when I 
was watching some of the hearings on the Commerce Committee, I 
was thinking maybe it was the committee that was in charge of 
that. But as I understand it, and others can correct me, it is 
the State until they call in the Federal Government, and if it 
is a national-level emergency, it would be the national 
government, I assume.
    Mr. Stupak. What would the effect of a major foot-and-mouth 
disease outbreak be on our exporting?
    Dr. Carpenter. The only numbers I have seen on that were 
from the Parlberg study, and the estimate was 13 percent 
decrease in exports.
    Mr. Stupak. Because it seems to me we have trouble trying 
to get our beef into Japan and some of these other Asian 
countries now. If there is any----
    Dr. Carpenter. Yes, and if there are any politics involved 
in import-export, I think it would be a very good excuse to 
stop the importation of U.S. meat. We are doing that with other 
countries that cannot export to the United States because they 
have FMD.
    Mr. Stupak. The pictures you showed us in your presentation 
of animals slaughtered that took place in England in 2001, 
those weren't isolated instances, were they? Isn't it true that 
they had to kill millions of cattle, pigs and sheep and it took 
days to accomplish this?
    Dr. Carpenter. Right. It is estimated 6 to 10 million.
    Mr. Stupak. Let me ask you this. In the Senate Armed 
Services Committee, this was ``Emerging Threats'' on the Senate 
Armed Services Committee. The title of the hearing was 
``Emerging Threats,'' March 14, 2003, Senator Roberts 
indicated, and he said the ``Crimson Sky'' study, are you 
familiar with that?
    Dr. Carpenter. Yes, I am.
    Mr. Stupak. And he said that if we had a hoof-and-mouth 
disease put forth in this country, we could end up losing as 
many as 50 million head of livestock, would have to be 
terminated, and he went on to say that he would actually have 
to extend, if you are going to bury it or even if you burn it, 
you have to have like that of a football field 25 miles long 
just to take care of Kansas. Is that correct? Are you familiar 
with his testimony?
    Dr. Carpenter. I have no idea. I know that when we first 
started working on this in 2001, one of the first meetings was 
with people interested in carcass disposal and there were a lot 
of novel ideas, but there is a real problem associated with 
foot-and-mouth disease and moving animals that have been 
condemned, slaughtered, because of the potential for spreading 
the pathogen that way. So disposing of them onsite would be 
very difficult to do, and there would be major problems, I am 
sure, with EPA and the alternatives.
    Mr. Stupak. OK. I will submit for the record that Senator 
Roberts, when he said that if we had to terminate 50 million 
head of livestock just in Kansas, there would be a ditch 25 
miles long and half a football field wide in Kansas alone just 
to handle the herds. That is if you are burying them. Does that 
sound realistic?
    Dr. Carpenter. Again, I really can't. I think the 50 
million might be a bit of a higher number but----
    Mr. Stupak. I will move for the Senate Armed Services 
Committee Emerging Threats subcommittee, March 14, 2003, be 
part of the record.
    Mr. Shimkus. No objection, Mr. Chairman.
    [The information appears at the conclusion of the hearing.]
    Mr. Stupak. Questions, Mr. Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman.
    I am going to start with you, Dr. Carpenter, for the first 
question. I noticed that when you talked about exports and you 
said if politics were in the equation. I always tell folks 
politicians are the most honorable profession because we 
readily admit there is a political equation in everything we 
do. So you are at the right place if you want to talk about, 
are there political equations. We definitely have them here. 
And so I like that grin that you had on your face. But to the 
point of your presentation, we know foot-and-mouth disease is 
very contagious, we got that. What do you want me to extract 
from your presentation with respect to Plum Island?
    Dr. Carpenter. I don't want you to extract anything really. 
Seriously, I have never been to Plum Island and I don't really 
know that much about it. I do know basically what they are 
doing. You know, it sounds like there is always potential for 
escape, but personally, I would be more concerned with 
accidental introduction of contaminated meats or intentional 
introduction through terrorism.
    Mr. Shimkus. So you are going to take a pass on this?
    Dr. Carpenter. Yes, I can't comment on Plum Island.
    Mr. Shimkus. Because if I looked--and I am going to go to 
Dr. Kingsbury, but on your testimony, I have not been to Plum 
Island either, the chairman and I were talking. I have been to 
New York so it would probably be easy to get over there. But if 
you look at the picture in the GAO report, you have a picture 
of Plum Island and you have, there is another little land mass 
in that photo that looks very near. Because pathogens travel 
100 miles. Dr. Carpenter, is that what you said?
    Dr. Carpenter. Right.
    Mr. Shimkus. So Dr. Kingsbury, in the report, there is just 
a picture, and maybe that is Long Island. And how far is Plum 
Island from Long Island? Three miles?
    Dr. Kingsbury. Yes.
    Mr. Shimkus. So, I mean, if we are talking about pathogens 
traveling, yes, I guess the issue is, if the pathogens travel 
over water, is that making any damage to the pathogens that 
they will expire over saltwater or something?
    Dr. Carpenter. And that was the cause of the 1981 outbreak 
in the U.K. It traveled, I don't know, over 100 miles up to an 
island actually, the isle of Wight.
    Mr. Shimkus. Yes, so I mean, that is kind of the debate. I 
want to go back to the Germany facility. How far is the German 
facility off the mainland, the German island? Do we know?
    Mr. Sharma. About the same distance.
    Mr. Shimkus. Three miles?
    Mr. Sharma. Yes. What I would like to comment on is how far 
travel is a function of many different things. From a modeling 
perspective, the temperatures, the humidity, daytime, 
nighttime, all of these factors affect how far the virus or the 
bacteria is going to move; also, about their survivability if 
it is during the daytime. The island does offer some advantages 
in that respect because there is, especially in Plum Island, we 
know a lot about the direction in which the air flows. We have 
been doing a lot of studies, monitoring of the air flow, and it 
typically flows toward the ocean rather than toward Long 
Island. The second factor is, if it escapes to the mainland, 
the location of the susceptible animal population. While we 
have not presented that information but we have looked at the 
number of animal data by county that USDA collects, Plum Island 
has the least number of animals in the immediate surrounding 
counties, whether it is the Connecticut side, the New Jersey 
side or Long Island.
    Mr. Shimkus. And let me end with this. I am probably more 
concerned--we can never engineer a facility that human error 
will not undo. I mean, you can have all the failsafes you want. 
I believe we are a sinful human world and we make mistakes and 
some are--most of them are unintentional. Some are intentional. 
You look at data breaches and stuff, it is most people stealing 
data.
    So let me just end with this. Dr. Kingsbury, would you 
respond? Is there a comparison between the CDC facilities in 
Georgia and Plum Island? Can we equate the two equally, being 
that the CDC is in the Atlanta area?
    Dr. Kingsbury. We don't believe they are equivalent because 
while both have high-containment areas, Plum Island deals with 
numbers of large animals that become infected, that become 
slaughtered at the end, that have to be disposed of and the 
like, and all of the research done with animals, as I 
understand it, at CDC are small animals inside containers.
    Mr. Shimkus. That is all my questions, Mr. Chairman.
    Mr. Stupak. Thank you.
    Mr. Pickering for questions.
    Mr. Pickering. Thank you, Mr. Chairman.
    Dr. Kingsbury, you said that Australia contracts out foot-
and-mouth disease research to Thailand. Is that correct?
    Dr. Kingsbury. Yes.
    Mr. Pickering. And what is your research on the Thailand 
facility? Where is it located and have there been any breaches 
of disease?
    Dr. Kingsbury. We haven't looked into that.
    Mr. Pickering. Have you ever heard of any outbreak in 
Thailand?
    Dr. Kingsbury. There have been outbreaks in a number of 
Southeast Asia countries.
    Mr. Pickering. But you don't know if there is----
    Dr. Kingsbury. But we have not studied the details of them.
    Mr. Pickering. Now, in the German island scenario, it is 
connected by a road. Is that correct?
    Dr. Kingsbury. A causeway, yes, sir.
    Mr. Pickering. A causeway, and so that really, there is no 
distinction between the mainland site and an island site----
    Dr. Kingsbury. It is still----
    Mr. Pickering [continuing]. As far as the road connection?
    Dr. Kingsbury. It is still largely surrounded by water.
    Mr. Pickering. Yes, but it is connected by a road and so 
you would agree that it is a mainland connected site?
    Dr. Kingsbury. It is connected to the mainland by a 
causeway, yes, sir.
    Mr. Pickering. And the possible outbreak scenarios, if it 
is connected by a road, are really not that much different. Is 
that correct? I mean, one of your concerns is that an 
individual or a car would be a carrier of a disease, but in the 
German example, do you have any examples of that occurring?
    Mr. Sharma. The only area where the road would affect would 
be the movement of people and transportation so yes, they 
have--if there is an epidemic or an outbreak----
    Mr. Pickering. But there is not----
    Mr. Sharma [continuing]. There is a risk.
    Mr. Pickering. But your study has shown in that case that 
has never occurred. Is that correct?
    Mr. Sharma. That is correct.
    Mr. Pickering. Now, you said that Germany constructed a 
facility at the end of the Cold War when East Germany and West 
Germany reconciled, and that was a mainland site. That would 
have been around 1990. Is that--or when was the other site in 
Germany?
    Mr. Sharma. After World War II when Germany got divided, 
the West Germans had to make a decision where to locate. They 
located on the mainland but in an urban area where they were 
not in close proximity to the susceptible animals.
    Mr. Pickering. Were there any outbreaks in the German 
facility?
    Mr. Sharma. I think there was one but they could not 
associate it with the lab.
    Mr. Pickering. So a fairly extensive period of time in 
Germany where a mainland site operated safely?
    Mr. Sharma. Correct.
    Mr. Pickering. Thank you. The Canadian site, remote, do we 
have any examples of the Canadian site having any outbreaks?
    Mr. Sharma. Two things. First of all, they are, relatively 
speaking, new, and their scale is small.
    Mr. Pickering. So they are new, kind of like the new NBAF 
would be new?
    Mr. Sharma. Yes.
    Mr. Pickering. And modern.
    Mr. Sharma. The scale is very small, not comparable to even 
the current work, and----
    Mr. Pickering. Any outbreaks in Canada?
    Mr. Sharma. No.
    Mr. Pickering. Thank you very much.
    Dr. Carpenter, your concern over terrorism--really, 
terrorism, whether it is on an island or mainland, there is 
really no distinction or difference, is there?
    Dr. Carpenter. Well, actually I am not thinking terrorism 
of a facility. I am thinking terrorism of somebody infecting 
livestock on the mainland.
    Mr. Pickering. So the terrorism risk is really not an issue 
here of whether we have a mainland site or a Plum Island site?
    Dr. Carpenter. That is what I was talking about. Right.
    Mr. Pickering. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Stupak. Thank you, Mr. Pickering.
    Mr. Dingell for questions, please. Mr. Dingell?
    Mr. Dingell. Yes, and thank you for your courtesy.
    These are all questions that I would appreciate a yes or no 
answer to, Dr. Kingsbury and Dr. Sharma, as I go through 
because we have very limited time here. Foot-and-mouth disease 
is one of the most highly infectious and dangerous animal 
diseases known, and nearly 100 percent of exposed animals 
become infected. Is that so, yes or no?
    Dr. Kingsbury. Yes, sir.
    Mr. Dingell. Isn't it also true that you found from your 
research that a single outbreak of foot-and-mouth disease on 
U.S. mainland could cause significant economic consequences to 
our economy with possible losses of as high as $30 billion to 
$50 billion?
    Dr. Kingsbury. Yes to there being significant economic 
consequences. We didn't actually try to quantify it.
    Mr. Dingell. Now, isn't it true that the cost to our 
economy would not only be the thousands of animals that would 
have to be killed but the devastating effect upon the Nation's 
transportation system, exports, not only in meats but also 
other food products because protective embargoes would be 
imposed by other countries on U.S. farm goods?
    Dr. Kingsbury. Yes, sir.
    Mr. Dingell. And isn't it true that you found that since we 
moved all of the research of this dangerous disease to Plum 
Island, we have not had an outbreak like other countries?
    Dr. Kingsbury. Yes, sir.
    Mr. Dingell. Isn't it true that your research found that 
the United Kingdom, which has a lab on their mainland, has had 
numerous outbreaks costing billions of dollars including one 
last year that was linked to their own government research 
laboratory?
    Dr. Kingsbury. In general, there have been outbreaks. I 
wouldn't use the word ``numerous.'' I think it is more likely 
several, but the statement is correct.
    Mr. Dingell. Now, as a matter of fact, your research 
documented release of foot-and-mouth disease from labs in the 
United Kingdom, Denmark, Czechoslovakia, Hungary, Germany, 
Spain, and Russia, to name a few. Is that true or false?
    Dr. Kingsbury. Yes, true.
    Mr. Dingell. And didn't you also find that Germany and 
Denmark have moved their foot-and-mouth research to islands 
because of safety concerns at the same time DHS is 
contemplating moving our lab to the mainland?
    Dr. Kingsbury. Yes, sir.
    Mr. Dingell. And isn't it also true that you talked to the 
Australian officials who have one of the newest and most 
advanced labs for the study of animal diseases, that their 
government refuses to let them do live virus foot-and-mouth 
research in it but requires them to have some other country to 
take the risk for them?
    Dr. Kingsbury. Yes, sir.
    Mr. Dingell. Now, let me understand your testimony. When 
you asked DHS for any reports on cost-benefit analysis that 
justified their decision to move live virus research on foot-
and-mouth disease to the mainland of the United States being 
done on Plum Island for almost 50 years they had none?
    Dr. Kingsbury. We have seen no cost-benefit analyses and we 
have asked for everything they have.
    Mr. Dingell. Now, Dr. Kingsbury, let us talk about the 2002 
SAIC study that DHS claims justifies this risky move. Isn't it 
true that you analyzed it and talked to its authors and 
concluded that it did not support DHS's risky decision for a 
number of critical reasons?
    Dr. Kingsbury. Yes, sir.
    Mr. Dingell. Now, let me highlight your findings about this 
SAIC report. You concluded this report could not support the 
conclusions that this research could be done safely on the 
mainland because it, one, addressed a different question; two, 
was selective in what it considered; three, did not assess the 
history of releases of foot-and-mouth disease virus or other 
pathogens either in the United States or elsewhere; four, did 
not address the issues of containment related to large animal 
work; and five, was inaccurate in comparing other countries' 
foot-and-mouth disease work experience with the situation in 
the United States.
    Dr. Kingsbury. Yes, sir.
    Mr. Dingell. Dr. Kingsbury, isn't it true that rather than 
supporting moving Plum Island to the mainland, the authors of 
the SAIC study actually concluded that if you included the cost 
of cleaning up the Plum Island site, it made economic sense to 
keep the research on Plum Island?
    Dr. Kingsbury. Yes.
    Mr. Dingell. So the bottom line is that someone at DHS 
either never read the report or is not being forthcoming and 
truthful in reporting to this committee or the Congress when 
they say the report justifies this move?
    Dr. Kingsbury. I am not going to speak for DHS, sir.
    Mr. Dingell. And I can assume that you are of the view that 
this is a risky move. Is that correct?
    Dr. Kingsbury. Yes.
    Mr. Dingell. Thank you.
    Mr. Chairman, I believe I have about exhausted my time.
    Mr. Shimkus. Would the chairman yield for one second?
    Mr. Dingell. I will be happy to yield.
    Mr. Shimkus. Just to follow up on this, when did GAO share 
this report with DHS and USDA?
    Mr. Sharma. Tuesday.
    Mr. Shimkus. Tuesday?
    Dr. Kingsbury. Yes.
    Mr. Shimkus. That is all my questions, Mr. Chairman.
    Mr. Stupak. Let me just ask a question, Dr. Kingsbury or 
Dr. Sharma. The committee was disturbed to learn, as Mr. 
Dingell alluded to in his opening, that DHS was refusing to 
provide you with documents such as the statement of the work 
for the environmental impact statement. What excuses do they 
give for not providing you the documents you requested to do 
your analysis for this committee?
    Dr. Kingsbury. I believe they said that they were not going 
to give them to us because the documents were not yet public, 
but as you know, our access allows us to get access to that 
kind of information. We just haven't had the time to fully have 
the argument yet.
    Mr. Stupak. So there are still documents you would like to 
have from DHS?
    Dr. Kingsbury. If you want us to continue to look at this 
matter, yes, sir.
    Mr. Stupak. We may go another round of questions, but 
without objection, I will turn to Mr. Moran for questions.
    Mr. Moran. Mr. Chairman, thank you very much. Thank you for 
the courtesy that is being extended to me and Ms. Boyda for the 
opportunity to join you on this panel today, and I fully 
understand the desire of the Chair and the nature of this 
hearing to limit our discussion to the idea of moving the 
facility from Plum Island to the mainland.
    Dr. Carpenter, the risks that you describe, what caught my 
attention, of course, was the episode that begins in the 1st 
Congressional district in Kansas in your slide presentation.
    Dr. Carpenter. Oops.
    Mr. Moran. But the reality, it seems to me, would be that 
the risks are minimized at a high-tech new facility and that 
when you do the model as if there is going to be an episode of 
hoof-and-mouth disease, the implication is that the risks are 
increased by the presence of a new facility located on the 
mainland, and it seems to me that the risks are actually higher 
from the natural or intentional introduction of hoof-and-mouth 
disease and so I just want to make sure that the suggestion is 
not, at least I would hope the suggestion is not that the 
facility would be the cause and effect or increasing the risk 
of hoof-and-mouth disease in cattle country as compared to 
hoof-and-mouth disease occurring naturally or----
    Dr. Carpenter. Right. Absolutely not. I went to my program 
and I said select a place in Kansas, so there was no intention 
to say that there was a release from a facility. It was just if 
it were there and it were in four or five animals, what might 
happen.
    Mr. Moran. And I don't know that that is an appropriate 
question for you but just common sense tells me that the risk 
is higher for a natural occurrence or for intentional 
introduction of hoof-and-mouth disease for nefarious reasons 
than it is for its escape from a facility?
    Dr. Carpenter. One would think based on history, but based 
on history, there has been no intentional introduction that we 
know of in the United States, which is surprising but 
fortunate.
    Mr. Moran. So that assumption, is my suggestion correct, 
that the risks are not increased necessarily by a facility? 
There are other factors that may introduce hoof-and-mouth 
disease to the continental United States?
    Dr. Carpenter. Right, there are definitely other factors. 
As I said earlier, until 2007 I wasn't really thinking about 
the potential of a leak. More so, I think it is important for 
contaminated food coming into the country or intentional 
actions.
    Mr. Moran. It is sad that we would have to talk about the 
possibility of intentional introduction. And then finally, I 
know that the State of Kansas including colleagues of yours at 
the Kansas State University have done extensive studies on the 
introduction of hoof-and-mouth disease to our State, have done 
modeling and scenarios and actually have acted out the--I just 
was wondering if you are familiar with those studies and 
included them in your analysis or discussion?
    Dr. Carpenter. Yes, I am familiar with them. I didn't 
include those in the analysis though.
    Mr. Moran. Thank you, Mr. Chairman, for allowing me this 
opportunity.
    Mr. Stupak. Ms. Boyda for questions.
    Ms. Boyda. Thank you very much, and thank you for letting 
Mr. Moran and me join this hearing.
    I am from Kansas as well, and, all of the ``It's What's for 
Dinner'' commercials, that is Kansas. You are seeing Kansas. So 
all of the discussion about how dangerous this is, we find to 
be something that certainly we all are very, very, extremely 
cognizant of. And I think what Mr. Moran was talking about and 
asked if you had taken into account, we have a procedure set up 
if anything happens in Kansas to get it to be under control 
within hours, not days, because again, this is something that 
we deal with. If you are in California, you know what you are 
going to do in the case of some kind of a disaster there. So we 
live and breathe this everyday. And having this whole 
discussion about how dangerous hoof-and-mouth is, I am glad 
everybody in the country knows about it, but I hope everybody 
hear understands that Kansas lives and breathes this danger 
every day. We export more beef than anybody in the country. We 
are the beef producer. So everything that you are talking about 
is nothing we haven't considered. It is what we consider each 
and every day, and keeping our herds safe is the most important 
thing that many of us would wake up and say is very important 
to Kansas.
    So when we hear that Plum Island is 3 miles away and the 
virus can easily spread for 100 miles, it doesn't, and knowing 
that Plum Island has not been well taken care of or maybe it is 
taken care of. It is old; it puts fear in our hearts knowing 
that in fact there could be a release from Plum Island and it 
could very, very easily get over to the mainland. And I just 
again very quickly would like you to address what, we all 
understand that there could be some politics playing with this. 
Is there a chance that putting it in some island is more for 
political reasons so that people feel some sense of safety 
because some way or another there is some water between the 
mainland, but in fact, is that a false sense of security for 
people and maybe that in fact might have some political edge to 
it?
    Dr. Carpenter. Is that a question?
    Ms. Boyda. Yes.
    Dr. Carpenter. Yes. Well, I am sure it would make people 
feel safer if they see a body of water out there. As far as the 
airborne spread, I am not sure of this but I know about the 
spread in 1981 in the U.K., that pigs are very effective 
producers of the virus, shedders of the virus in the air and 
that cattle are very good receptors. So if you have infected 
pigs producing the virus and shedding it and you have receptive 
cattle receiving it, that is a real problem. But airborne 
spread from a few infected cattle, I don't think would be a 
major problem.
    Ms. Boyda. I am talking about a release from Plum Island, 
and I only have a couple of minutes. I would like to ask just 
another question or two. In Kansas we are deeply concerned. We 
haven't had an outbreak since 1929, but if there were, then 
what do you do with those carcasses and how do you get them? Do 
they need to be transported off to Plum Island so that there 
can, in fact, be some research done on them? What are the risks 
of actually having to transport animals that are infected out 
to an island in New York versus being able to have an immediate 
chance to take these animals into a laboratory? Is there any 
benefit in that?
    Dr. Carpenter. No, but I----
    Ms. Boyda. And this is for Dr. Kingsbury as well.
    Dr. Carpenter. I couldn't visualize transporting 5,000 or 
10,000 cows----
    Mr. Boyda. No, no, no, but would you need to transport some 
of the animals affected into the laboratory to see if there is 
any----
    Dr. Carpenter. I would assume that they would just take 
samples from the animals for confirmation.
    Ms. Boyda. But you are still having to take those samples, 
which are still going to house that and take them off to New 
York. I just wonder if there is any advantage in saying the 
laboratory is right there. If you needed to do anything, you 
would be within an hour of being able to begin a study in this 
country.
    Dr. Carpenter. Actually, that is a very good point that I 
forgot to make, that I think there would be a good move to put 
facility wherever it is that is doing the diagnostics in a 
location that is easily accessible because we are looking at 
millions of dollars for every hour of delay that----
    Ms. Boyda. That is right, my point being minutes. This is 
an instant. Kansas understands that this isn't about days, it 
isn't even about hours. It is about minutes and being able to 
react so quickly and making sure that you are containing 
things.
    Let me just finalize by saying, Mr. Chairman, I am deeply 
appreciative of what you are saying about DHS, and from a 
political standpoint versus just making a good decision, 
ultimately Kansans want the right decision made here. We have 
so much at stake here that we want the right decision made, and 
if DHS is not forthcoming with things, that will cause everyone 
so much trouble politically but in making the best decision as 
well. And I certainly am very, very appreciative of hearing 
what you are saying DHS is. We need the transparency to make 
sure that the best decisions really are being made but that the 
American people and the cattlemen in Kansas also know that this 
process is something that was open and transparent and the best 
possible decision.
    So I certainly appreciate what you are doing in that 
regard. I yield.
    Mr. Stupak. Mr. Dingell, questions?
    Ms. Boyda. Oh, I am sorry. I have a letter from the 
delegation that I would like to give to the Committee, if that 
is all right. This is from the Kansas delegation, Chairman 
Stupak. Thank you.
    Mr. Stupak. Mr. Dingell.
    Mr. Dingell. Thank you, Mr. Chairman. You alluded to a 
proceeding involving my good friend, Pat Roberts, who held a 
hearing with Admiral Jembresky and G.M. Bastiani and it 
occurred on March 28, 2003. I would like to read from it. Here 
are comments coming from Senator Roberts. He said, ``I played 
the President under an exercise called Crimson Sky with the 
Department of Agriculture. Now, Crimson Sky was the misnomer 
label of what would happen if Iraq had launched a hoof-and-
mouth disease infestation in the United States in 7 States. 
Now, that doesn't sound like much on the surface of it but if 
you have an infestation period of 6 days and on the 7th you 
have got to make some decisions and we didn't do it very well. 
We ended up with 50 million head of livestock that had to be 
terminated. Now, how do you do that? Just on the surface of it, 
how on earth do you do that and what do you do with the 
carcasses? Well, obviously it was the National Guard, and then 
obviously the National Guard couldn't handle it, so it was all 
active duty. And then we found we didn't have enough 
ammunition, and we found that you don't burn the carcasses 
because that we learned in Great Britain, that is not what you 
do. So you had to bury them, and there was a ditch 25 miles 
long and half a football field wide in Kansas alone just to 
handle the herds there. Then we had to put up a stop order on 
all shipments because you were having states and National 
Guards being activated by all the governors to stop other 
states and transportation of livestock, all export stock. The 
market went nuts and the people in the cities finally figured 
out that their food did come from farms, not supermarkets, and 
they rioted in the streets and there was a mess. And it was not 
only for 1 year but for several years. Then add in the problem 
of food security, that if you put a little anthrax in some 
milk, you have really got a problem on your hands. Now, I want 
to know, I know that at that particular time when different 
events happen, that DOD will be there. They are going to have 
to be there because they are the only outfit that can do it. I 
prefer the National Guard because people know them, trust them. 
They are the home forces and they are working toward it.''
    Now, I want to understand one thing, and this is a question 
to any of our panel, particularly to our two witnesses from 
GAO. You told the DHS that you were conducting an official 
congressional investigation for this committee. Is that 
correct?
    Dr. Kingsbury. Yes, sir.
    Mr. Dingell. And that Under Secretary Cohen or other 
members of his staff told you that you could not have the 
documents until after it was made public. Is that correct?
    Dr. Kingsbury. Yes, referring specifically to the statement 
of work for the environmental impact statement.
    Mr. Dingell. What did you just say?
    Dr. Kingsbury. We were asking for the statement of work for 
the ongoing environmental impact statement, and that is what 
they said was not public.
    Mr. Dingell. What was the reason they told you you could 
not have those documents?
    Dr. Kingsbury. They said they were going to be released at 
the end of the month, and when they were public we could have 
them.
    Mr. Dingell. But you couldn't have them before?
    Dr. Kingsbury. That is what they said.
    Mr. Dingell. Did they set forth a reason why you could not 
have that information or those documents?
    Dr. Kingsbury. I think I just said everything they said.
    Mr. Dingell. What was the reason? Was there a statutory 
reason or constitutional reason on which they set forth that 
they could deny you access to those documents?
    Dr. Kingsbury. OK. Dr. Sharma has just clarified that the 
argument that the statement of work could not be given to us 
was that it was proprietary and----
    Mr. Dingell. Why was it proprietary?
    Dr. Kingsbury. They did not say.
    Mr. Dingell. They did not cite any reason why those were 
proprietary?
    Dr. Kingsbury. No, sir.
    Mr. Dingell. Can you tell us why they are proprietary?
    Dr. Kingsbury. No, sir, and under our rules of access, I 
don't think there is any reason for them to deny them.
    Mr. Dingell. Is GAO denied any documents on grounds that 
they are proprietary?
    Dr. Kingsbury. Occasionally that issue arises, but once we 
have time for our lawyers to discuss the matter, we usually----
    Mr. Dingell. Why are these documents proprietary?
    Dr. Kingsbury. I am sorry, sir. I don't believe they are. 
But----
    Mr. Dingell. Well, is it because a contractor is doing it? 
The contractor has got some proprietary interests in the work 
that he is doing for the government?
    Dr. Kingsbury. I don't know why that word was used. It is 
not appropriate to deny GAO access.
    Mr. Dingell. We will ask those folks to explain their 
secretary.
    Now, isn't it true that you had other problems getting 
records from DHS and USDA and that they even delayed your trip 
to Plum Island until this committee sent a letter threatening 
them with contempt?
    Dr. Kingsbury. It is true that it took us 6 weeks to 
arrange the trip to Plum Island and there have been occasional 
delays in getting documents. The most recent issue over the 
environmental impact statement statement of work is the most 
recent case in point.
    Mr. Dingell. Now, isn't it true that while our own DHS is 
delaying giving GAO documents and access to the Plum Island 
facility, you were having no problem getting information from 
foreign countries and visiting their facilities?
    Dr. Kingsbury. That is correct.
    Mr. Dingell. And you were received with courtesy and given 
full assistance and cooperation by Germans, Danes, and British 
as well as other countries?
    Dr. Kingsbury. Germans, Danes, and British, and the 
organization in France, yes, sir.
    Mr. Dingell. Thank you.
    Mr. Chairman, I appreciate your courtesy.
    Mr. Stupak. I thank the gentleman.
    Let me ask a question if I may, Dr. Kingsbury or Dr. Sharma 
or Mr. Carpenter; maybe I will start with you, Dr. Kingsbury. 
The exhibit book right there in front of you, tab number 12, 
you alluded to in your testimony, Dr. Kingsbury, and others 
have referred to it, the SAIC report, that is Science 
Application International Corporation, and it is tab 12 in our 
exhibit binder. And I understand you had concerns about this 
report, but I want to ask you, if I may, on page 16, second 
full paragraph, it says, ``Biosafety lapses at any facility 
location likely have an equal risk of occurrence.'' Would you 
agree with that?
    Dr. Kingsbury. The document at tab 12, sir, only has about 
5 pages in it.
    Mr. Stupak. OK. Page 16 is not included in that?
    Dr. Kingsbury. Not that I can see. It is just a table of 
contents.
    Mr. Stupak. All right. Let me ask you this then from it. My 
binder had it. I thought yours had it. ``Biosafety lapses at 
any location have an equal risk of occurrence.'' Would you 
agree with that statement or not? In other words, the risk 
occurs really from lapse in biosafety practices resulting in 
the release of an agent or intentional removal by someone with 
access to the facility. That is how security lapses occur.
    Dr. Kingsbury. That is how these things occur. I wouldn't 
say it is the same at every facility because different 
facilities would have different levels of training and concern 
about the matter.
    Mr. Stupak. Correct. And let me ask Dr. Carpenter this 
question. When you showed your map up here, the United States 
and the animal populations, it looked like about the only place 
you could do it, and I just took a quick look at it while you 
had it up there, was basically Nevada. That is the only place 
in the United States, correct?
    Dr. Carpenter. Well, they have livestock in Nevada.
    Mr. Stupak. OK. Well, it looks pretty bare in your picture 
there.
    Dr. Carpenter. Right. I think what was happening was you 
didn't see infected premises because animals were not shipped 
there.
    Mr. Stupak. A way for this to occur, foot-and-mouth 
disease, either it is intentionally introduced or we have a 
lapse in safety, and this committee has done enough oversight 
and investigations at the labs, whether it is the nuclear labs, 
Los Alamos, wherever, or Lawrence Livermore as we have an issue 
going on today with them; those are mistakes. They occur. Is it 
the key to your testimony then; since we know there is human 
error and these things occur, you would want foot-and-mouth 
disease where there is the least amount of animal population to 
infect, if there is a release, however it occurs. Is that fair 
to say, Dr. Carpenter?
    Dr. Carpenter. That makes sense.
    Mr. Stupak. And in all the sites we have seen, Plum Island, 
because they do not have animals in the immediate area, is 
probably about the safest spot we have in this country for the 
past 50 years for hoof-and-mouth disease research. Is that 
correct?
    Dr. Carpenter. I don't know. I don't know if there is 
access of animals to the island.
    Mr. Stupak. OK. Dr. Sharma, Dr. Kingsbury, you were both at 
Plum Island. Is that fair to say?
    Dr. Kingsbury. Dr. Sharma was there, yes.
    Mr. Sharma. There are no animals on the island other than 
the animals that are brought there for specific experiments. 
DHS has told us that occasionally, we don't know the frequency 
and the numbers, that deer swim from Long Island to the island 
and they shoot them.
    Mr. Stupak. Sure, to keep them off Plum Island?
    Mr. Sharma. Correct.
    Mr. Stupak. So you don't have spread of disease, correct?
    Mr. Sharma. Correct.
    Mr. Stupak. In my home State of Michigan, we have bovine 
TB, and Dr. Carpenter, it is in the small northwest part of 
lower Michigan, but all of Michigan, we are not allowed to 
transport dairy without numerous inspections, and some states 
still won't accept our dairy from Michigan because of bovine 
TB. So if you have an outbreak, and I think I asked you this 
before, who is responsible then for determining. In Michigan, 
it is bovine TB, but if it is hoof-and-mouth disease, who would 
make that determination? Since this is under the jurisdiction 
of DHS, is it going to be Department of Homeland Security, 
United States Department of Agriculture, State Department of 
Agriculture? Where would it be?
    Dr. Carpenter. I believe to a point it is the State, then 
it is the USDA, and we have the same situation happening in 
California with our second herd of TB.
    Mr. Stupak. Very good. Mr. Shimkus, then we will go around 
to the members who have just come in who would like to ask 
questions.
    Mr. Shimkus. Thank you, Mr. Chairman. I will be short.
    I just want to follow up on just some of the details, and 
Dr. Kingsbury or Dr. Sharma or Dr. Carpenter, it doesn't really 
matter who answers as long as it is consistent. What are the 
details of the last foot-and-mouth disease outbreak in the 
United States, the 1929 outbreak? And what I am looking at, how 
did it happen, did it involve human error, did it involve a 
laboratory, what the cause of the outbreak determined and where 
did it occur? Can anyone update me on the 1929----
    Dr. Carpenter. I will embarrassingly say California, and I 
don't know the rest of the answer to that. It is in a document 
that I could look up but I don't know offhand.
    Dr. Kingsbury. We haven't gone back that far. We do report 
on some incidences in our testimonial statement but we didn't 
go back to the 1929 event.
    Mr. Shimkus. Well, my colleague, Jerry Moran, is here from 
Kansas, and Congresswoman Boyda kind of mentioned Kansas. Were 
you guys involved with the 1929 outbreak at all? I am just 
asking. I am not trying to be goofy.
    Mr. Moran. I appreciate Mr. Stupak, the chairman's 
courtesy, extended to me. I am less enamored with yours, Mr. 
Shimkus. Thank you.
    Mr. Stupak. Well, I would have to put Jerry under oath and 
we don't want to do that.
    Dr. Kingsbury. I think it is fair to say there were no 
laboratories at that time so it had to have been a naturally 
occurring outbreak.
    Mr. Shimkus. OK. I yield back my time. Thank you.
    Mr. Stupak. Mr. Inslee for questions.
    Mr. Inslee. Thank you.
    This GAO report is very disturbing to me in concluding that 
there really has been no study done of the safety. It is kind 
of mind boggling to me, frankly, because obviously you lose a 
degree, another series of barriers if there is a release and we 
know there are releases on occasion from these facilities, try 
as we might. So I am kind of flummoxed as to why this decision 
has gone on.
    Let me just ask you at the table, what type of cost-benefit 
analysis has been done. For instance, has there been any 
assessment of any additional costs for operating on an island 
compared to the costs to the U.S. economy if in fact there is a 
hoof-and-mouth outbreak in the United States? What is the ratio 
of those two numbers?
    Dr. Kingsbury. As far as we know, that study has not been 
done.
    Mr. Inslee. Now, if you are going to remove a pathological 
laboratory like this and remove one barrier of protection of 
Americans, which is the water, which works really, really well 
if there is a release, wouldn't you want to have that kind of 
assessment before you make a decision like this?
    Dr. Kingsbury. I think the point of our testimony is that 
there should be more analysis done before this decision is 
made.
    Mr. Inslee. And what additional costs were there in 
construction or operation that were considered? Did anyone 
present any ballpark figures?
    Dr. Kingsbury. There have apparently been estimates of what 
it would cost to build a facility although those estimates 
appear to be changing, and the costs of closing down the 
facility on Plum Island seem not to have been included in that 
analysis.
    Mr. Inslee. Which is a huge mistake, given the enormous 
costs for closing facilities like this, particularly with toxic 
material involved. I live on an island. I am an islander. I 
live on Bainbridge Island, Washington, so I have some sense of 
what it is like to live on an island, and I can tell you, life 
goes on on an island. You get your business done. You get 
across the water. It is just stunning to me that without a real 
solid assessment of the costs that we would remove a layer of 
protection for Americans given the enormous economic 
consequences of an outbreak including apples from Washington 
State. You know it could even involve the apple products. We 
don't think of that in those terms.
    So what would you recommend, if you could, to a department 
to really thoroughly evaluate this issue? You have told us that 
they need to evaluate whether or not they can safely do this, 
number one, but number two, what would you suggest on a full-
scale evaluation involving costs or benefits?
    Dr. Kingsbury. Well, clearly, in our view, there needs to 
be more assessment of the specific risks involved, and then 
once you assess and estimate what the risks are, then you have 
to look at the consequences, and the consequences get at the 
economic issues that you raised. We are not in the position to 
say how such an analysis would come out. I can imagine an 
analysis and a particular laboratory structure and all that 
could be deemed to be sufficiently safe. Our point is, those 
analyses have not been done.
    Mr. Inslee. Was this island at one time used as a 
quarantine facility of some sort? I have this weird historical 
memory that this island was involved in this. Does that ring a 
bell?
    Mr. Sharma. No, but I think it will be very illustrative to 
talk about the 1978 outbreak and that would shed some light 
onto what you are asking. At the time Plum Island had a 
practice of keeping animals in the holding areas, and when the 
release occurred, these animals became infected, and this point 
is extremely important. There are two things that happened. The 
virus didn't escape to the mainland, and we were able to 
convince OIE that island is serving as the second 
recontainment. It is an extension of the lab and therefore OIE 
did not impose any sanctions on our exports. We asked them if 
there is a single case of an outbreak in the United States, 
would OIE impose a ban, and their answer was yes. So it is a 
matter of taking risks, but OIE's position is that an outbreak, 
if contained on the island, would not lead to a ban on our 
exports.
    Mr. Inslee. Well, given that enormous impact on the U.S. 
economy should that occur, I certainly would hope that somehow 
we put this decision off until there is a full cost-benefit 
analysis and we do have access to the environmental study. 
Would any of you disagree with that?
    Dr. Carpenter. No.
    Mr. Inslee. Then we are all of like minds. Thank you very 
much.
    Mr. Stupak. Mr. Whitfield for questions, please.
    Mr. Whitfield. Mr. Chairman, thank you. I am sorry I was 
late getting here. But it seems to me, and I think our friend 
from Washington State pointed this out, the GAO in their report 
says very emphatically that the Department of Homeland Security 
has neither conducted nor commissioned any study to determine 
whether FMD work can be done safely on the U.S. mainland and 
instead they have looked at a study about is it technically 
feasible. So it seems to me that until Homeland Security has a 
more comprehensive look at this, that it is really premature 
for us to be discussing this issue.
    With that, I will yield back the balance of my time.
    Mr. Stupak. I thank the gentleman.
    Let me just ask one question, we will let this panel go, 
and I think we are going to have votes on the Floor here pretty 
quickly. We mentioned, and it has been placed in the record, 
Mr. Dingell read from it, this statement from Senator Roberts 
in which he played the President of the United States. So let 
me have each of you play that role for a moment and let me ask 
you this question. If you were the President of the United 
States, they came to you and said we are going to do this NBAF, 
part of it is going to be hoof-and-mouth disease, we have Plum 
Island or we can move it to the mainland. In your personal or 
professional opinion, would you move, the foot-and-mouth 
disease part from Plum Island, Dr. Kingsbury?
    Dr. Kingsbury. I would not want to answer that question 
without more analysis than we have seen today.
    Mr. Stupak. OK. Dr. Sharma?
    Mr. Sharma. Same.
    Mr. Stupak. Dr. Carpenter?
    Dr. Carpenter. Well, when we were trying to get it to 
Davis, I was in favor of it and I live right next to where the 
lab would be.
    Mr. Shimkus. Mr. Chairman, can I----
    Dr. Carpenter. I feel comfortable with it.
    Mr. Stupak. Where it is now, you mean?
    Dr. Carpenter. In Davis, California.
    Mr. Stupak. You do hoof-and-mouth there?
    Dr. Carpenter. No, no. They were--Davis was one of the 
sites that was talked about early on.
    Mr. Stupak. Right. OK.
    Mr. Shimkus.
    Mr. Shimkus. If I can just follow up, would you advocate 
outsourcing, as Australia does, since Australia does have BSL-3 
and -4 and they are highly--that they outsource? I mean, is 
that an option?
    Dr. Kingsbury. Having our work done in Australia?
    Mr. Shimkus. Well, I am just--outsourcing like they do in 
Australia.
    Mr. Sharma. We had talked to some experts, and they had 
analyzed this issue and there are certain aspects of this work 
which are more risky than others. The riskier parts are if you 
are working with large animals, doing some challenging studies, 
they obviously are shedding a lot of virus, and that kind of 
work, if you want to minimize, you can outsource it. The 
diagnostic capabilities, present lower level of risk. That is 
the kind of expertise you want to have in-house because you 
need to diagnose as soon as possible. So there are aspects. It 
is not total or all.
    Mr. Stupak. Mr. Pickering, any questions before I leave 
this panel?
    Mr. Pickering. Just a couple brief questions.
    Dr. Kingsbury, to sum up your testimony, tell me if this is 
correct. You are not saying that the decision to put a facility 
on the mainland is riskier than keeping one on Plum Island. You 
are simply saying that more analysis needs to be done to 
determine that risk. Is that accurate?
    Dr. Kingsbury. It is close. Most of the experts that we 
have talked to have said that an island provides an additional 
level of protection. The risks would be the same of a release 
but it is the risk, the downstream risk of an actual outbreak 
that the island provides a further layer of protection for
    Mr. Pickering. Dr. Carpenter, Plum Island is, I think, 3 
miles from Long Island, 6 miles from Connecticut. Airborne 
pathogens can travel over 3 and 6 miles, can they not?
    Dr. Carpenter. Yes.
    Mr. Pickering. So really, Plum Island is a false sense of 
security, isn't it? So maybe if we had an island 20 miles or 50 
miles offshore, that might be correct, Dr. Kingsbury, but the 
close proximity to shore, Plum Island really does give little, 
if no, additional protection. Would that be--and Dr. Carpenter, 
you said that you are in support of it. You live within 
minutes. There is no--and this is very, very important. There 
is a risk, an economic risk to our animal health and the 
economy based on that but there is no risk at all to human 
health. Isn't that correct?
    Dr. Carpenter. Virtually no risk, yes.
    Mr. Pickering. And again, there is not much difference 
between a site that is 3 to 6 miles offshore than one that 
would be at UC-Davis a few minutes from your home, and the 
other thing that I think that is important, Dr. Kingsbury, is 
that the U.K. facility where you had an outbreak, is you have 
apples and oranges comparisons. The U.K. facility is outdated, 
similar to the Plum Island facility, and as you look at modern 
facility to modern facility, probably the closest example would 
be Canada where there has been no outbreak, so I think from a 
policy point of view, a modern facility is most important. Plum 
Island is a false security because it really is close to 
population centers.
    Dr. Kingsbury. The issue is not population centers. The 
issue is, how close is it to susceptible populations of the 
animals that become diseased, and in addition to being an 
island, and we have to say, there has been no spread of the 
virus from that island in its history----
    Mr. Pickering. But you could also find other facilities, 
mainland facilities in countries where there have been no 
outbreaks as well.
    Dr. Kingsbury. That is correct.
    Mr. Pickering. Thank you, Mr. Chairman.
    Mr. Stupak. Mr. Moran, any questions?
    Mr. Moran. No.
    Mr. Stupak. Let me ask just one. You used false sense of 
security. It is really not a false sense of security, it is a 
proven sense of security, is it not, that you have had an 
outbreak there and it never spread to the mainland?
    Dr. Kingsbury. There have been releases on Plum Island. 
They have not left the island and therefore they haven't spread 
to animal populations, and as Dr. Sharma said earlier, part of 
that has to do with the prevailing winds in that area.
    Mr. Stupak. Sure, it blows it out and----
    Dr. Kingsbury. And those have been studied and understood, 
so I think it is not quite false that it is safe.
    Mr. Stupak. Now, Dr. Kingsbury, you have not gone to Plum 
Island but----
    Dr. Kingsbury. I have not, no, sir.
    Mr. Stupak. And Dr. Sharma, you have?
    Mr. Sharma. Yes, I have.
    Mr. Stupak. Dr. Carpenter, have you?
    Dr. Carpenter. No, I haven't.
    Mr. Stupak. Then Dr. Sharma, do you know, having been 
there, is there any reason why you could not build the new NBAF 
on Plum Island? Is there any reason why you cannot build a new 
research facility for foot-and-mouth disease on Plum Island?
    Mr. Sharma. Well, there is plenty of land. As a matter of 
fact, the islands in Denmark and Germany are significantly 
smaller in size. In addition to that, there are some assets on 
the island that would lower the costs and DHS since 2002 has 
invested significant amount of money, in particular, things 
like they have power generators, backup power generators. They 
are expensive. They are assets that can be used if they decide 
to build a new facility there.
    Mr. Stupak. Thank you. That will conclude questions of this 
panel. I want to thank the three doctors for being here and 
thank you very much for your testimony. You are welcome to stay 
for the rest of the hearing.
    I would like to call up our second panel of witnesses. We 
have Mr. Ray Wulf, who is President and CEO of the organization 
American Farmers and Ranchers; Dr. Howard Hill, who is Chief 
Operating Officer of Iowa Select Farms; Mr. Leroy Watson, who 
is Legislative Director for National Grange of the Order of 
Patrons of Husbandry; and Dr. Gary Voogt, who is President-
Elect of the National Cattlemen's Beef Association.
    It is the policy of this subcommittee to take all testimony 
under oath. Please be advised that witnesses have the right 
under the Rules of the House to be advised by counsel during 
their testimony. OK. We have been asked to hold for a minute 
for Mr. Voogt. We will hold for a minute or two until he comes 
back.
    As I was saying, Mr. Voogt, it is the policy of this 
subcommittee to take all testimony under oath. Please be 
advised that you have the right under the Rules of the House to 
be advised by counsel during your testimony. Do any of our 
witnesses wish to be advised by counsel during their testimony? 
Everybody is indicating no. Therefore, I am going to ask you to 
please rise and raise your right hand to take the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect that the witnesses 
replied in the affirmative. You are now under oath. Mr. Wulf, I 
am going to start with you, but I am going to ask you to wait 
30 seconds because I think they are going to call us for a 
number of votes here. All right, Mr. Wulf, go ahead, start, 
your opening statement, please, 5 minutes. If you have a longer 
one, please submit it for the record.

 STATEMENT OF RAY L. WULF, PRESIDENT AND CEO, AMERICAN FARMERS 
                          AND RANCHERS

    Mr. Wulf. Thank you, Mr. Chairman and Ranking Member 
Shimkus and the rest of the Committee. I am Ray Wulf, President 
and CEO of American Farmers and Ranchers. We are based in 
Oklahoma City.
    Mr. Stupak. Go ahead.
    Mr. Wulf. We are a general farm organization.
    Mr. Stupak. Our timing is not good today. All right, sir. 
Let us try it again.
    Mr. Wulf. American Farmers and Ranchers Insurance Company. 
We do business in 24 States, and as I said, we are located in 
Oklahoma City. Running through the questions that were posed to 
us, we are absolutely against and opposed to movement of the 
Plum Island Animal Disease Center to the mainland United 
States. As you may know, already we have heard, this is the 
only facility where certain highly infectious foreign animal 
diseases are studied, such as the foot-and-mouth disease. Foot-
and-mouth disease is a highly contagious virus that affects 
cloven-hoofed animals such as cattle, sheep, pigs, goats and 
deer.
    Foot-and-mouth disease can be carried by wind, clothing, 
footwear, skin, through nasal passages and any equipment. As a 
matter of fact, I am not aware of anything that this will not 
adhere to and can be transmitted. There are simply too many 
possibilities for error, either by negligence or accident, and 
could impose extreme economic impacts on U.S. agriculture, U.S. 
agriculture producers and our consumers. When dealing with this 
particular type of risk, it is better to deal with a known 
probability of an occurrence than to move a facility to a new 
location where you have no history and an unknown probability 
of an occurrence that can happen. Any event with or without 
history, there is a probability that can be assessed to a 
particular outcome and one certainly needs to be assessed here.
    United States infrastructure for moving livestock, second 
to none. We allow livestock to move rapidly across the United 
States. As a matter of fact, in 5 days, cattle trucking out of 
Oklahoma City National Livestock Market arrive in 39 States. 
Infrastructure is really good here in the United States, in a 
matter of days livestock can be transported hundreds of 
thousands of miles and intermingled with other livestock. If we 
move the facility we have the potential risk of an outbreak 
inside the mainland United States, whereas currently it is not 
a high risk of probability of transporting at Plum Island.
    The economic impact for AFR members would no doubt be 
severe, devastating, and reach far beyond the livestock 
industry. Direct economic losses would result from lost 
production, the cost of destroying disease-ridden livestock, as 
we have already heard, indemnification and costs of disease 
containment measures such as drugs, diagnostics, vaccines, 
veterinary services, and more. Indirect costs and multiplier 
effects from dislocations in agriculture sectors would include 
the feed and inputs industry, transportation, retail and 
certainly loss of our export markets, which is already a very, 
very sensitive issue.
    A foot-and-mouth outbreak would not only be a problem in 
agriculture but in Britain in 2001, as we have already heard 
with that outbreak, and I have a CD disc, Mr. Chairman, that I 
would like to leave that documents that one-on-one account of 
that outbreak for you and the other members to view at your 
convenience.
    Mr. Stupak. Without objection, it will be accepted.
    Mr. Wulf. Thank you. Outbreak in 2001, as we know, resulted 
in postponing a general election for one month, cancellation of 
many sporting events, leisure activities, cancellation of large 
events likely to be attended by those from the infected areas.
    And we talked about dollars and impacts from that alone. In 
an Oklahoma 1979 study that we saw, the economic impact could 
be anywhere from $2.4 billion, and that B as in bill--I have to 
put it that way for me because I am cowboy and don't count that 
high--anywhere up to $27.6 billion, as in B. California, we 
have already heard testimony about that alone, could be 
anywhere from $8.5 billion to $13.5 billion. We have had a lot 
of conversation regarding Kansas and those studies up there. 
Three scenarios were considered on the economic impacts of a 
foot-and-mouth disease outbreak in Kansas alone, and one was 
where the disease was introduced to a single, small cow-calf 
operation; another one, a medium-sized feedlot, 10,000 to 
20,000 head. We had another one with five large feedlots, and 
there are a lot of feedlots in Kansas, Oklahoma and Texas. As a 
matter of fact, there are some 6 million head of cattle in 
Kansas, some 5 million head of cattle in Oklahoma, and 14 
million cattle when we get into Texas. Under those scenarios, 
the small calf scenario, 126,000 head of livestock were 
infected and needed to be destroyed. In the medium-sized 
operation, 407,000 head in 39 days had to be put down. In five 
large feedlots, we had 1.7 million head of livestock that 
needed to be destroyed in the event of an outbreak that would 
last nearly up to 3 months. For the State of Kansas as a whole, 
those numbers could climb somewhere to the cost-economic 
benefit and loss of $945 million.
    Other things--livestock markets are not the only impact 
from the outbreak. Feed and grain, potential feed mills would 
also be impacted. We know half of all of our grain goes toward 
U.S. feed for animal consumption. Total trade impact certainly 
has to be looked at here. Over 94 percent of our consumers for 
our livestock markets are outside the United States. We 
certainly cannot afford to lose that. Japan, Mexico, Canada, 
Korea already account for 75 percent of all the U.S. exports, 
10 percent total production. Foot-and-mouth certainly is a 
trade disease that needs to be seriously looked at with the 
probability of occurrence. Global competition is fierce, as we 
all know, in agriculture, for dollars. In the event a foot-and-
mouth outbreak occurred in the United States, life as we know 
it would cease to exist, not to mention the already highly 
sensitive trade issues that I mentioned earlier in regards to 
Korea and Japan alone with our beef.
    In any outbreak of any magnitude, as I previously 
mentioned, there is a drastic drop in consumption. We only know 
that too well when we look at the episode with Food Lion, when 
we look at what has happened with trying to describe to the 
soccer mom with the 12-year-old out there the difference 
between mad cow disease and hoof-and-mouth disease and E. coli. 
Now, what does that do to the economic impact of an outbreak of 
any kind? You are looking at a barrier somewhere in the 
neighborhood of 20 miles and everything being destroyed within 
that 20 miles in the event that there is an outbreak and then 
another buffer zone outside of that 20-mile area. Nobody is 
going in and nobody is going out. And then you are going to 
inject with vaccine outside of that buffer, and once the 
disease has been totally eradicated, you then are going to have 
to destroy those animals that were also vaccinated at that 
point in time to totally eradicate it. It is serious.
    When you look at the map on my testimony----
    Mr. Stupak. May I ask you to summarize, please? We are way 
over.
    Mr. Wulf. OK. I appreciate the opportunity. I am sorry. I 
was trying to find a clock here and I didn't see it.
    [The prepared statement of Mr. Wulf follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Stupak. I will tell you what. We have got 5 minutes 
before we have to go down and vote. That is when the bells are 
going to go off here in about 20 seconds, so we are going to go 
down and vote. We will be back in, we have 3 votes, 
approximately; let us shoot for 30 minutes so that will give 
you time to stretch your legs. We will be back here at 12:25. 
We will be in recess until 12:25.
    [Recess.]
    Mr. Stupak. The meeting will come to order.
    Dr. Hill.

   STATEMENT OF HOWARD HILL, D.V.M., PH.D., CHIEF OPERATING 
                   OFFICER, IOWA SELECT FARMS

    Dr. Hill. Good afternoon, Chairman Stupak, Ranking Member 
Shimkus, and members of the subcommittee, my name is Howard 
Hill. I am a doctor of veterinary medicine and I spent more 
than 30 years in the pork industry researching animal diseases. 
I have spent the past 7 years as a chief operating officer for 
Iowa Select Farms and was on the faculty at Iowa State 
University for 20 years. I am testifying today on behalf of the 
National Pork Producers Council, an association of 43 State 
pork producer organizations that represents the country's 
67,000 pork producers.
    The U.S. pork industry represents a significant value-added 
activity in the agricultural economy and the overall U.S. 
economy, adding nearly $30 billion of gross national product 
and supporting more than 550,000 mostly rural jobs.
    The Plum Island Animal Disease Center on Long Island has 
long been a centerpiece for the country's foreign animal 
disease diagnostic system and it is our understanding that the 
proposed NBAF will continue to fulfill this mission. The U.S. 
pork industry believes that NBAF should be located on the 
mainland. In its current state, the facility on Plum Island 
cannot continue its mission of foreign animal disease research, 
diagnostics, and education. While Plum Island is thought to be 
ideal from a risk mitigation standpoint, there are serious 
drawbacks to having the facility there. Constructing a new 
facility on the island would be prohibitively more expensive 
than on the mainland. It also has been difficult to recruit 
high-caliber scientists to Plum Island because of the area's 
high cost of living and inconvenience of boating to work every 
day. NBAF will require world-class scientists to conduct 
research and diagnostic work so the location needs to be 
appealing to these individuals.
    Five sites for the new NBAF are now under consideration 
excluding Plum Island. The area for the new facility must be 
picked based on an assessment of risk which would include the 
following four areas: the existence of susceptible animal 
populations that could be exposed to an outbreak should disease 
organisms escape from the facility; two, the ability of the 
Federal and State governments to quickly control and eradicate 
a disease; three, the environmental consequences and impact on 
wildlife populations of an outbreak; and four, the economic 
consequences to the livestock industry if an outbreak were to 
occur.
    Most of the current debate is focused on location and cost 
of the facility but very little has been said about the 
anticipated scope of work to be carried out at the NBAF. From 
our industry's perspective, it seems more prudent to define the 
capacity needed for the kinds of research and diagnostic work 
to be completed and to build the facility to meet those needs 
and objectives. The U.S. pork industry would request that DHS 
work with the animal agriculture industry to define the scope 
of work.
    NBAF's mission is multidisciplinary and focusing on human 
and animal health, particularly zoonotic diseases. While we 
support the need for a high-containment Biosafety Level-4 
facility for researching zoonotic diseases in large animals, 
the swine industry is concerned that the animal health portion 
of this mission will be subordinated to the more publicly 
supported human health agenda. Our industry needs assurance 
that USDA and DHS will work together to allocate to the NBAF 
the resources necessary to achieve and enhance its mission to 
protect U.S. animal industries and meat export against 
catastrophic economic losses caused by foreign animal diseases. 
To illustrate the importance of this to the U.S. pork industry, 
it is estimated that a foot-and-mouth disease outbreak would 
cost the U.S. livestock producers between $40 and $60 billion. 
Such an outbreak would immediately shut down our export 
markets.
    In summary, we believe the location of NBAF must be based 
on assessed risk rather than on which entity is willing to 
build such a facility. Locations need to be reexamined to see 
if the island effect can be recreated by siting the facility in 
an area with low densities of livestock and wildlife, and we 
need the new facility to enhance the capabilities of our 
industry with regards to research, diagnostics, and treatment 
for all foreign animal diseases.
    Thank you for the opportunity to share the views of the 
U.S. swine industry. I would be happy to take any questions.
    [The prepared statement of Dr. Hill follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Stupak. Thank you, Dr. Hill.
    Mr. Watson, your opening statement, please, sir.

 STATEMENT OF LEROY WATSON, LEGISLATIVE DIRECTOR, THE NATIONAL 
          GRANGE OF THE ORDER OF PATRONS OF HUSBANDRY

    Mr. Watson. Mr. Chairman, Ranking Member Shimkus, members 
of the Committee, the National Grange would like to commend the 
Subcommittee on Oversight and Investigations for holding this 
hearing on proposals by the U.S. government to relocate the 
Plum Island Animal Disease Center to a location on the mainland 
United States as part of the National Bio- and Agro-Defense 
Facility, NBAF. We appreciate the opportunity to present our 
views opposing the development of an animal disease research 
facility on the U.S. mainland that will work with live strains 
of foot-and-mouth disease as well as other virulent foreign 
animal diseases anywhere near existing concentrations of 
commercial livestock.
    While there are many scenarios for economic, social, and 
environmental damage from the outbreak of animal diseases, few 
come close to the nightmare of an outbreak of FMD. According to 
a 2004 USDA paper entitled ``Economic Impact of Foreign Animal 
Disease Outbreak,'' the paper calculated that the direct cost 
to the domestic livestock industry of an FMD outbreak would 
exceed $60 billion. We believe those costs would come much 
higher when we add in all of the costs to the rest of society.
    America's family farmers and ranchers have become 
unfortunately accustomed to the fact that after 9/11, our 
operations are considered soft targets for terrorist attacks. 
In 2006, the National Institute of Justice, which is the 
research arm of the Department of Justice, published a research 
and policy brief entitled ``Agroterrorism: Why We're Not 
Ready,'' that identified FMD as the greatest agroterrorist 
threat facing our Nation today. For a number of years, the 
National Grange has called on government to address this 
threat. We commend DHS and USDA and other Federal agencies for 
moving to upgrade our Nation's bioresearch capacity but we are 
puzzled as to why the introduction of these dangerous pathogens 
on the mainland should be facilitated by Federal policy, 
especially in light of the successful record of research and 
containment that the existing geographically isolated Plum 
Island facilities have demonstrated for 50 years.
    First of all, the National Grange is worried that the 
bioresearch facility management procedures that will be built 
into NBAF will be insufficient to guarantee that FMD is not 
accidentally or incidentally released into the environment. A 
better course, we believe, would be to combine all of the bio 
facility and management procedures and protocols, all the 
lessons learned from domestic and foreign operations of these 
types of facilities into the design and operation of an NBAF 
with significant geographic isolation such as the existing Plum 
Island facility. However, even if we accept that FMD can never 
be accidentally released from an NBAF, we remain concerned that 
the facility will become an inviting target for espionage, 
terrorists or criminal attacks aimed at getting those pathogens 
out of the laboratory and into the environment. We are also 
concerned that a mainland NBAF would become an inviting 
vicinity for the criminal release of FMD. Not every terrorist 
takes public credit for their action. If FMD was released in 
the vicinity of NBAF, the assumption would be that the release 
came from the facility. Investigations could disrupt or delay 
research activity indefinitely. It would divert resources from 
apprehending those responsible and it would call into question 
DHS's management of the facility all in a dynamic political and 
media climate of economic and environmental disaster.
    The National Grange has a high degree of respect for our 
Nation's counterespionage, antiterrorist, and law enforcement 
agencies. Our concern, however, is that a mainland NBAF 
facility will attract an extremely broad universe of potential 
terrorists or criminal organizations who could use an attack 
against this facility to advance their goals. The National 
Grange believes that geographic isolation of NBAF at a location 
such as Plum Island would add security to the facility and the 
vicinity. It would remove significant incentives to make the 
facility an active target. The National Grange is also 
concerned that NBAF will discourage private investment around 
the facility and reduce the viability of family farm and ranch 
operations in the vicinity as well as the social and economic 
fabric of local farming communities.
    Perceived risks arise from general preparedness from FMD 
outbreaks. As the 2006 NIJ report points out, the laws in most 
States would place the responsibility for coordinating primary 
first response on State and local law enforcement. When, 
however, a Federal facility becomes the focal point for the 
outbreak, there will be inevitable jurisdiction and 
responsibility issues related to investigating the outbreak.
    In summary, Mr. Chairman, we appreciate the opportunity to 
testify. We believe that the site selection process for NBAF 
has underappreciated the need for geographic isolation of this 
facility and it would be a prudent and cost-effective security 
measure to incorporate that that would assure our Nation that 
we can have a world-class bio- and agro-research facility and 
the assurance that this facility will not pose an undue risk 
potentially to tens of thousands of family farmers and 
ranchers. Thank you.
    [The prepared statement of Mr. Watson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Stupak. Thank you, Mr. Watson.
    Mr. Voogt, am I saying that right? Voogt?
    Mr. Voogt. Voogt.
    Mr. Stupak. OK. Mr. Voogt, time for your opening statement, 
please, sir.

STATEMENT OF GARY VOOGT, PRESIDENT-ELECT, NATIONAL CATTLEMEN'S 
                        BEEF ASSOCIATION

    Mr. Voogt. Thank you, Mr. Chairman. My name is Gary Voogt 
and I am a cattle producer from Michigan. I appreciate the 
opportunity to visit with you about what has been known today 
as NBAF.
    The introduction of foreign animal diseases, whether by 
accident or intentionally, is a huge threat to the U.S. cattle 
industry. We talked about foot-and-mouth disease. It is the 
most contagious animal disease known. An outbreak of foot-and-
mouth disease in the United States could devastate the cattle 
industry. Our figures show a cost of $10 billion to $34 billion 
with an outbreak. There is an indirect cost that we haven't 
talked about here today and that is if the livestock industry 
is lost in this country, how are we going to feed our people? 
This country cannot afford to rely on foreign countries for our 
food. Oil is teaching us that lesson.
    The need for diagnostic activities, prevention, and 
treatment research and the development of effective 
countermeasures is critical to the health and welfare of the 
domestic cattle herd. It is critical to cattle producers and it 
is critical to national security. This is why the National 
Cattlemen's Beef Association supports the construction and, as 
importantly, the ongoing maintenance of a state-of-the art 
foreign animal disease research center.
    NCBA has had more than 100 years of experience working 
closely with local, State and Federal animal health officials 
to control and eradicate animal diseases and to prevent the 
introduction of foreign animal diseases into the United States. 
Facilities such as Plum Island have created strong barriers to 
foreign diseases. Because of that work, the United States has 
been free from foot-and-mouth disease for more than 70 years. 
The Federal Government is a vital partner in combating foreign 
animal disease but you should appreciate, we are not relying 
solely on the government to protect our industry. We have 
incident planning for disease outbreaks all over the country. 
Take many farms in Kansas, for example, and I know my home 
State of Michigan involves the FBI, the state police, the 
highway department, the sheriff department, livestock markets, 
anybody. We practice what would happen if there is an incident, 
and this plume does not go across the country unchecked. There 
is a virtual lockdown of all transportation facilities 
immediately. We don't have to call somebody. It is ready to go 
today. It is in place.
    Now, Plum Island is old and worn out. We have established 
that. Over the years funding has not been adequate to keep up 
with today's technologies or today's research needs. 
Incidentally, we believe Plum Island is not the fortress many 
people think it is. The island has always had a problem with 
wildlife swimming over from the mainland at low tide. Boaters 
can get far too close without warning or consequences. It is 
critical that the United States have a state-of-the-art large 
animal biologically secure lab to conduct research on all the 
foreign diseases that could sicken or destroy the food animal 
population. We believe modern biocontainment technology is 
adequate to protect our industry and to allow for safe research 
and diagnostics on the mainland. The Canadian center in 
Winnipeg is a good example of how mainland facilities can be 
safe.
    In conclusion, NCBA supports and encourages the 
construction of this new facility. We have not, however, and we 
are not going to take a position on where the facility should 
be built. Our support for the new facility is contingent on two 
things. First, we need a commitment from the Congress and the 
Administration that this facility will be properly funded and 
maintained for the long haul. The United States cannot afford 
to let this facility become run down like Plum Island. The 
second contingency of our support is, we encourage your 
committee to work with the House Committee on Agriculture and 
the House Committee on Homeland Security. It is imperative that 
the needs of the agricultural community not be lost in the 
expanding focus of homeland security. Homeland security must 
curb their mission creep. They should not be doing animal 
research. We would be more comfortable with USDA doing animal 
research. USDA, on the other hand, must be retained and 
supported to continue their responsibility of conducting 
research on all foreign animal diseases.
    Mr. Chairman, thank you for the opportunity.
    [The prepared statement of Mr. Voogt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Stupak. Thank you, Mr. Voogt.
    We will begin questions. Mr. Wulf, let me start with you, 
if I may. In your testimony, you state your organization is 
opposed to moving the foot-and-mouth disease from Plum Island 
to the mainland. Does this mean that you are opposed to 
building a modern lab on Plum Island?
    Mr. Wulf. We certainly support the research and additional 
dollars for research there on Plum Island. It certainly needs 
to be done.
    Mr. Stupak. Let me ask all of you this one. In 2003, the 
Department of Homeland Security took over the operational 
responsibility for Plum Island and is now proposing a broad 
expansion of its responsibilities for animal disease research. 
In your view as representatives of your organizations, should 
DHS be leading this country's animal research or do you think 
your members would be more comfortable if the responsibility 
for this research was conducted by Department of Ag. as opposed 
to the Department of Homeland Security? Let us just go down 
right down the line. Mr. Wulf, we will start with you and go 
right down the line.
    Mr. Wulf. Obviously, we would love to see the Department of 
Ag highly involved in this particular type of research. My 
opinion on DHS, I don't know that I had an opinion prior to 
coming here to the question, Mr. Chairman. However, due to the 
questions that were raised earlier in the first panel, I have 
serious concerns.
    Mr. Stupak. So you would rather see it stay with Department 
of Ag, the research on disease?
    Mr. Wulf. Yes.
    Mr. Stupak. Dr. Hill?
    Dr. Hill. I am confident that our members would be more 
comfortable with the research being done by the Department of 
Agriculture.
    Mr. Stupak. Mr. Watson?
    Mr. Watson. Grange policy has historically supported 
keeping this type of research under the purview of the 
Department of Agriculture.
    Mr. Stupak. Mr. Voogt?
    Mr. Voogt. That was my testimony as well.
    Mr. Stupak. Let me ask you this, Mr. Voogt, because you 
lost me a little bit there. On page 3 of your written 
testimony, you say you believe that modern technology is 
adequate to protect the livestock industry no matter where the 
lab is located, but on the 5th page of your written statement, 
you then say, and I am quoting now, ``We have not and will not 
take a position on where the facility is to be built.'' So does 
your organization support the transfer of hoof-and-mouth--I 
keep calling it hoof-and-mouth because I am old guy--foot-and-
mouth virus to the mainland or do you prefer to see it stay on 
Plum Island?
    Mr. Voogt. We prefer that a modern facility be built with 
all the safeguards in it. If the decision is to leave it on 
Plum Island, we are OK with that, but we are very comfortable 
that it can be brought to the mainland, but we are not going to 
make that evaluation.
    Mr. Stupak. A little bit of confusion comes in, in the 
exhibit book; take a look at tab number 17. There is a Jay 
Truitt writing a letter on behalf of your organization 
indicating they have concerns about foot-and-mouth disease 
being moved. So I guess I am a little confused. It sounds like 
you are unwilling to move it but it looks like Jay Truitt sort 
of doesn't feel that way.
    Mr. Voogt. If I am looking at the right page, the question 
was, does your organization support moving foot-and-mouth 
disease from Plum Island. The answer was yes.
    Mr. Stupak. OK. And then when you go on to it, other parts 
of it, we get the impression they are not in the same position 
you are, like it is neutral almost. All right. Let me ask you 
this question. GAO testified earlier about the risk assessments 
not being done. Are you still comfortable with moving foot-and-
mouth disease off Plum Island onto the mainland?
    Mr. Voogt. Yes, I am.
    Mr. Stupak. Do you think those studies should be done first 
before we move foot-and-mouth disease off Plum Island?
    Mr. Voogt. Well, there are a lot of studies that have to be 
done first before we are ready to go. The risk assessment, I 
learned this morning, has not been done, but that doesn't mean 
that when it is done it will prove that it is a bad idea. So we 
don't have that answer yet.
    Mr. Stupak. You don't have the answer yet so I guess that 
is where my confusion comes in between Mr. Truitt's letter and 
your testimony. Even without knowing the end results of a cost-
benefit analysis, the environmental impact statement, the risk 
assessment, your organization, the cattlemen's association, is 
in favor of moving the foot-and-mouth to the mainland?
    Mr. Voogt. We are not going to tell you where to put it but 
we are not afraid of moving it to the mainland. That is the 
testimony.
    Mr. Stupak. OK. You mentioned the deer swimming across. Did 
you ever see deer swimming across to Plum Island, or did 
someone just tell you that?
    Mr. Voogt. I have heard that. I have not been to Plum 
Island, Mr. Chairman, but I have been to Mackinaw Island, so 
have you, and it happens to be exactly the same distance.
    Mr. Stupak. Sure, but the deer usually come across on the 
ice.
    Mr. Voogt. And they cross on the ice. I also live on Beaver 
Island, and there are animals there that came across and so 
that is why I said, I don't believe an island by itself is the 
fortress that we thought it was, especially if the carrier is 
the wind.
    Mr. Stupak. OK. Dr. Hill, let me ask you this question, 
because on page 30--tab 30, I am sorry--we have a letter from 
your organization there, a Jill Appell, immediate past 
president, National Pork Producers Council. On page 2, while 
they support the immediate building of an NBAF, its location 
should be determined through assessment of potential risk with 
disease spread to susceptible livestock and wildlife 
population. The risk assessment of the six remaining sites 
should be conducted as part of final selection process. So on 
behalf of pork producers, are you saying we can move forward 
with it before we do these assessments or----
    Dr. Hill. Absolutely not. The pork producers are very 
adamant about the fact that risk analysis needs to be done for 
any site including Plum Island. And in regards to the deer, 
deer have swum across and have multiplied on the island, and 
there has been depopulations. At one point there were over 50 
deer that were depopulated. So that is a major concern.
    Mr. Stupak. If the risk assessment came back and said that 
foot-and-mouth should stay on Plum Island, would your 
organization have a problem with that?
    Dr. Hill. If the risk assessment came back and it said that 
it wasn't safe to put it on the mainland, I don't believe that 
our organization would oppose putting it on Plum Island. The 
problem we have is that we have had 25 years of not really 
being able to fund Plum Island to the extent that it needs to 
be funded to be a first-class operation. I have been on Plum 
Island. I have seen the facilities. The facilities are in very, 
very bad repair. I know there has been money spent recently 
since I have been there but we had a delegation of pork 
producers that were there and the researchers were talking 
about water dripping onto the lab bench.
    Mr. Stupak. Any reason why you couldn't build a new 
facility at Plum Island?
    Dr. Hill. Cost.
    Mr. Stupak. OK.
    Dr. Hill. A major problem is cost.
    Mr. Stupak. Well, isn't the cost going to be the same on 
Plum Island or Georgia or Kansas?
    Dr. Hill. No.
    Mr. Stupak. What is the difference in cost?
    Dr. Hill. Everything there has to be boated across. I am 
not an expert on building costs but I have heard figures as 
much as 25 percent increase to operate the operation and as 
high as 35 percent to 40 percent increase to build the 
operation because it all has to be boated across, cement, 
lumber, everything.
    Mr. Stupak. But it has worked well for 70 years, I think 
one of you said, since we have had an outbreak of hoof-and-
mouth disease. And I think your testimony was it might be $40 
to $60 billion. Isn't that cheap insurance for the possible 
outbreak they could have for this country's livestock?
    Dr. Hill. It would be cheap insurance if you assume that we 
were going to have an outbreak from a mainland facility, but I 
think we can build a mainland facility that is just as secure 
or possibly even more secure than Plum Island.
    Mr. Stupak. I don't disagree. I mean, Plum Island is in bad 
disrepair. I agree with you. Anything you build is going to be 
better than Plum Island. The issue is where should it be, the 
safety and the risk assessment and the environmental impact 
statement, cost-benefit analysis, and if you build a new one on 
the mainland, you still have to clean up Plum Island, take down 
the buildings, environmental assessment. I think those costs 
would be greater than anything we can imagine. No one has given 
us an estimate on that yet.
    Dr. Hill. And we need that estimate.
    Mr. Stupak. Sure. OK.
    Dr. Hill. The other point which I make in my testimony is 
that we need first-class researchers and it is very, very 
difficult to attract people to that area.
    Mr. Stupak. But you also said in your testimony too, and I 
wrote it down. You said to recreate island effect with low 
animal population nearby, right?
    Dr. Hill. Exactly. We wouldn't want to put it in Kansas 
right next to a big feedlot, for example. There are places in 
the States that are up for the possible location that would be 
isolated from large populations of livestock.
    Mr. Stupak. Thank you.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. My staff did just a 
little work on historical outbreaks in the United States: in 
1924 in Texas, sailors from ships carrying live animals; 1924 
in California due to ships' garbage; the last outbreak in 1929 
due to Argentine meat scraps from cruise ships that docked in 
California. Because we want safety. We all have different views 
now as to how we are going to be safe. Obviously there is 
opinion on both sides. I think my opening statement says I am 
not weighing in on one side or the other but I am trying to get 
an understanding of the whole debate. I think what we haven't 
talked about is, I think we get the idea that Plum Island has 
been successful, it has been isolated. The question is, can you 
use something on the continental United States, not an island, 
that would be as safe? People are saying yes. Some people are 
saying no. Let us talk about the timeliness debate. Now, I 
would have asked the one who did the--Dr. Carpenter about the 
exponential aspects of the disease and once it gets to a herd, 
how quickly it spread and how quickly it grows. The question 
would be transportation of the virus, isolating it and 
location, is it quicker for that--is there a quicker response 
because of a new facility within the continental United States. 
I guess that the island would be considered CONUS, but I am an 
old military guy so I use those terms.
    But can you address that, the timeliness of a Plum Island 
versus a facility in Kansas or a facility in Texas? Mr. Wulf, I 
will just go right down the line.
    Mr. Wulf. We look at it from technological advances that we 
have in communications today.
    Mr. Shimkus. But I am talking about testing and getting 
the--and just getting it to the location. I said before, I know 
we are going to take a sample and we are going to send it to a 
location. Even with corporate jets or the Lear jet, it is still 
going to--in cattle country, it is going to still take some 
time, is it not?
    Mr. Wulf. I agree with you, and I agree with your comment. 
However, we are approaching it from the standpoint of, it is 
not a question that there is never going to be a leak from any 
of these facilities. We are approaching it as a matter of when 
and then assessing that probability----
    Mr. Shimkus. Let me segue into that, but that is that whole 
debate of whether there is going to be a release from a 
facility wherever it is versus an intentional activity by--or a 
mistake like garbage on a cruise ship or something to that 
effect or nefarious activity by enemies of our country to 
insert this, so why don't we go to Dr. Hill, just the same, 
your response to that----
    Dr. Hill. I worked in a diagnostic lab for 20 years. I am a 
virologist by training. We sent samples to Plum Island. We 
never had to send a priority one when I was there but when you 
have a priority one sample you have clinical signs that could 
be foot-and-mouth or it could be some other disease. Those are 
either couriered by an individual, USDA, state individual, 
state health regulatory individual, or they are flown with a 
National Guard jet or whatever and taken to Islip Airport and 
transported out to the island. I don't know that the timing is 
a big difference. If we did have a facility in the central part 
of the United States. The timing would be obviously less than 
if it was in California and the sample had to get all the way 
to the tip of Long Island. Is that answering your question?
    Mr. Shimkus. Yes. Timeliness in a vector or a disease that 
is exponential in growth, I am assuming based upon the analysis 
of the first panel, that is a lot.
    Dr. Hill. Well, that all depends on what is the index case. 
Let us just take an example of air carrying the virus from Plum 
Island to a sale facility in New York, and if those animals got 
dispersed to 50 different farms the explosion is huge.
    Mr. Shimkus. Yes, I am more concerned--I think we have 
established that a release from a facility may happen, but I am 
more concerned about intentional by enemies of the state going 
to beef production areas, and Illinois is part of that, and 
going to a feedlot or going to a large sector and then how do 
you control that as fast as possible? It would probably speak 
to not a Plum Island site.
    Dr. Hill. The key to that, which you have made the point 
very well, I think, is the timeliness of the diagnosis because 
there are a lot of things that kick in once that diagnosis is 
made. We stop movement of the animals immediately, all that 
kicks in.
    Mr. Shimkus. Who makes that call and how does that happen?
    Dr. Hill. That is a good question, and is probably 
something that we need to work on in the animal health 
communities. But the State veterinarian has the jurisdiction 
first. He can stop all movements. If it becomes a foreign 
animal disease, the Federal Government, USDA, and Homeland 
Security get involved immediately. So there is a little bit of 
difference there of whether it is diagnosed or if it is a 
suspect.
    Mr. Shimkus. Mr. Watson?
    Mr. Watson. Sure, and I think if I understand your question 
correctly, time is of the essence in sort of being able to 
control the vector process. As testimony we have heard this 
morning indicates, is that once the disease sort of presents 
and manifests itself, the possibilities of what it is fall 
fairly quickly, particularly for veterinary professionals who 
have a pretty good idea of recognizing what this is. Eventually 
there will be important necessity to do analysis on tissue and 
things like that. One of the things that we have learned in 
more discussion of FMD, one of the reasons it is so dangerous 
is because it mutates so fast. It is like the common cold. The 
reason we always have the common cold is because it is always 
changing. Flus are always changing. FMD is always changing and 
there are a number of strains, not just one strain but a number 
of strains, which is under confinement right now at Plum 
Island. And so eventually we would be looking at trying to 
figure out what strain we were dealing with, determining 
vaccination protocols and things like that, whether or not 
those vaccinations were available would be necessary. But in 
almost any transportation of a biohazardous material like this, 
you are going to have to have a series of protocols built in. 
That means you are not just going to sort of throw it in the 
back of a car and drive it out to wherever you are going to be. 
So you have a time of the essence issue also related to 
protocols in making sure that you don't inadvertently spread 
the pathogen in your attempt to try and get it to the research 
facility, and that is going to be----
    Mr. Shimkus. Yes, and then you----
    Mr. Watson [continuing]. Whether or not you go to the 
mainland or an island facility.
    Mr. Shimkus. Just because of time constraints, let me go to 
Mr. Voogt real quick.
    Mr. Voogt. I think the answer is that if you are going to 
have a heart attack, you want to have it close to the hospital, 
and I think people in the cattle, in hog country are more 
sensitive than somebody offshore in New York to be ready and 
prepared for a lockdown. This analysis takes a while, but if 
there is lockdown, the people that have the most to risk are 
going to be most attendant to that.
    Mr. Shimkus. And the disease itself, since I am not 
familiar, I am not a veterinarian, do you have it when--we saw 
the slides of the hooves that were scarred and broken open. We 
saw the tongue. We saw the lesions. How long does it take for 
an animal to get the virus and then for an outward sign?
    Dr. Hill. I have never dealt directly with foot-and-mouth. 
They are excreting virus during the incubation period before 
they show clinical signs and then it is probably 3 or 4 days, 
or 5 days before they show the blisters.
    Mr. Shimkus. And I see a lot of heads shaking so there is a 
lot of people that know that, and again, that ties into the 
timing factor.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Shimkus.
    Mr. Watson, I want to get this point. In your testimony on 
page 2, you refer to a 2004 research paper by USDA that 
estimated foot-and-mouth outbreak on the mainland United States 
would cost the livestock industry as much as $60 billion.
    Mr. Watson. Yes, sir.
    Mr. Stupak. And that would just be the direct costs; that 
is not the indirect costs, right?
    Mr. Watson. Yes, sir.
    Mr. Stupak. OK. When we asked USDA for studies like that, 
they said they didn't have any. Do you have that study?
    Mr. Watson. I can see if we can find it. That actually was 
a reference material in the National Institute of Justice's 
policy program. They had reference directly to that. They had 
referenced their estimate to the USDA study in 2004. But I 
can----
    Mr. Stupak. So you took it from a Department of Justice 
report?
    Mr. Watson. Right. The Department of Justice is laying out 
their criteria, and it is somewhat interesting that again we 
are trying to point out that those who think they understand 
what the Federal Government or what the government response is 
going to be, this particular Department of Justice report, 
which is designed to advise local and state law enforcement. 
They are basically telling local and state law enforcement as 
of 2006, if you see this, treat it as a crime, treat it as a 
terrorist attack, do not treat this as an incidental event or 
something like that. And that is one of the reasons they are 
trying to provide this education to local law enforcement, 
saying if we see it, we need to move as if this is a crime. So 
they go back and say important this is and the----
    Mr. Stupak. Well, I was just curious about----
    Mr. Watson [continuing]. Citation in that report was to 
this USDA----
    Mr. Stupak. Right. I was curious about the validity of the 
USDA report because they claim there isn't such a report.
    Mr. Watson. Well, we will go back and I will see if I can--
--
    Mr. Stupak. Let me ask you this. You all talked about 
costs; Mr. Voogt, I think you said that the costs and all this 
is inadequate and Congress has to pay for it and adequately 
fund it year after year in the future. Should your industries 
pay part of it since you seem to benefit from that? Should the 
cattlemen, should the pork and the Grange and all that, 
should----
    Mr. Voogt. Well, our industry is the consumer. That is who 
we are working for and so the consumer is either going to pay 
for it in the price of the meat or in support of the 
government, but it is not free. So that is not important. As to 
cost, I do have some experience. I built approximately $5 
million worth of stuff on Beaver Island with Federal funds, 
airports, and the cost was approximately 40 percent more than 
it was on the mainland.
    Mr. Stupak. Mr. Watson, any comments on costs to your 
organization to pay part of it?
    Mr. Watson. We don't have any estimates on that, sir.
    Mr. Stupak. We have a couple votes on the Floor. We are 
going to have to recess again. We will recess until quarter to. 
We will dismiss this panel. Thank you for coming. Sorry to 
interrupt this hearing again with votes. It is one of these 
days and a lot of crazy stuff is going on on the Floor. So we 
will stand in recess for approximately 30 minutes.
    [Recess]
    Mr. Stupak. We have our third panel of witnesses. On this 
panel, we have the Hon. Bruce Knight, Under Secretary for 
Marketing and Regulatory Programs at U.S. Department of 
Agriculture; the Hon. Jay Cohen, Under Secretary for the 
Science and Technology Directorate of the U.S. Department of 
Homeland Security, and Dr. Larry Barrett, Director of Plum 
Island Animal Disease Center.
    Gentlemen, thank you for being here. We will start with 
opening statements. Mr. Knight, if you would like to go first, 
5-minute opening--oh, I have to swear you guys in. It is the 
policy of this subcommittee to take all testimony under oath. 
Please be advised that witnesses have the right under the Rules 
of the House to be advised by counsel during their testimony. 
Do any of you wish to be represented by counsel? All are 
indicating no. All right. Then I am going to ask you to rise 
and raise your right hand, please.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect that the witnesses 
replied in the affirmative. You are now under oath. Mr. Knight, 
if you would like to start with your opening statement, please, 
5 minutes. Your full statement will be part of the record.

 STATEMENT OF BRUCE I. KNIGHT, UNDER SECRETARY, MARKETING AND 
      REGULATORY PROGRAMS, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Knight. Good afternoon, Chairman Stupak, members of the 
committee, my name is Bruce Knight. I am Under Secretary for 
marketing and regulatory programs at USDA and I want to thank 
you for the opportunity to share USDA's views on the importance 
of establishing the National Bio- and Agro-Defense Facility, 
NBAF.
    Agriculture, as we have heard repeatedly today, is vital to 
the U.S. economy. We expect record exports of $101 billion this 
year along with increase in imports that have already risen 
from $58 million in 2005 to an estimated $76.5 billion this 
year. As goods move back and forth across the border, we must 
remain vigilant to safeguard U.S. agriculture from unwelcome 
pest and disease threats which do not respect State or national 
borders. Intentionally or unintentionally contaminated products 
could quickly spread a pest, disease or other agent that could 
not only devastate our agriculture industry but also cause 
numerous animal casualties.
    While I appreciate the focus today on the laboratories, I 
do want to note that USDA has many activities to prevent the 
introduction of FMD into the United States. We share import 
policies that ensure that we trade safely both in products and 
in live animals. We have a rigorous process to evaluate disease 
risks with the countries we trade with. We work with our 
colleagues at DHS to ensure port inspections and passenger 
traffic is safe. Historically, we know worldwide that outbreaks 
of FMD have been primarily traced to meat importations, 
mishandling of garbage, livestock importation, and that has 
been the primary focus.
    Now, today, we are talking mostly about the need for NBAF 
and how vital it is to us being able to move forward. To guard 
against new diseases and potential bioterrorist releases, USDA 
must continually conduct research and diagnostics to better 
understand those pathogens. We recognized, even before the 
Department of Homeland Security was created, that there was a 
need for additional space and upgraded biosecurity measures to 
work on foreign and emerging animal diseases.
    The current research facility located on Plum Island is 
aging, inadequate, and outdated. Since the Plum Island facility 
was transferred to DHS in 2003, we have developed a strong 
collaborative partnership with DHS that enables both 
departments to achieve our similar goals while making the most 
of each other's specialized expertise. More than 50 years ago, 
the Plum Island facility was built on an island to create 
physical separation from susceptible livestock. Today, with 
more advanced technologies including redundancies and the 
latest biosecurity and containment systems, coupled with 
employee training and monitoring, NBAF could safely operate on 
the mainland. A mainland facility would be less expensive to 
operate, more easily accessible than an island location, better 
enable quick response to potential disease threats, and offer 
the opportunity for innovative collaboration if located near an 
established research community.
    Although DHS is ultimately responsible for the selection of 
an NBAF site, USDA has been closely involved throughout this 
process. We support the criteria used to select the sites and 
are committed to the next steps in the process. DHS is 
currently preparing an environmental impact statement for the 
six site alternatives including Plum Island and the mainland 
locations. We need to move forward in a timely manner on NBAF 
to develop the diagnostics and the tools needed to protect U.S. 
agriculture from the threats of dangerous foreign animal 
diseases.
    Lastly, I would like to mention that the Administration 
included in our Farm Bill proposal a suggestion of an 
authorization for USDA to conduct research and diagnostics for 
highly infectious disease agents on the U.S. mainland. This 
provision is included in the recently passed Farm Bill.
    Again, thank you for the opportunity to discuss this 
important issue with the Committee today. We believe the 
planned NBAF is necessary to replace the aging Plum Island 
facility and protect U.S. agriculture and American citizens 
against foreign animal diseases.
    [The prepared statement of Mr. Knight follows:]

                       Statement of Bruce Knight

                                Synopsis

    <bullet> Agriculture is vital to the U.S. economy. We 
expect record exports of $101 billion this year along with 
increasing imports that have already risen from $58 billion in 
2005 to an estimated $76.5 billion this year.
    <bullet> As goods move back and forth across the border, we 
must remain vigilant to safeguard U.S. agriculture from 
unwelcome pest and disease threats. Intentionally or 
unintentionally contaminated products could quickly spread a 
pest, disease, or other agent that could not only devastate our 
agricultural industry but also cause numerous casualties.
    <bullet> To guard against new diseases and potential 
bioterrorist releases, the U.S. Department of Agriculture 
(USDA) must continually conduct research and diagnostics to 
better understand these pathogens. We recognized, even before 
the Department of Homeland Security (DHS) was created, that 
there was a need for additional space and upgraded biosecurity 
measures to work on foreign and emerging animal diseases. The 
current research facility located on Plum Island is aging, 
inadequate, and outdated.
    <bullet> In response to Presidential Homeland Security 
Directive 9, USDA is working closely with DHS to develop the 
National Bio- and Agro-Defense Facility (NBAF) to replace the 
Plum Island Animal Disease Center (PIADC), after a construction 
and transition period of 7-10 years. NBAF would provide the 
facility we need to carry out BSL-4 activities not currently 
possible at PIADC, such as addressing diseases like Nipah and 
Hendra, as well as Rift Valley Fever (which requires vaccinated 
personnel; however vaccine is in short supply).
    <bullet> Since the Plum Island facility was transferred to 
DHS in 2003, we've developed a strong, collaborative 
partnership with DHS that enables both Departments to achieve 
our similar goals while making the most of each other's 
specialized expertise.
    <bullet> More than 50 years ago, the Plum Island facility 
was built on an island to create physical separation from 
susceptible livestock. Today, with more advanced technologies, 
including redundancies and the latest biosecurity and 
containment systems, coupled with employee training and 
monitoring, NBAF could safely operate on the mainland.
    <bullet> A mainland site would be less expensive to 
operate, more easily accessible than an island location, better 
enable quick response to potential disease threats, and offer 
the opportunity for innovative collaboration if located near an 
established research community.
    <bullet> A 2002 study completed by the Science Applications 
International Corporation and commissioned by USDA concluded 
that there was a valid USDA need for a BSL-4 facility, and that 
a BSL-4 facility for large animal work could be safely located 
on the mainland.
    <bullet> Although DHS is ultimately responsible for the 
selection of a NBAF site, USDA has been closely involved 
throughout this process. We support the criteria used to select 
the sites and look forward to the next steps in the process.
    <bullet> DHS is currently preparing an environmental impact 
statement (EIS) for the six site alternatives, including Plum 
Island and mainland locations. We need to move forward in a 
timely manner with NBAF to develop the diagnostics and tools 
needed to protect U.S. agriculture from the threats of 
dangerous foreign animal diseases.
    <bullet> The Administration included in our Farm Bill 
Proposal an authorization for USDA to conduct research and 
diagnostics for highly infectious disease agents on the U.S. 
mainland. We recognize DHS' interest in the Secretary being 
directed, via statute, to issue a permit for live foot-and-
mouth disease virus at the NBAF. We believe this direction will 
provide clarity as DHS moves forward in selecting a site and 
constructing the NBAF.

                               Testimony

    Good afternoon. I am Bruce Knight, Under Secretary for 
Marketing and Regulatory Programs at the U.S. Department of 
Agriculture (USDA). Thank you for the opportunity to appear 
before the Committee today to present the Department's views on 
the establishment of the National Bio- and Agro-Defense 
Facility (NBAF). Today, the Committee raises a timely and 
important issue--agriculture security--that we at USDA consider 
essential to our mission, which is to provide leadership on 
food, agriculture, natural resources, and related issues based 
on sound public policy, the best available science, and 
efficient management.
    Agriculture is a vital component of our Nation's economy. 
Of particular importance to homeland security is the 
significant increase in agricultural trade. This year, we 
expect agriculture exports to reach approximately $101 billion, 
making it the highest export sales year ever in our history--
and significant to our balance of trade. Agriculture imports 
are rising as well--increasing from nearly $58 billion in 2005 
to an estimated $76.5 billion this year.
    We face many challenges in protecting this important 
infrastructure. As goods move back and forth across the border, 
we must remain vigilant to safeguard U.S. agriculture from 
unwelcome pest and disease threats. Our sector is particularly 
concerned about security because food production is not 
constrained by political boundaries, and as we all know, 
diseases and pathogens do not respect state or national 
borders. The interconnected nature of the global food system is 
our strength and allows us to feed the world, but it is also a 
disadvantage in the event of attack or natural disease 
outbreak. Additionally, one of the agricultural sector's 
greatest contributions to the quality of life is the fact that 
products flow quickly through interstate commerce--one of our 
greatest assets is also one of our greatest concerns because 
intentionally or unintentionally contaminated products could 
quickly spread a pest, disease, or other agent.
    USDA works diligently to protect U.S. agriculture from the 
potential introduction of human and animal disease agents, 
whether unintentionally or through agroterrorism. Many of these 
pathogens such as the Nipah and Hendra viruses are zoonotic, 
that is, they cause both human and animal disease, and can pass 
from animals to humans. If a significant zoonotic or animal 
disease were to penetrate our borders, it could devastate the 
agricultural industry, cause numerous casualties, and harm the 
economy.
    We've seen just how disastrous the effects of a foreign 
animal disease outbreak can be in the 2001 foot-and-mouth 
disease (FMD) outbreak in the United Kingdom. In that case, 
over 6 million pigs, sheep, and cattle were destroyed, with the 
epidemic costing the U.K. economy an estimated $13 billion. 
This example highlights the need for the best tools and 
diagnostics to safeguard the U.S. livestock industry from 
significant foreign animal disease threats such as FMD. At the 
same time, the 2007 suspected release of live FMD virus from 
the Pirbright campus in England amplifies the balance needed in 
undertaking such work. This is why USDA and the Department of 
Homeland Security (DHS) will use the most modern biosafety 
practices and procedures, and stringent and rigorous safety 
measures within NBAF.
    Because of the continued emergence of new animal diseases, 
the leaping of dangerous animal diseases across species, and 
the possibility of a bioterrorist release, it is even more 
essential that USDA have a sufficient understanding of these 
diseases and be well prepared to protect the U.S. livestock 
industry from their damage. To achieve this, USDA works through 
its Agricultural Research Service (ARS) and Animal and Plant 
Health Inspection Service (APHIS) to meet its responsibilities 
in animal health. ARS is the primary intramural science 
research agency of USDA, operating a network of over 100 
research laboratories across the nation that work on all 
aspects of agricultural science. APHIS is responsible for 
safeguarding U.S. agricultural health from foreign pests and 
diseases of plants and animals.
    In order to be able to rapidly identify, respond to, and 
control outbreaks of foreign animal and zoonotic disease, USDA 
needs secure, state-of-the-art biocontainment laboratories with 
adequate space for advanced research, diagnostics, and 
training. Recognizing this need, the President directed USDA 
and DHS, via Homeland Security Presidential Directive 9: 
``Defense of the United States Agriculture and Food,'' to 
develop a plan to provide for such facilities. As I will 
explain further, USDA is working closely with our partners in 
DHS to fulfill this important need.

                   Plum Island Animal Disease Center

    In 1954, USDA began work at the Plum Island Animal Disease 
Center (PIADC) in research and diagnostics on foreign animal 
diseases that, either by accidental or deliberate introduction 
to the United States, pose significant health and/or economic 
risks to the U.S. livestock industry. The Plum Island Animal 
Disease Center has served U.S. agriculture well. It's no 
accident that this country has the healthiest and most abundant 
livestock populations in the world. Producers and all of us at 
USDA work hard every day to keep this up.
    An integral part of maintaining animal health is preventing 
the entry of exotic pest and disease threats. The Plum Island 
Animal Disease Center, through its diagnostic, research, and 
reagent production and distribution activities, has stood as 
American agriculture's bulwark against potentially devastating 
foreign animal diseases. Each working day since the facility 
opened over 50 years ago, the dedicated and highly skilled Plum 
Island Animal Disease Center staff has equipped veterinarians, 
scientists, professors, and other animal health professionals 
here and around the world with the tools they need to fight 
exotic disease incursions that threaten livestock. In addition 
to FMD and classical swine fever, other livestock diseases that 
our scientists have studied at the Plum Island Animal Disease 
Center include African swine fever, rinderpest, Rift Valley 
fever, West Nile fever, vesicular stomatitis, and Capri pox 
(sheep pox and lumpy skin disease).
    As you know, in June 2003, operational responsibility for 
the Plum Island Animal Disease Center transferred from USDA to 
DHS under the Homeland Security Act of 2002. Since the 
transfer, we've developed a strong, collaborative partnership 
with DHS and put in place an interagency agreement to clarify 
roles and responsibilities. A Board of Directors and Senior 
Leadership Group were created to facilitate decision-making 
regarding facility operations and policies, while also allowing 
the three agencies to focus on accomplishing their specific 
missions and goals. I believe our relationship with DHS is a 
very positive one that allows both Departments to achieve our 
similar goals while making the most of each other's specialized 
expertise.
    After the Plum Island Animal Disease Center transfer, USDA 
remained responsible for conducting basic and applied research 
and diagnostic activities at the Plum Island Animal Disease 
Center to protect U.S. agriculture from foreign animal disease 
agents. DHS, in turn, assumed responsibility for coordinating 
the overall national effort to protect key U.S. resources and 
infrastructure, including agriculture. Science programs at the 
Plum Island Animal Disease Center now include the APHIS Foreign 
Animal Disease Diagnostic Laboratory (FADDL), ARS' Foreign 
Animal Disease Research Unit, and DHS' Targeted Advanced 
Development Unit.
    APHIS' work at the FADDL aims to protect the U.S. 
agricultural system by providing the capabilities for early 
detection and diagnosis of foreign animal diseases. The FADDL 
is also the custodian of the North American FMD Vaccine Bank 
(owned by Canada, Mexico and the United States), which stores 
concentrated FMD antigen that can be formulated into a vaccine 
if a FMD introduction occurs. As such, FADDL employees are 
responsible for performing safety testing of new antigen lots 
and periodically testing the quality of stored antigen.
    APHIS scientists perform diagnostic testing of samples 
collected from U.S. livestock that are showing clinical signs 
consistent with an exotic disease, as well as testing animal 
products and live animals being imported into the United States 
to ensure that unwanted diseases are not accidentally 
introduced through importation. APHIS scientists at the Plum 
Island Animal Disease Center have the capability to diagnose 
more than 30 exotic animal diseases, and perform thousands of 
diagnostic tests each year. They also prepare diagnostic 
reagents and distribute them to laboratories throughout the 
world, and test the safety and efficacy of vaccines for 
selected foreign animal diseases. Other APHIS activities 
include improving techniques for the diagnosis or control of 
foreign animal diseases and validating tests for foreign animal 
diseases that are deployed to the National Animal Health 
Laboratory Network (NAHLN). Through the use of these tests in 
surveillance, the NAHLN provides for early detection and the 
surge capability needed in the case of an outbreak.
    In addition, FADDL staff, in conjunction with APHIS' 
Professional Development Staff, train veterinarians, 
scientists, professors, and veterinary students on recognition 
of clinical signs and pathological changes caused by foreign 
animal diseases. This training provides the backbone of APHIS' 
animal disease surveillance and safeguarding programs. These 
foreign animal disease diagnosticians trained by FADDL are 
located throughout the country, and can be on-site to conduct 
an investigation and collect samples within 16 hours of 
receiving a report of a suspect foreign animal disease. Based 
on their assessment of the situation and prioritization of the 
threat, APHIS can then take appropriate steps if necessary to 
protect the U.S. livestock industry.
    Through its involvement in the Plum Island Animal Disease 
Center, ARS develops new strategies to prevent and control 
foreign or emerging animal disease epidemics through a better 
understanding of the nature of infectious organisms, 
pathogenesis in susceptible animals, host immune responses, and 
the development of novel vaccines and diagnostic tests. The ARS 
Foreign Animal Disease Research Unit focuses on developing 
vaccines that can be produced safely in the United States and 
used safely on U.S. farms, diagnostic techniques to 
differentiate between a vaccinated and an infected animal, and 
methods for identifying carrier animals. Currently, ARS' work 
at the Plum Island Animal Disease Center includes active 
research programs working with FMD, Classical Swine Fever, and 
vesicular stomatitis viruses.
    ARS scientists have recently carried out extensive work on 
FMD, including early development of a FMD vaccine that is safe 
to produce on the mainland; discovery of an antiviral treatment 
that prevents FMD replication and spread within 24 hours; and 
determination of many key aspects of FMD virus structure, 
function, and replication at the molecular level, leading to 
highly specific diagnostic tests.

               Meeting the Needs of American Agriculture

    The Plum Island Animal Disease Center has played a critical 
role in developing the tools and expertise needed to protect 
the country from the deliberate or unintentional introduction 
of significant foreign animal diseases. However, much has 
changed since the Plum Island Animal Disease Center was first 
built, and we are even more cognizant of the threat from 
foreign animal diseases due to the increasingly interconnected 
world we live in. This need is echoed by our American livestock 
industries that could be devastated by the introduction of a 
significant foreign animal disease. Groups such as the United 
States Animal Health Association and National Institute for 
Animal Agriculture have appealed for accelerated research to 
protect their industries. Also, the National Cattlemen's Beef 
Association, Animal Agriculture Coalition, and National Milk 
Producers Federation have written to Congress, to show their 
support for NBAF.
    To continue providing U.S. agriculture with the latest 
research and technological services, as well as world-class 
approaches to agricultural health safeguarding and foreign-
animal disease diagnostics, USDA needs additional space and 
upgraded biosecurity measures to work on those animal-borne 
diseases that pose the greatest risk to U.S. livestock 
industries, and those that can also be transmitted to humans. 
The Plum Island Animal Disease Center is aging and nearing the 
end of its lifecycle, and the state of current facilities has 
created a backlog of needed space for important experiments, 
diagnostic development, and training efforts.
    In particular, USDA is in need of enhanced research and 
diagnostic capabilities for animal diseases, particularly 
zoonotic diseases of large animals that require agriculture 
BSL-3 and BSL-4 capabilities. However, since we cannot 
currently carry out BSL-4 activities at the Plum Island Animal 
Disease Center, the Nation is left lacking a large animal 
facility to address high-consequence animal diseases that can 
be transmitted to humans, such as Nipah and Hendra, as well as 
Rift Valley Fever (which requires vaccinated personnel; however 
vaccine is in short supply).
    Specifically, USDA would utilize the BSL-4 space to develop 
diagnostic assays for Rift Valley Fever and Nipah and Hendra 
viruses, using specimens collected from animals in the BSL-4 
lab. In addition, in the event of an emerging pathogen, it 
would often be necessary to inoculate animals in a BSL-4 suite 
in order to determine the clinical course of the disease, 
determine appropriate diagnostic specimens, isolate the agent, 
and develop diagnostic tools.
    In order to protect U.S. agriculture and human health, it 
is critical that USDA have the capability of diagnosing and 
working with the disease agents I have mentioned, as well as 
any new highly infectious pathogen that may emerge. In 
response, our agencies have begun planning for the next 
generation facility which we call the NBAF, to replace the 
current structures at the Plum Island Animal Disease Center. 
NBAF will integrate research, development, and testing in 
foreign animal diseases and zoonotic diseases, which will 
support the complimentary missions of USDA and DHS. NBAF will 
address USDA needs that are currently not being met by the 
facilities at the Plum Island Animal Disease Center, including 
inadequate lab space for processing diagnostic samples, 
limitations in diagnostic capability for BSL-4 agents, and lack 
of space to expand to include the development, feasibility 
testing, and validation of new and emerging technologies for 
detection of exotic and emerging diseases. In addition, it will 
provide room to grow as we further enhance our abilities to 
respond to increasing threats to the U.S. livestock industry.
    The NBAF will also have a synergistic effect, to the 
benefit of each of our agencies, by utilizing the expertise of 
the academic and scientific community in the area. In addition, 
we expect that by sharing a well-equipped core facility, we 
will see a more cost effective utilization of funding. This 
will also continue to provide a number of opportunities for 
enhanced interaction among the three agencies. For example, 
research done by ARS and DHS may identify possible new 
diagnostic tools that APHIS can use; APHIS' repository of 
foreign animal disease agents obtained from outbreaks around 
the world will provide a resource for ARS and DHS research and 
bioforensics; and APHIS' diagnostic investigations and 
surveillance will help identify emerging or re-emerging 
diseases in the field, in turn helping set research priorities 
for ARS and DHS.

                             Site Selection

    At the time Plum Island was built, biosecurity was much 
different than it is today. Agriculture biosecurity was defined 
by biological isolation, so that if there was a problem at the 
laboratory, there was physical separation from susceptible 
livestock populations and any breaches were localized. Today, 
with much more advanced technologies, the ability to manage 
effective biosecurity and biosafety practices is not dictated 
by location or physical barriers.
    We recognize that there is concern about building the NBAF 
on the mainland. Since the determination was made over 60 years 
ago to build the Plum Island Animal Disease Center on an 
island, assessments have shown that technological advances 
would allow for safe research and diagnostics of foreign animal 
diseases to take place on the U.S. mainland. A 2002 study 
completed by the Science Applications International Corporation 
(SAIC) and commissioned by USDA found that the FMD virus and 
other exotic foreign animal diseases of concern to the 
Department could be fully and safely contained within a BSL-3 
laboratory, as was being done in other countries at the time 
including Canada, Germany, and Brazil. A second SAIC study also 
concluded that there was a valid USDA need for a BSL-4 
facility, and that a BSL-4 facility for large animal work could 
be safely located on the mainland.
    In planning for the NBAF, we recognize the absolutely 
essential need for state-of-the-art biosafety practices and 
procedures, including stringent and rigorous safety measures 
within the laboratories themselves, to prevent disease 
organisms from escaping into the environment. Situations such 
as the recent suspected release of live FMD virus from the 
Pirbright campus in England only serve to highlight this 
importance. We can use that example as a learning opportunity 
and make sure that the design and maintenance of the NBAF 
facility enables us to carry out the essential activities 
needed to protect the Nation from foreign animal diseases while 
ensuring the highest level of biosafety.
    This is why the NBAF will utilize the redundancies built 
into modern research laboratory designs and the latest 
biosecurity and containment systems, coupled with continued 
training and monitoring of employees, to effectively minimize 
any risks. Personnel controls for the NBAF will include 
background checks, biometric testing for lab entry, and no 
solitary access to BSL-4 microorganisms. The NBAF will also 
feature biological safety cabinets in the wet labs designed to 
meet the needs of BSL-3 labs, while in BSL-4 labs, these 
biological safety cabinets will include additional security 
measures or be used in combination with full-body, air-supplied 
personal protective suits.
    In terms of facility design, the BSL-4 lab at the NBAF will 
employ a box-in-box principle with a pressure-controlled 
buffer. All water and air leaving the lab will be purified-that 
is, no research microorganism will enter the sewage system or 
outside air. All critical functions will have redundant 
systems. The design of the BSL-4 laboratories and animal space 
will comply with the appropriate recommendations and 
requirements of the Centers for Disease Control and Prevention, 
National Institutes of Health, Department of Defense, and 
National Research Council.
    I would also like to note some potential advantages to 
locating the NBAF on the mainland. For example, the lower cost 
of living, as compared to that in the communities surrounding 
the Plum Island Animal Disease Center, would likely make 
recruiting personnel easier for our agencies. This would also 
eliminate the costs of moving people on and off an island every 
day, as we currently do. A mainland facility would be more 
accessible if air traffic is shut down due to weather 
conditions or an emergency situation, and would not be subject 
to the occasional wind closures that we experience at the Plum 
Island Animal Disease Center due to rough waters. And, as I 
mentioned earlier, locating the facility near an established 
research community would facilitate innovative collaboration.
    A key advantage to locating NBAF on the mainland would be 
the ability to quickly respond to a potential foreign animal 
disease threat. Placing the NBAF on the mainland could 
eliminate the need for additional transport of samples to the 
island via boat or aircraft, as is currently done at Plum 
Island. Having a more accessible location, where diagnostic 
capabilities could be utilized within the first 24 hours of an 
emergency, is essential. For example, in June 2007, APHIS 
conducted an investigation into swine showing signs consistent 
with a significant foreign animal disease. In such a situation, 
every hour counts when it comes to being able to quickly rule 
out major diseases. Incidents such as this can have a 
significant impact on the economy, stop movement and trade in 
multiple species of livestock, and spread fear throughout the 
industry.
    Although DHS is ultimately responsible for the selection of 
a NBAF site, USDA has been closely involved throughout this 
process. APHIS and ARS have provided detailed program 
requirements to DHS, and have representatives on the site 
selection committee and site inspection team. We support the 
criteria used to select the sites: proximity to research 
capabilities linked to the NBAF mission requirements, site 
proximity to a skilled workforce, as well as acquisition/
construction/operations, and community acceptance, and look 
forward to the next steps in the process.
    DHS is currently preparing an environmental impact 
statement (EIS) looking at the six sites, which include Plum 
Island and five mainland locations. The EIS, on which USDA and 
DHS are working, will consider the risk and potential 
consequences of an accidental release of a foreign animal 
disease, and will be integral to moving forward with a sound 
NBAF site selection.
    It is important that we move forward in a timely manner 
with planning and construction of NBAF so that we can develop 
the diagnostics and tools needed to protect U.S. agriculture 
from the threats of dangerous foreign animal diseases. Just as 
the science behind bioterrorism has advanced in recent years, 
and new and changing diseases continue to emerge, so too must 
we arm ourselves with more sophisticated ways of preventing 
harm to the U.S. livestock industry. If we don't, then 
bioterrorists will continue to find innovative ways to attack 
our livestock, new diseases will continue to emerge, and U.S. 
agriculture will be left vulnerable to these dangers. This is 
why USDA is committed to working with DHS to move forward with 
plans for NBAF, after a thorough analysis of the options and 
development of plans to ensure the utmost biosafety and 
biosecurity.

           Authority to Conduct FMD Research on the Mainland

    Lastly, I would like to briefly mention recent legislative 
activity related to live FMD virus. Current statute (21 U.S.C. 
113a) restricts research involving live FMD virus and other 
animal diseases that present a significant risk to domestic 
U.S. livestock to laboratories on coastal islands separated 
from the mainland United States by deep water. Research 
involving live FMD virus is carried out at the Plum Island 
Animal Disease Center under this statute, which dates back to 
the 1950s. The statute was amended by the 1990 Farm Bill to 
authorize the Secretary of Agriculture, when necessary, to 
allow the movement of live FMD virus, under permit, to research 
facilities on the U.S. mainland.
    USDA recognizes DHS' interest in the Secretary being 
directed, via statute, to issue a permit for live FMD virus at 
the NBAF. This direction will provide clarity in this important 
area as DHS moves forward in selecting a site for the NBAF and 
then in contracting for the construction of the facility. For 
these reasons, the Administration included in our Farm Bill 
Proposal an authorization for USDA to conduct research and 
diagnostics for highly infectious disease agents, such as FMD 
and rinderpest, on the U.S. mainland. Consistent with the 
Administration's proposal, section 7524 of the Food, 
Conservation, and Energy Act of 2008 directs the Secretary to 
issue a permit for live FMD virus at NBAF, while preserving the 
Secretary's discretion and ensuring that all biosafety and 
select agent requirements are being met at the facility.

                               Conclusion

    Thank you again for the opportunity to discuss this 
important issue with the Committee today. We believe the 
planned NBAF is necessary to replace the aging Plum Island 
Animal Disease Center and provide additional capacity for much 
needed animal disease research, diagnostics, training, and 
countermeasures development. The NBAF will play a crucial role 
in protecting against the future introduction of foreign animal 
and zoonotic diseases, and ensuring the continued health and 
vitality of our agricultural industries. We are committed to 
continuing our work in partnership with DHS in planning the 
NBAF and making the facility a reality.
                              ----------                              

    Mr. Stupak. Thank you.
    Mr. Cohen, your opening statement, please.

    STATEMENT OF JAY M. COHEN, UNDER SECRETARY, SCIENCE AND 
  TECHNOLOGY DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Chairman Stupak and members of the committee and 
staff, I have had the privilege of being here from the start of 
the hearing and so Chairman, I wanted to thank you for your 
stated support for the NBAF facility. It is an honor to appear 
before this committee, and I thank the committee for bringing 
these very important issues before the American public.
    I especially appreciate the testimony of the first two 
panels and I can assure you, we will incorporate, as we have 
been, their concerns as we move forward with this important 
NBAF initiative, the purpose of which is to make the Nation 
safer.
    I am very pleased today to be joined not only by Under 
Secretary Knight representing the U.S. Department of 
Agriculture, who has already addressed the partnership that we 
enjoy, the productive partnership, but also Dr. Larry Barrett, 
who is the director of Plum Island. I look forward very much to 
your questions.
    I would like to just add, if I may, there have been 
discussions relative to the age and the condition of Plum 
Island. I had the privilege of going up there and having an 
all-hands with the good people, the scientists, the animal 
workers, et cetera, on Plum Island. The Department of Homeland 
Security has put tens of millions of dollars into that 
facility. When we are done, it will be over $50 million, and in 
a recent morale survey conducted within the Department of 
Homeland Security, I am here to tell you that of all my 
laboratories, the Plum Island laboratory facing possible 
closure had the highest morale, and in two areas, including job 
satisfaction, all of the workers ranked Plum Island 100 
percent. So the legacy of Plum Island will be, and we hope it 
will be, an efficacious vaccine to prevent foot-and-mouth 
disease, which is what we are talking about today.
    I am so pleased that Chairman Dingell is here, and 
Chairman, I just wanted to say, as a member of the greatest 
generation, and my mother-in-law was a World War II Navy nurse, 
she was just up here for the 100th anniversary of the Navy 
Nurses Corps, and Senator Inouye and Senator Cleland had a 
chance to speak. I thank you so much for your service. It is a 
special privilege to be here in front of your subcommittee, and 
we thank you also for the NEPA legislation, which is the 
overriding legislation by which we are conducting the 
environmental impact as we go forward, and has been indicated 
by the panels, this is a work in progress, and so this is an 
important hearing.
    For Chairman Dingell, I know you know that words matter and 
for 42 years I had the privilege of serving in the United 
States Navy and then was asked to serve in Homeland Security, 
and public service, like you, is a great calling. We don't get 
rich in this business but words do matter, and the words 
``incompetent,'' ``arrogant,'' and ``secretive'' were used. In 
the Department of Homeland Security, if I were to allow those 
to go unanswered, the 180,000-plus government service workers 
who are dedicated to making the Nation safer would believe that 
I either hadn't heard those or I agreed with them. And so sir, 
if at a convenient time you would just share with me who you 
think is incompetent, arrogant or secretive, I will certainly 
root them out because that is unacceptable in public service.
    So Chairman, thank you so much and I look forward to your 
questions.
    Mr. Dingell. Happy to do so.
    Mr. Cohen. Yes, sir, I know you will.
    Mr. Dingell. I think I will enjoy that discussion more than 
you will.
    Mr. Cohen. Yes, sir. Thank you, Chairman.
    [The prepared statement of Mr. Cohen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Stupak. Thank you, Mr. Cohen.
    Dr. Barrett, your opening statement, please.
    Dr. Barrett. I was asked to be a witness, not to provide an 
opening statement.
    Mr. Stupak. So you have no opening statement then?
    Dr. Barrett. I have no written opening statement. I can 
make a statement.
    Mr. Stupak. It is entirely up to you. It is at your 
discretion, you are under oath, and if you would like to make 
one, fine.

    STATEMENT OF LARRY BARRETT, D.V.M., M.S., D.A.C.V.P.M., 
          DIRECTOR, PLUM ISLAND ANIMAL DISEASE CENTER

    Dr. Barrett. I would like to make a few comments. Good 
morning, Chairman Stupak and Ranking Member Whitfield, I am 
pleased to be here before you today to discuss the important 
mission of Plum Island Animal Disease Center, which is to 
protect the U.S. livestock from the accidental or deliberate 
introduction of high-consequence foreign animal diseases.
    I was raised on a cattle ranch in Oklahoma and I became a 
veterinarian due to my desire to protect public health and 
animal health. I have worked as California's state public 
health veterinarian and as a program manager for the State's 
food safety programs. I also served on active duty in the 
military as a veterinarian and just retired as a reserve 
colonel. I applied for the position of director of PIADC due to 
my strong support for protecting the Nation's livestock from 
high-threat foreign animal diseases with vaccines and 
biological countermeasures, and today we are working on a 
vaccine that next year hopefully we will have the first 
licensed vaccine that we can use in the United States, 
manufactured in the United States and with the ability to tell 
infected from vaccinated animals. This will hopefully move on 
to where we can put it in the national stockpile and the USDA 
will have the option then to vaccine animals in this country to 
live and not be slaughtered.
    As Center director, I support USDA on a daily basis in its 
important mission. It is an important mission to protect the 
Nation from foreign animal diseases. As an example, if foot-
and-mouth disease is suspected in the United States, the 
samples are shipped to Plum Island for confirmatory testing by 
the USDA Animal and Plant Health Inspection Service. What we do 
is provide operational support from DHS for these activities. 
We want to ensure the testing is conducted immediately. In 
addition, we support the Animal and Plant Health Inspection 
Service of the USDA in training its over 200 veterinarians a 
year in the Nation's only foreign animal disease diagnostic 
training classes. These are the veterinarians who would be the 
Nation's first responders in a foot-and-mouth disease or other 
foreign animal disease outbreak.
    I also support USDA Agriculture Research Services at Plum 
Island, which is involved in basic and applied research on 
foreign animal diseases including classical swine fever and 
foot-and-mouth disease. As an example of their important work, 
ARS conducted research in early development of a new foot-and-
mouth vaccine that does not use live virus as part of its 
production and can therefore be manufactured in the United 
States, as I mentioned previously.
    The one thing that we also do in addition to providing 
operational support to the USDA to allow them to focus entirely 
on their mission now is, we are able to provide the additional 
support in taking vaccine products developed by the USDA and 
moving them onto manufacturing, and we have a Targeted Advanced 
Development unit established there of DHS scientists who now 
have the expertise for vaccine development. This is something 
unique that we didn't have before DHS came to the island. We 
are working with industry, USDA, ARS, and APHIS and the U.S. 
Center for Veterinary Biologics for obtaining licensing for 
this vaccine. It is an important step for this Nation and 
critical in responding to the things that we saw today because 
I totally agree, this is a highly contagious disease and 
probably the most catastrophic disease that is facing our 
animal industry.
    DHS is committed to maintaining positive proactive 
relations with our surrounding communities too. We established 
a community forum with 28 members from the local New York and 
Connecticut communities, which meets on a quarterly basis. We 
use this method to keep the public informed of the important 
scientific work and other activities we do. We also just 
recently scheduled a Plum Island community day where we are 
having 25 people from the local community come out, and we want 
to explain to them the important things we do at Plum Island. 
It is time that we stopped having secrets and let the community 
know the important work that we are doing.
    In addition, we have an industry stakeholders working group 
that I put together with representatives from agencies and 
organizations such as the National Cattlemen's Beef 
Association, which you heard speakers here today from, and the 
National Milk Producers Federation. I provided presentations to 
these organizations and communicated with other stakeholder 
working groups to keep them apprised of the important work we 
do at Plum Island.
    At Plum Island, we also have a senior leadership group 
which, besides myself, is comprised of the Animal and Plant 
Health Inspection Service's director of the Foreign Animal 
Disease Diagnostic Lab and also the chief of research from USDA 
ARS. We work closely on a daily basis and meet regularly to 
ensure communication and partnership in supporting our 
important scientific activities. We also elevate issues as 
appropriate to our Plum Island board of directors, which is 
comprised of the administrator of Agriculture Research Services 
and APHIS, and a senior representative from the Department of 
Homeland Security S&T also sits on that committee. Senior 
leadership is conducting--right now we are doing strategic 
planning, working together in our senior leadership group at 
Plum Island identifying our current research strategies and how 
we are going to address future needs with the facilities we 
have but also moving into the future, and we will report these 
and coordinate those with the Board too.
    We also have made many other improvements addressing other 
GAO findings of security violations, which we have corrected 
now. We have memorandums of understanding with local 
communities for support, and on a daily basis I work closely 
with the USDA.
    In summary, Plum Island plays a critical role in the daily 
protection of our Nation against foreign animal diseases. As 
director, I am committed to providing support to the USDA in 
fulfilling their important mission at Plum Island as well as 
providing a sense of urgency and support for the Department of 
Homeland Security and USDA's development of a new, improved 
foot-and-mouth vaccine for the protection of this Nation's 
livestock and nothing is more important to me, coming from a 
cattle ranch, than having that. Thank you.
    [The prepared statement of Dr. Barrett follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Stupak. Thank you, Dr. Barrett. Dr. Barrett, I will 
need you to submit that. It looks like you read a written 
statement there so I will need you to submit that for the 
record. Kyle will make a copy and give it back to you. Thank 
you.
    Mr. Dingell, do you wish to go first?
    Mr. Dingell. Thank you.
    Mr. Cohen, I want to thank you for your kind words. Please 
tell me where is the environmental impact statement and when 
are you going to make it available to this committee at the 
request of this committee and at the request of GAO?
    Mr. Cohen. I will be pleased to make it available to this 
committee, as I have made all other information----
    Mr. Dingell. Pardon me?
    Mr. Cohen. I say again, I will be pleased to make it 
available to the Committee, as I made all other----
    Mr. Dingell. We would like to see first of all the state of 
this and we would like to see the statement of work that goes 
into that. When will that be made available to the Committee?
    Mr. Cohen. It is my understanding that the statement of 
work was provided to the Committee either late last year or 
early this year.
    Mr. Dingell. I am informed that that is not true, and I am 
informed that GAO has been denied this because that is a 
proprietary document. Is that statement true?
    Mr. Cohen. The statement of work is not a proprietary 
document, and I will find out why the Committee and the GAO 
does not have it. As to the draft environmental statement, 
while we are not required to conduct this selection for the 
NBAF location under the Federal acquisition regulations, I felt 
as the responsible individual that the closest we could come to 
those processes would give the most transparency and fairness 
and so in doing that----
    Mr. Dingell. This is all fine, but let me just repeat my 
question so that you understand it. When are you going to make 
available to us the statement of work? When are you going to 
make available the environmental impact statement? When are you 
going to make it available to GAO? Why have you refused it to 
GAO? Why have you stated that this is a proprietary document?
    Mr. Cohen. I will see that the statement of work is 
delivered to your committee and the GAO this afternoon and then 
we will determine whether they had it----
    Mr. Dingell. Why have you withheld it from the GAO and why 
have you withheld it from this committee?
    Mr. Cohen. I don't have----
    Mr. Dingell. You are the witness on behalf of the 
Department and said this is a proprietary document. Is it a 
proprietary document, and if so, what is a proprietary document 
and why it is a proprietary document not available to GAO and 
to this committee?
    Mr. Cohen. Chairman, I have no personal knowledge that the 
word ``proprietary'' was used. I will accept the GAO----
    Mr. Dingell. You have heard----
    Mr. Cohen. I will accept the GAO's testimony that they did 
to that effect, but the GAO nor did the Congressional Research 
Service at any point request to see me as part of their 
studies.
    Mr. Dingell. Dear friend, they are asking to have the 
document. I have 2 minutes and 26 seconds so I don't want to 
get into a long argument over this. I just want you to tell us 
why you have been withholding this from us at this committee 
and why you have withheld it from GAO and which is functioning 
at our request.
    Mr. Cohen. We have not withheld a statement of work. I will 
make sure you have a copy on the draft environmental statement. 
We will make that available to the Committee. We will make it 
available to the public just as if it were a contract action.
    Mr. Dingell. We want the document now. We don't want it at 
some future time.
    Mr. Cohen. Yes, sir.
    Mr. Dingell. And if you have a reason for withholding it 
from us, I want you to tell us what that is and why you are 
withholding it from us, and we want to know why we have to wait 
and why you are treating it as a contract action rather than 
seeing to it that it is made available to us forthwith and why 
did you not make this available to GAO on their request? Now, 
what are the answers to my questions? You mentioned the word 
``arrogant'' and it sounds rather arrogant to me.
    Mr. Cohen. It sounds arrogant to me that neither the 
Congressional Research Service nor the GAO would show me, the 
deciding official, the courtesy to even visit with me. We have 
heard testimony from the GAO that they couldn't get onto Plum 
Island, and who did they contact to get into Plum Island?
    Mr. Dingell. They had to wait 6 weeks.
    Mr. Cohen. Me?
    Mr. Dingell. Please explain why they had to wait 6 weeks to 
get on the island.
    Mr. Cohen. Because Dr. Sharma, I am informed, contacted the 
wrong people. Your staff has been on the island. In fact, my 
staff and your staff have bathed together on the island.
    Mr. Dingell. This sounds to me as if almost anybody in that 
department of yours is the wrong people. It sounds like you are 
speaking on behalf of the most profound disorganization and 
confusion. Why is it that the wrong people couldn't refer him 
to the right people? Is that incompetence or is that arrogance?
    Mr. Cohen. As I said, if Dr. Sharma will share with me who 
he contacted, if we have a problem with customer service, I can 
assure you I am committed to improving the customer service.
    Mr. Dingell. On February 21, I had to send this letter to 
Secretary Chertoff: ``Your failure to make complete response to 
our records request is troubling. Despite assurances of 
cooperation from Under Secretary Jay Cohen in a letter to this 
committee dated October 25, 2007, we continue to discover the 
existence of records directly related to our requests but which 
are not included in your response. For example, it was in the 
course of a visit to Plum Island by the committee investigators 
in November we became aware that DHS possessed two studies 
performed by SAIC analyzing Plum Island and NBAF issues. 
Similarly, it was only as a result of this committee staff 
interviews of certain DHS officials that we became aware of a 
study on Plum Island performed by the Homeland Security 
Institute in 2007. The SAIC studies have now been provided but 
despite staff requests, the HSI study has not yet been 
produced.'' Why is it not produced and where is it and when are 
we going to get it?
    Mr. Cohen. Well, Chairman, I am pleased, and Chairman 
Stupak, these are all of the studies that I have and I am glad 
to give them. I believe you will find that the staff already 
has those.
    Mr. Dingell. Let me inform you, Mr. Secretary, that the 
delivery of lots of paper is not the delivery of the specific 
requested documents, and I expect better cooperation from your 
department. You are not giving it, and it may be that you can 
treat other committees with arrogant disregard for their 
requests but you are sure not going to do it here because I am 
going to see to it, and I am sure Mr. Stupak, our chairman, 
will see to it that we lay subpoenas on you so that we get your 
cooperation willingly or otherwise.
    Mr. Cohen. Yes, sir, and to the extent I control the 
documents, I have directed their release in a timely manner to 
the Committee. To the extent that they are shared amongst 
departments, as you have heard today earlier, USDA, Department 
of Justice, et cetera, it is appropriate that I ask those 
departments for clearance because I did not generate them. But 
I have nothing to hide here. This process is being done in an 
open and fair manner to the best of my ability, sir.
    Mr. Dingell. Well, I have to say that you are giving me 
quite a different impression, and you are giving this committee 
quite a different impression.
    Mr. Chairman, my time is expired. I hope we will have a 
second opportunity to raise these questions.
    Mr. Stupak. I thank the chairman.
    Mr. Cohen, you brought up this study on the economic impact 
of an outbreak in this country that the last panel brought up, 
and why wasn't that supplied to the Committee? Why wasn't that 
study supplied to the Committee?
    Mr. Cohen. I am sorry. Is this the 2002----
    Mr. Stupak. The 2004 USDA estimate of what an outbreak 
would cost this country. Direct cost was $60 billion from the 
last witness. Why wasn't that report supplied our committee?
    Mr. Cohen. I will refer that to Under Secretary Knight. It 
is a USDA study.
    Mr. Knight. I have had staff scrambling since the testimony 
to find that because I do know earlier this week----
    Mr. Stupak. Yes, they should scramble when we write letters 
though and ask for those reports, not when you come to the 
Committee. So where is the report and when can we have it?
    Mr. Knight. My best knowledge right now is that that study 
was in fact a PowerPoint presentation given by the chief 
economist's office. I am working to get confirmation on that. 
When I have got that tracked down, I will provide that fully to 
the Committee.
    Mr. Stupak. We want it, and we want it soon.
    Let me ask you this. Have you done any risk assessment on 
Plum Island, Mr. Cohen?
    Mr. Cohen. Well, we have done numerous studies.
    Mr. Stupak. I am talking about risk assessment on Plum 
Island. Have you done one, yes or no?
    Mr. Cohen. Risk assessment is being done under NEPA as part 
of the environmental impact statement.
    Mr. Stupak. Has risk assessment been done in the State of 
Texas on the proposed site, State of Kansas----
    Mr. Cohen. It is being done as part of the environment 
impact statement for the San Antonio site as is the case in all 
six sites.
    Mr. Stupak. All right. So it is being done. When is it 
going to be done?
    Mr. Cohen. Well, the draft environmental impact statement 
should be out no later, in my opinion, than mid-June, and the 
final environmental impact statement should be out this fall, 
either October or November.
    Mr. Stupak. Does it include economic impact as to what 
happens when foot-and-mouth disease would hit this country?
    Mr. Cohen. Yes, sir, it does.
    Mr. Stupak. All right. How about the cost-benefit analysis? 
Have you done that?
    Mr. Cohen. We will do that as part of the economic----
    Mr. Stupak. Have you done it?
    Mr. Cohen. It is in progress as part of the environmental 
impact statement. Many of these issues are very site-specific 
and require knowledge of the community. We couldn't even start 
these until we had down-selected to the six most probable 
sites.
    Mr. Stupak. And when did you narrow it down to six probable 
sites?
    Mr. Cohen. Last July.
    Mr. Stupak. So it has been over a year?
    Mr. Cohen. And we have been in progress with town halls, 
public hearings. We have over 2,000 documents that have been 
submitted by various interested parties including some of the 
representatives from panel number two.
    Mr. Stupak. All right. You indicated that the morale is 
very high at Plum Island. Do you have trouble recruiting 
scientists to go work at Plum Island?
    Mr. Cohen. I will refer that to Dr. Barrett since he is the 
responsible individual.
    Dr. Barrett. When we recruit scientists at Plum Island, we 
usually go out and try to get post-docs and other people like 
that, like we recently hired one of our scientists----
    Mr. Stupak. Sure, but do you have trouble recruiting 
qualified people?
    Dr. Barrett. As senior-level scientists, we are trying to 
hire a research veterinarian now. That is difficult, and I know 
ARS is too. But most positions we can fill.
    Mr. Stupak. OK. Well, we have been told that your 
scientists are among the best in the world in their field. Is 
that correct?
    Dr. Barrett. Yes.
    Mr. Stupak. OK. And your scientific missions and goals are 
being accomplished at Plum Island, are they not?
    Dr. Barrett. Yes.
    Mr. Stupak. So there is not a concern then that if we put 
the new foot-and-mouth disease facility on Plum Island, you 
would have trouble recruiting people to work there?
    Dr. Barrett. No.
    Mr. Stupak. You indicated you grew up on a cattle farm or a 
ranch?
    Dr. Barrett. A ranch.
    Mr. Stupak. Do you still have family in----
    Dr. Barrett. Yes. I go back and visit my father and we go 
out and look at the cows, and one of the things that I am so 
interested in getting this vaccine out is because they are 
registered heifers and he can tell me, the mother for every cow 
and I have to listen to it every time.
    Mr. Stupak. Did you ever talk to him about moving foot-and-
mouth research off Plum Island?
    Dr. Barrett. Yes.
    Mr. Stupak. What did your father say to that?
    Dr. Barrett. He didn't think it was a good idea. At the 
same time, I didn't have time to----
    Mr. Stupak. Well, let me ask you this. How many releases of 
foot-and-mouth disease have been from Plum Island?
    Dr. Barrett. Releases? We have only had the one release in 
1978.
    Mr. Stupak. OK. DHS--and maybe Secretary Cohen or Director 
Cohen would like to answer this. DHS can either renovate the 
existing facility on Plum Island or build a new facility there, 
correct?
    Mr. Cohen. Yes, sir.
    Mr. Stupak. And is Plum Island being considered as one of 
those sites?
    Mr. Cohen. Absolutely.
    Mr. Stupak. DHS could still build NBAF but leave foot-and-
mouth disease on Plum Island. That is another option, right?
    Mr. Cohen. Yes, sir.
    Mr. Stupak. OK. A new NBAF would include animals that would 
be kept on the property, right?
    Mr. Cohen. Yes, sir.
    Mr. Stupak. No matter where it is at?
    Mr. Cohen. No matter where it is at, but those animals 
would be kept within the facility, not outside the containment.
    Mr. Stupak. OK. In 1991, 13 years after the 1978 outbreak, 
Plum Island stopped keeping animals outside the lab on the 
island. Isn't that correct?
    Mr. Cohen. I was up there on Monday. I spoke with Dr. 
Callis, who was the director in 1978, and both Dr. Barrett and 
I tried to get an exact date, and Dr. Callis indicated that it 
was about that time.
    Mr. Stupak. OK. So you stopped keeping animals on the 
outside, and that was after 1978?
    Mr. Cohen. Yes, sir, somewhere between 1978 and 1991. I 
think it was progressive.
    Mr. Stupak. Do you know how many outbreaks since 2004 of 
the biolabs 3 and 4? Do you know how many outbreaks there have 
been since 2004 through 2007?
    Mr. Cohen. I will take for the record, but there have 
been--you are talking more than just----
    Mr. Stupak. I am talking accidents----
    Mr. Cohen. BSL-3, BSL-4?
    Mr. Stupak. Yes.
    Mr. Cohen. There have been a handful and they are 
documented.
    Mr. Stupak. OK. Well, actually with accidents and 
outbreaks, there have been 103. Would that surprise you?
    Mr. Cohen. No.
    Mr. Stupak. OK. And----
    Mr. Cohen. I assume you are talking worldwide?
    Mr. Stupak. No, I am talking about here in the United 
States.
    Mr. Cohen. I don't have knowledge of that number. That 
would come under CDC and HHS and NIH and----
    Mr. Stupak. Sure. Let me give you one right there. There 
were 103 outbreaks since January 2004 through halfway through 
2007. That is 3\1/2\ years, 103 of them. Ninety are caused by 
human error.
    Mr. Cohen. Yes, sir.
    Mr. Stupak. So the issue here is not necessarily human 
error, but once the outbreak happens, how will it spread? Is 
that fair to say?
    Mr. Cohen. I just didn't hear the----
    Mr. Stupak. Sure. If 90 percent of the errors or outbreaks 
or mistakes are human errors at these BSL-3 and BSL-4 labs, you 
are going to have that whether it is on Plum Island or Texas or 
North Carolina.
    Mr. Cohen. Yes, sir.
    Mr. Stupak. And the critical issue then is how quickly it 
could spread to a surrounding population. Isn't that correct?
    Mr. Cohen. If it would spread, and then at what speed, yes, 
sir.
    Mr. Stupak. If you had an outbreak that got out, one of the 
previous panelists said that you had to cordon off 20 miles; 
then there is another buffer, and then you might have to 
vaccinate the outer area. So the less impact, the less risk 
there would be in areas where there is less of an animal 
population to be infected. Is that fair to say?
    Mr. Cohen. I don't know the basis for the 20 miles. 
Obviously people have shared with you, Plum Island is 1\1/2\ 
miles off the eastern end of Long Island and so that is viewed 
as the customary barrier. But certainly proximity, as was 
stated with a feed house or whatever, is certainly a 
consideration.
    Mr. Stupak. Sure, and in the books there, in fact, I think 
you handed some of those SAIC reports to Mr. Dingell. You were 
indicating in the one on tab 12, if you will, that is that SAIC 
report of August 15, 2002, and for the record, SAIC means 
Science Applications International Corporation. On page 16, 
third paragraph, it talks about biosafety lapses at any 
facility location likely to have an equal risk of occurrence, 
and I think you would agree with that statement, would you not?
    Mr. Cohen. I do, sir.
    Mr. Stupak. OK. It goes on and says, ``In this respect, not 
all locations can be considered equal, that is, facilities 
located where significant animal populations exist that are 
susceptible to agents under investigation have a greater degree 
of risk.'' Is that true?
    Mr. Cohen. I agree with that, and that is exactly why under 
NEPA we are doing the EIS at all of the six sites.
    Mr. Stupak. Right, and even though this is a faulty report, 
according to GAO, because you only looked at limited 
circumstances, they still concluded, did they not, in the next 
paragraph that Plum Island was considered to have the lowest 
risk should accidental release from an agent from the facility 
occur in part because of its island location but mainly due to 
lack of commercial livestock farming in Long Island and 
surrounding areas. Is that true?
    Mr. Cohen. As you have heard in prior panels, we have had--
--
    Mr. Stupak. Isn't that what it says? Isn't that what this 
report says, that paragraph right there?
    Mr. Cohen. It does say that, and----
    Mr. Stupak. So it sounds like Plum Island would be the 
preferred location because of the island location and the lack 
of livestock to be infected if there is a contagious outbreak 
when you have had 103 in the last 3\1/2\ years.
    Mr. Cohen. I certainly, Chairman, will stipulate that Plum 
Island is an island, it is remote, it is separated by water, 
but as you have heard from prior panels, there are deer that 
swim. I am a New York City boy. I was brought up in Manhattan 
Island. I thought wildlife was squirrels, rats, and pigeons. 
Then I moved to Long Island, close to Plum Island. So deer are 
susceptible to foot-and-mouth. Now, I was just out there on 
Monday----
    Mr. Stupak. And have we had any deer come back with hoof-
and-mouth disease and infect the area? Even if they did, 
according to this report that you paid for, there is less 
chance of an infection because there is not enough livestock in 
that area to have a significant impact.
    Mr. Cohen. Well, Chairman, you know I was just----
    Mr. Stupak. So your risk-benefit analysis, I think we just 
did it for you.
    Mr. Cohen. I was just on eastern Long Island on Monday and 
I found out that their economy has changed and they are now 
doing an awful lot of shrubbery, decorative shrubbery because 
of the construction that is going on, and there is a real, just 
like in Maryland and other states, a deer population boom, and 
so deer can transmit this as well as any other of the cloven-
hoof animals. So this will all be part of the EIS. I agree with 
you, it is an island and it makes sense from the testimony, as 
you have heard----
    Mr. Stupak. I am just trying to help you because apparently 
you have been having trouble getting it done and getting the 
documents to us, and your own documents sort of indicate Plum 
Island is the preferred place from a risk-benefit analysis.
    Mr. Cohen. If those documents were the end-all, I would not 
have been working on this with a team of government service, 
DHS, USDA, and HHS----
    Mr. Stupak. It is not the end-all.
    Mr. Cohen [continuing]. Going to every site for the last 
year and a half and continuing this for the next 9 to 10 
months.
    Mr. Stupak. It is not the end-all. That is why we want 
these other reports.
    Mr. Cohen. Yes, sir.
    Mr. Stupak. Even as flawed as it is, they still came with 
the conclusion.
    Mr. Shimkus for questions.
    Mr. Shimkus. Thank you, Mr. Chairman. To both secretaries, 
welcome, and I appreciate you sitting in to observe the other 
panels. We have learned--I have learned a lot and you all have 
been involved a lot in this process. Let me ask both of you, 
and Secretary Knight, I would like you to answer first and then 
Secretary Cohen, just because left to right, kind of easy, Dr. 
Hill from the National Pork Producers gave testimony today 
stating that the location of the facility on the mainland 
should be based on an assessment of risk and that an assessment 
of the proximity of susceptible animal populations that could 
be exposed to an outbreak should be one of the factors 
considered when calculating that risk. Is that risk examined in 
the EIS, and if not, why?
    Mr. Cohen. That is my responsibility, and the answer is 
yes, it is considered, absolutely.
    Mr. Shimkus. Was it a consideration on picking the five 
finalists?
    Mr. Cohen. It was not as direct a consideration as it is 
now that we are with the finalists and have a full-blown 
environmental impact statement. We have listed the public 
criteria by which we did that down-select and we used both 
numerical and adjectival scoring, and the Committee has been 
provided with that record of decision for their review.
    Mr. Shimkus. Did either you, Secretary Knight, or Secretary 
Cohen, either from USDA or DHS, consult with or ask for input 
from the livestock associations when selecting the final sites 
for the NBAF?
    Mr. Cohen. We took again in a very public way with public 
hearings, et cetera----
    Mr. Shimkus. We like public hearings.
    Mr. Cohen. We took input from everybody including people 
with protest signs on the side of the road when we visited the 
consortia proposed sites.
    Mr. Shimkus. Secretary Knight?
    Mr. Knight. We were in a supporting role with DHS in that 
and everything was done in as open a process as possible with 
public participation.
    Mr. Shimkus. As the process moves forward, will we continue 
to be in consultation with the industries affected?
    Mr. Cohen. Absolutely, and I would say based on the 
information I received today and we continue to learn that we 
will to be more closely involved with them because under the 
economic impact, they know best.
    Mr. Shimkus. Dr. Barrett, also welcome to you. As director 
for the past year, what have been the most common complaints 
made by current USDA employees at Plum Island about the 
facility and its location?
    Dr. Barrett. The most common complaint is about space. We 
just had our last senior leadership group. We spent the entire 
meeting talking about how we were going to be sharing one room 
because we only have one room to hold 26 animals for the large 
studies and we spent a lot of the meeting deciding which of the 
three of us would get to use it.
    Mr. Shimkus. And obviously I walked in late, I missed some 
questions. Was there a follow-up question by the chairman about 
the assertion made about the inability to get qualified people 
at Plum Island versus other locations around the country? I 
mean, is that a----
    Dr. Barrett. I responded to that and I said that we do work 
just like any other scientific institution. We bring in post-
docs and build our own. At the same time, we do have difficulty 
in hiring senior scientists as you would at other locations. 
One of the things is because it would be nice if we were closer 
to a research institution so that you could do cooperative 
projects.
    Mr. Shimkus. And a research institution, you are referring 
to associated with a major university?
    Dr. Barrett. Yes.
    Mr. Shimkus. Mr. Chairman, that is all I have right now.
    Mr. Stupak. Mr. Dingell.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy.
    Mr. Secretary, where is the cost-benefit analysis for this 
move?
    Mr. Cohen. It is in process with the environmental impact 
statement.
    Mr. Dingell. You do not have it now?
    Mr. Cohen. I do not have it now.
    Mr. Dingell. Will that be made available to the Committee 
as soon as it is available?
    Mr. Cohen. Absolutely, sir.
    Mr. Dingell. Thank you. Now, let us talk about the SAIC 
study. Where in the SAIC study does it support the move of Plum 
Island to the mainland? What is the language? Where is it in 
that study?
    Mr. Cohen. I have not memorized that study so I will take 
for that record, but that study was done under the auspices of 
the Department of Agriculture.
    Mr. Dingell. Where in the study is that language?
    Mr. Cohen. I will take it for the record, sir. I will get 
back to you.
    Mr. Dingell. All right. Please submit it for the record 
with great specificity.
    Mr. Cohen. Yes, sir.
    Mr. Dingell. Now, you have referred to HSPD-9 as supporting 
the move. What language in that study supports this move?
    Mr. Cohen. As I read HSPD-9, it does not specify a move. It 
requires in coordination with the U.S. Department of 
Agriculture that we establish suitable facility in order to 
mitigate or prevent bioterrorism in this area.
    Mr. Dingell. Does it say that that should be moved, that 
Plum Island should be moved to the mainland?
    Mr. Cohen. Not to my knowledge.
    Mr. Dingell. OK. Now, where does the study that in the 2003 
White House Blue Ribbon Panel on Bioterrorism show either a 
cost-benefit analysis or a reason for moving Plum Island to the 
mainland?
    Mr. Cohen. I have read that blue ribbon study. I appreciate 
the work that went into it, and as I read it, it specifies 
neither of those, sir.
    Mr. Dingell. So it doesn't show that. Now, what document do 
you have at the Department which justifies the move of this 
facility from Plum Island to the mainland?
    Mr. Cohen. I do not have a document because we have not 
made the decision to move from Plum Island.
    Mr. Dingell. But you will have obviously decisionmaking 
documents which will be presented to you. Do you have any 
such----
    Mr. Cohen. As they----
    Mr. Dingell. Please.
    Mr. Cohen. Yes, sir.
    Mr. Dingell. Do you have any such documents that you can 
present to the Committee today?
    Mr. Cohen. We have presented to the Committee the record of 
decision----
    Mr. Dingell. I am asking----
    Mr. Cohen [continuing]. The five plus Plum Island that 
shows the methodology----
    Mr. Dingell. Reply, if you please, to my question.
    Mr. Cohen. Yes, sir.
    Mr. Dingell. Do you have any documents which support this 
move? Any----
    Mr. Cohen. The document that I have submitted----
    Mr. Dingell. Pardon?
    Mr. Cohen. The document I have previously submitted, which 
is the record of decision, which shows the methodology that got 
us to the existing six. I will give you the----
    Mr. Dingell. Mr. Secretary, you are not being very helpful. 
What I want from you is any documents which you have which 
justifies the move.
    Mr. Cohen. Sir, I am not presuming that there will be a 
move. I am in the process of the down-select of which Plum 
Island is one of the six finalists.
    Mr. Dingell. All right. Now, this question then to the 
witness from the U.S. Department of Agriculture. What documents 
do you have anywhere in the Department of Agriculture which 
justify or support the movement of this facility from Plum 
Island to some onshore position?
    Mr. Knight. I do not believe we have any documents other 
than what have already been provided.
    Mr. Dingell. What studies do you have that support that 
move?
    Mr. Knight. We have some experience in the logistical 
difficulties associated with testing in the event of a 
potential disease trace-back which has shown that there are 
logistical hurdles associated with getting samples to Plum 
Island in a timely manner.
    Mr. Dingell. Please present that study to the Committee, 
and please see to it that it is annotated to show where you 
have anything in that study which supports the move. And please 
also tell me whether you are telling me that this study tells 
you that there are large costs associated with the move and 
whether you are telling us that this study also makes the point 
that there is risk in moving. Now, what are the facts with 
regard to this study?
    Mr. Knight. I do not have a study to that effect. I replied 
to you, sir, that we had some experience on those logistical 
challenges.
    Mr. Dingell. You have experience. I am asking for studies, 
not pious statements. I want to know what studies you have that 
will tell us. I don't like people coming before this committee 
to say, oh, this is a great thing to do, and that is what I am 
hearing this afternoon about what a great thing this is to do 
and we have got a head of steam. Let me read to you something. 
I would like to have you hear what my friend Pat Roberts had to 
say in this, and he was referring to his experience, and this 
is in regard to an exercise where he played the President in 
something called Crimson Sky. Now, Crimson Sky was a misnomer 
label of what would happen if Iraq had launched a hoof-and-
mouth disease infestation in some seven States. He goes on to 
say this: ``Now, that doesn't sound like much on the surface of 
it but you have an infestation period of 6 days and on the 7th 
you have got to make some decisions, and we didn't do it very 
well. We ended up with 50 million head of livestock that had to 
be terminated. Now, how do you do that? Just on the surface of 
it, how on earth do you do that and what do you do with the 
carcasses? Well, obviously it was the National Guard, and then 
obviously the National Guard couldn't handle it all, so it was 
active duty. And then we found we didn't have enough ammunition 
and we found that you don't burn the carcasses, because that we 
learned in Great Britain, that is not what you do. So we had to 
bury them, and there was a ditch 25 miles long and half a 
football field wide in Kansas alone just to handle the herds 
there.'' And he goes on to say, ``And then we had to put out a 
stop order on all shipments because you were having States and 
National Guards being activated by the governors to stop other 
States and transportation of livestock, all export stock. The 
markets went nuts and the people in the cities finally figured 
out that their food did come from farms and not from 
supermarkets, and they rioted in the streets and there was a 
mess. And it was not only for 1 year but for several years. 
Then add in the problem of food security, and if you put a 
little anthrax in some milk, then you have probably got a 
problem on your hands. Now, I want to know, I know that at that 
particular time when different events happen, that DOD will be 
there. They are going to have to be there because they are the 
only outfit that can do it. I prefer the National Guard because 
people know them and trust them. They are the home forces and 
they are working toward it.''
    This is what happens when anthrax, rather than foot-and-
mouth disease, gets loose. So I want to be sure that you folks 
down there are protecting yourself. We had have had all kinds 
of releases from onshore facilities. You have had none at Plum 
Island, and I have got here a list of the instances where these 
kinds of things have gotten loose, but none has gotten loose at 
Plum Island. Plum Island became the place where we put things 
like foot-and-mouth because it is exquisitely dangerous. All 
there has to be is one contact and the disease moves from one 
animal to another and it goes like a wildfire across Kansas, 
and I don't want to see the same thing going across Kansas 
because we have made a bad judgment, and I want to see--that is 
why this committee wants to see your environmental impact 
statement.
    You folks down at DHS have the idea that because you are 
charged with protecting the country, anything you do is right, 
and that you can go ahead and do whatever you want in whatever 
high-handed fashion you so choose. And I don't see any sign 
that you have been cooperative with the Committee in enabling 
us to evaluate what is going on or in seeing to it that you are 
carrying out your responsibilities in a proper fashion. You 
have been high-handed and arrogant in your dealing with the 
Government Accountability Office, and you have been 
uncooperative in assisting this committee with the information 
that we have sought from you. This has to stop, and I will 
inform you that there are pleasant ways to work with this 
committee and there are unpleasant ways. We will give you the 
choice but you, sir, are going to work with this committee and 
we are going to see to it that the people are safe from the 
Department of Homeland Security whether you people like it or 
not. Now, you have already got a fine record on Katrina and I 
want to see to it that you don't have a fine record on foot-
and-mouth disease.
    Thank you, Mr. Chairman.
    Mr. Cohen. Chairman, may I have just a moment to respond, 
please?
    Mr. Stupak. That is your choice. It is your risk.
    Mr. Cohen. And I thank you for that guidance.
    Mr. Stupak. This is a risk assessment I am giving you.
    Mr. Cohen. Yes, sir, and I won't ask you for it in writing, 
sir.
    Chairman, I believe you get more flies with honey than 
vinegar and I have enormous----
    Mr. Dingell. We have asked for stuff and we have done it in 
a nice way and we haven't got it. So now we are going to use 
either the nice way or the nasty way. Your choice is before 
you. I must tell you, we are going to get the information.
    Mr. Cohen. And I vote for the nice way, sir. Having said 
that, I appreciate your sharing the Crimson Sky. I am familiar 
with that. I have read that and I have had long discussions 
with Senator Roberts on that, and I will stipulate that the 
release of foot-and-mouth in the United States would have a 
very significant effect, tens of billions of dollars and years 
of impact, and we take that very, very seriously. I hope that I 
am not hearing you presuming or believing that I as the 
deciding official have made a decision to select any of the 
six, five on the mainland or Plum Island. I have not, sir, and 
I am under oath and I will only take that decision when the 
appropriate information and analysis is done in consultation 
with the six committees as well as the agriculture committees 
and your committee as you desire and with the leadership of 
Department of Homeland Security, HHS and USDA, and that is how 
we got to the down-select. Everything I have done has been 
testified to in other committees and the appropriations 
committees, which fund me and USDA, have found it in their 
heart in a bipartisan way to provide the tens of millions of 
dollars necessary to do this important work.
    Mr. Dingell. You are running around promising these 
facilities to a whole array of states. Every time I run over to 
the Floor, there is somebody saying to me, oh, we want this 
facility in our state. I have the governors of two states in to 
see me about this. They are saying oh, we want you to get out 
of the way so we can get this facility, and it sounds to me 
like what they are trying to do is to take a gamble on getting 
a lot of money or maybe foot-and-mouth getting loose. So Mr. 
Secretary, you can do a lot for yourself and for the trust that 
this committee has in you and in the Department, and right now 
it is a rather low level----
    Mr. Cohen. Yes, sir.
    Mr. Dingell [continuing]. By seeing to it that your people 
cooperate with us in producing the information that this 
committee asked for.
    Mr. Cohen. And I will do my very best, sir.
    Mr. Dingell. That will be a remarkable improvement, and I 
thank you.
    Now, what are you going to do about this? GAO is reviewing 
these people. Are you going to make your decision before we 
have the GAO's review of your decisions and review of the 
papers that they have been not receiving from your department?
    Mr. Cohen. They will receive them in a timely manner, as I 
indicated, when the Committee does and the public does. I have 
great respect for the Congressional Research Service and the 
GAO, and in fact, the GAO helped us significantly when they 
identified security and other problems previously at Plum 
Island, 24 areas that needed improvement. Eighteen have already 
been corrected and the other six are in process. So I respect 
the process. I respect the GAO. I would ask that they 
communicate a little bit more with me, but I respect the 
process and we will work with them, of course.
    Mr. Dingell. So are you going to wait on your decision 
until we have had the GAO review this matter or are you going 
to go right on ahead and make the decision before that occurs?
    Mr. Cohen. We will share the information in a timely manner 
with the GAO but I will make the decision as I am authorized to 
either by the enabling legislation or by Secretary Chertoff and 
the secretary of the Department of Agriculture, and then of 
course the Congress controls all of this either by the Farm 
Bill, which I am very pleased to see you voted for, or by the 
appropriations, which the Founding Fathers gave you the power 
to stop whatever the Executive branch----
    Mr. Dingell. Your answer is yes or no?
    Mr. Cohen. I do not put the Government Accountability 
Office in my decisionmaking chain. I will share with them.
    Mr. Dingell. I accept that as a no. Thank you, Mr. 
Secretary.
    Mr. Chairman, I thank you for your courtesy.
    Mr. Stupak. Thank you, Mr. Dingell.
    Mr. Pickering, questions?
    Mr. Pickering. Yes, Mr. Chairman.
    Is there any statutory language requirement that GAO's 
recommendation to you be considered in your decision? Is there 
any law, regulation or proceeding that GAO's recommendation is 
binding or directive and a government's decision authorized 
under law and in the Farm Bill that you are the deciding 
official?
    Mr. Cohen. I will have to take that for the record, sir. I 
think that is a question for the lawyers.
    Mr. Pickering. I am not aware of any statutory language, 
and I have been on Senate staff and here for a long time. I 
have never seen GAO be given the decision. They are to report 
to agencies and to us and based on their information, we take 
that information and then make our best decisions upon that. 
The GAO is not the deciding entity here. Is that correct? As 
you consult with your lawyers, is GAO, have they been tasked by 
any act of Congress to make this decision?
    Mr. Cohen. Congressman, I am going to have to take that for 
the record. I am not a lawyer.
    Mr. Pickering. I think the answer is clear. But the 
Department of Homeland Security is the deciding entity as 
designated by law. The GAO as well as communities across the 
country are making public comment in a very open and 
transparent process, and you are doing studies, and I think 
that will all be part of the record of the draft EIS. Is that 
correct?
    Mr. Cohen. To the extent that we have completed those 
studies, yes, sir, and this process has been ongoing for 
several years. I have been personally involved now for nearly 2 
years in a full and open manner around the country.
    Mr. Pickering. Now, one of the questions here is cost-
benefit. The other question, major question, is risk 
assessment. On a cost-benefit basis, would it cost more to 
build and operate and maintain a new facility on Plum Island?
    Mr. Cohen. We would have to determine the exact 
differential, but as you heard from the second panel, an 
individual from--Mr. Voogt, I think, from Michigan indicated 
that his experience building on an island was 30 to 40 percent. 
Our best estimate is, it would be about a 25 percent premium to 
build on Plum Island. Having said that, we would save on the 
transition from Plum Island to a mainland facility. I don't 
know what that differential would be. And then of course you 
have, as was indicated----
    Mr. Pickering. But that would be----
    Mr. Stupak. Would the gentleman yield on that point?
    Mr. Pickering. But all that would be in the EIS, would it 
not?
    Mr. Cohen. Yes, sir.
    Mr. Stupak. Will the gentleman yield on that point?
    Mr. Pickering. Yes, if it doesn't take any of my time.
    Mr. Stupak. I will give you back the time. How is that?
    You mentioned Mr. Voogt. You mentioned your estimation.
    Mr. Cohen. Yes, sir.
    Mr. Stupak. But you have your own report, your SAIC report 
there, that says it is only 17 percent, 140 versus 130, so 
which one are you going to use to make your determination, the 
report you commissioned, Mr. Voogt, or your own estimation?
    Mr. Cohen. Well, I am not making the decision at this 
hearing and I am not making the decision any time soon. I will 
make the decision----
    Mr. Stupak. In response to----
    Mr. Cohen [continuing]. When I have all of the information 
in front of me and I can then come in front----
    Mr. Stupak. Well, in your answer, it sounded like you were 
relying on what Mr. Voogt said because he----
    Mr. Cohen. Oh, no, I was using his----
    Mr. Stupak [continuing]. Has something to do with Beaver 
Island in Michigan and in your own judgment but----
    Mr. Cohen. I apologize. The only reason I referenced that 
was to indicate that there is an additional cost to 
transporting building material, workers to an island. How much 
that it, we will find out. I also indicated----
    Mr. Stupak. Page 31 of tab 13, I would suggest you read it. 
It says 17 percent.
    Mr. Cohen. I don't accept the 17 percent. I don't accept 
the 40 percent. I don't accept the 26 percent that Dr. Barrett 
has given to me. I will accept the validated real-time 2008 
number based on the facts as we know them.
    Mr. Stupak. That is why we hope you have GAO, Government 
Accountability Office, help you with that before you make the 
decision because they are more the experts on it since you seem 
to have some confusion what number we should use.
    Mr. Cohen. I think we have a number of experts available 
and I certainly welcome GAO to the process.
    Mr. Stupak. Thanks to the gentleman for yielding. We will 
make sure you get the time there.
    Mr. Pickering. Thank you, Mr. Chairman.
    Going to the GAO study, on page 6, and I realize this just 
came out, you probably didn't have time to review it, and 
again, I don't think anybody is saying that a decision has been 
made one way or the other. I think that we are getting upset 
about something that is really not time to be upset about or 
the anxiety is premature, and the reason I say that, and 
correct me if I am wrong, we are going through an EIS over the 
next months. You are supposed to make a decision in October. 
But even after the site selection, the research done on a new 
facility, whether Plum Island or on the mainland, does not 
begin until 2015. Is that correct? So the analysis of getting 
this right, we have--this is part of making sure that we get it 
right, but no decision has been made and the analysis will be 
done.
    But going back to the GAO study, it says previously DHS had 
stated categorically that the SAIC study allowed them to 
conclude that foot-and-mouth disease work can be done safely on 
the mainland, and they go on in the next sentence to say that 
the EIS analysis in supplementing are validating your studies 
will also be part of that. But for some reason GAO sees it in 
conflict. How do you interpret it?
    Mr. Cohen. Well, GAO has not contacted me personally. I 
have no knowledge of who or when the statement relative to the 
2002 SAIC USDA study was made and I stand by the testimony I 
have consistently made over the last year and a half before my 
committees and the testimony I am giving here today.
    Mr. Pickering. When is the draft EIS scheduled to be 
released?
    Mr. Cohen. I would say about mid-June, sir.
    Mr. Pickering. Mid-June?
    Mr. Cohen. Yes, sir.
    Mr. Pickering. Are you providing the draft EIS to the 
Committee before the publication of the draft EIS?
    Mr. Cohen. It was my intent to provide it to the Committee 
similar to a contracting action with the release to the public. 
If there is law that indicates that I can provide it to the 
Committee in advance of public release, I welcome that input. I 
am not aware of that, sir.
    Mr. Pickering. Is this the issue, the proprietary issue of 
whether you can--when you view it as a contracting issue that 
you can give it to this committee prior to release to the 
public? Is that what we are----
    Mr. Cohen. Well, for instance in Department of Defense, we 
inform the Committee one hour before public release. The 
Appropriations Committee and Homeland Security requires 4 
working days notice of all responsible committees before there 
is a commitment of funds because I have not previously dealt 
with the Energy and Commerce Committee or Oversight Committee 
in this case, I don't know if there is similar law. If the 
Committee can produce that, I will certainly comply with the 
law.
    Mr. Pickering. So this is not a question of whether you are 
going to be fully open and transparent, it is a question of 
when you can release the information to the Committee and to 
the public. Is that correct?
    Mr. Cohen. That is exactly right, sir.
    Mr. Pickering. The last thing, sometimes we have a failure 
to communicate with agencies, with interagency processes or 
from the Hill to the agencies. It seems to me a meeting with 
GAO may clarify some of the concerns and give them a fuller 
understanding so that everybody can have greater confidence in 
the process as well as in the outcome. Would you be willing to 
meet with anybody from GAO?
    Mr. Cohen. I am pleased to meet with anybody from GAO at 
any time, anywhere, and I will even host them, as I have hosted 
CRS investigators to lunch.
    Mr. Pickering. Well, I think that that could go a long way 
to resolving some of the anxiety and the concerns, and I thank 
the chairman for my time. Thank you.
    Mr. Stupak. Thank you, Mr. Pickering.
    Mr. Moran, did you have some questions?
    Mr. Moran. Mr. Chairman, thank you very much again for your 
courtesy extended to me as a non-member of this committee. I 
just wanted to explore with both under secretaries what are the 
deficiencies with Plum Island that you anticipate correcting 
with a different site or a new facility?
    Mr. Cohen. Well, again, as I said in my opening statement, 
I am very proud of the work that the people do at Plum Island, 
and our goal and my dream is that they will shortly develop an 
efficacious vaccine for foot-and-mouth disease because that is 
really what we are talking about, and we are investing over $50 
million, have been over the last several years with the help of 
the Congress, we appreciate that very much, to expand the 
facility that exists at Plum Island for foot-and-mouth disease 
as well as making it more secure, but the goal is to be able to 
work on more than one vaccine at a time. Now, having said that, 
when the opportunity presented itself and the directions of 
HCPD 9 and 10 and working with the Congress, and also looking 
at other zoonotic diseases, foreign animal diseases, we have 
just focused--and I appreciate that, Chairman, so much. You 
focused on the foot-and-mouth, and I heard loud and clear your 
support and I know your committee feels that way about the need 
for the other developing potential diseases that go from animal 
to humans and cause a pandemic and great loss of life, as it 
has overseas. We need a BSL-4, this is where you don't have a 
cure or vaccine, for those studies. We don't need that for 
foot-and-mouth disease. There we use BSL-3 agricultural 
standard and we think that that has been sufficient. That is 
the standard around the world.
    And so what we are looking to do to see if there are 
synergies, and we have made this very clear in the public in 
the offering by locating near veterinary schools, and I have 
learned there are only 30 veterinary schools in the country. 
That was a surprise to me. I thought there would be more. 
Locating near to medical research facilities, locating where 
the cost of living is such. In the five mainland sites, the 
median cost of a home is on the order of half to a third the 
median cost of a home on the tip of Long Island or Connecticut. 
Now, how does that affect us? Dr. Barrett has indicated that we 
are successful in getting world-class scientists, and we are 
because we are doing such exciting work. But I have to hire 
dozens of large-animal handlers. They can't afford to live 
proximate to Plum Island, and if they are rushing to get home, 
will they make mistakes in their long commute, or they might be 
tired. So what we tried to do was see, could we in a holistic 
way come up with the best solution, be that on the mainland or 
on Plum Island. But that decision remains to be made.
    Mr. Knight. If I could augment from the USDA perspective, 
the attractiveness of a new NBAF facility has to do with the 
ability to conduct more research, to stay ahead of zoonotic 
diseases. We are very constrained on space today, need the 
additional work regardless of where that facility would be 
located, to be able to handle more diseases. We are primarily 
focused on FMD, almost exclusively on that today. There needs 
to be the ability to respond very quickly in the event of 
another foreign animal disease outbreak or to do basic applied 
research on those particular things.
    The second thing that is highly important for us is the 
ability to have a state-of-the-art facility that we can go to 
for diagnostics because the frontline work that we do as it 
pertains to FMD or any foreign animal disease is when we have 
an accredited veterinarian, has a suspicious animal, be able to 
pull those samples and get that test run in a very quick manner 
so that we can contain the outbreak of any disease, whether it 
is a fast-acting disease like FMD or a low-acting disease like 
bovine tuberculosis.
    Mr. Cohen. Congressman, if I may just add, I was so pleased 
with the second panel, I don't think you were here for it, but 
they indicated that in a terror world, and of course, before 9/
11, we thought the United States was an island. I mean, we may 
have land borders on the north and the south but the blessings 
of geographically we thought protected us. We now understand 
that is not true. And so a comment that was made, and I think 
we have to reflect on this, is no matter where the site is, if 
a terrorist were to release FMD, it didn't come from the 
facility but we then have to prove a negative, and I want to 
share with the Committee how easy it is to transmit FMD, and 
this does not have FMD in it, sir. But this handkerchief, if I 
were in a country where there was an FMD-infected animal and I 
put it under their nose and I put it in my pocket and I flew 
across any of the oceans and I went up to a susceptible animal, 
there is a very high probability that animal would now be 
infected. That is how easy it is and that is why whenever we 
come back to the United States on our declarations form, we 
state have you been on a farm, ranch or pasture, and because of 
the problems that have been well stated here in England, have 
you been in close proximity such as touching or handling of 
livestock? So the concerns that this committee have raised are 
very valid and, candidly, sir, keep me up at night. Thank you.
    Mr. Dingell. Mr. Chairman, could I ask a question, please?
    Mr. Stupak. Yes, sir.
    Mr. Dingell. We have asked through the staff of both 
departments that we have made available to us any studies of 
costs of housing for employees at Plum Island or at any other 
facility. Again, those studies have not been made available to 
this committee. Do you have such studies? If so, where are 
they? And what do they say and when will they be made available 
to the Committee?
    Mr. Cohen. Chairman, by the end of the day, you will have 
whatever information I have. It comes from the Department of 
Housing, obviously, because that is not my lane, and if that is 
not satisfactory, I will see as part of our EIS that we have 
definitive studies and we will make those available.
    Mr. Dingell. Now, let me ask you--you work for the 
Department, I gather. I sent a letter on September 20, 2007, 
almost 1 year ago, requesting this kind of information. None 
has made been available to the Committee. How am I to assume 
that this committee you are making is any better than your 
refusal to deliver the information requested on September 20?
    Mr. Cohen. Well, Chairman, refusal is a very strong word. I 
actually have a picture in my office of me standing next to the 
cartons and cartons on pushcarts of the information that I have 
gladly provided----
    Mr. Dingell. Beloved friend----
    Mr. Cohen [continuing]. To this committee.
    Mr. Dingell [continuing]. Let me explain to you the volumes 
of papers and the wonderful pictures that you might have of 
them do not move me.
    Mr. Cohen. Yes, sir.
    Mr. Dingell. It is whether you are delivering to us those 
things which we are requesting.
    Mr. Cohen. Yes, sir.
    Mr. Dingell. There is a substantial difference. I don't 
want a lot of your waste paper. I want the answers to the 
questions that the Committee asks you. You seem to have some 
difficulty in understanding that. If I am being unclear, please 
inform me so that we may be of greater assistance to you.
    Mr. Cohen. Chairman, I don't believe there is anyone who 
does not understand your clarity, sir, and I do.
    Mr. Dingell. Thank you.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Dingell.
    Just so the record is clear, there is no law indicating 
there has to be an NBAF; is there?
    Mr. Cohen. Not to my knowledge, no, sir.
    Mr. Stupak. And there is no law that says we cannot keep 
Plum Island doing foot-and-mouth research on Plum Island but 
make your NBAF anywhere else; is there?
    Mr. Cohen. That is correct.
    Mr. Stupak. In my opening statement, I said that the 
Department of Homeland Security had estimated it would cost 
approximately $450 million to build NBAF, and then I said the 
Committee has learned that your engineers, DHS engineers, have 
already raised that to between $600 and $750 million. Is that 
correct?
    Mr. Cohen. I don't know what their estimate is. I don't 
know what the price of oil will be at the end of this hearing. 
This is going to be an expensive facility. You heard Under 
Secretary Knight talk about being world-class. This is one of 
the reasons why in our solicitation we have asked States and 
locals for offsets, incentives in kind and we are looking at if 
we were to move off Plum Island to utilize the sale of that 
land to save the taxpayers money to pay for the facility, but I 
assure you that in the end, this facility will cost less than a 
Navy destroyer.
    Mr. Stupak. Well, that is not real reassuring. We are 
familiar with the cost of a Navy destroyer. It is quite a bit 
of money.
    Let me ask you this. It seems like this process started 
without giving a lot of thought to it. Wouldn't it have been 
logical to say do we keep Plum Island or not,; do we renovate, 
build new, then start looking on the mainland? It seems like 
you starting looking to the mainland and then after objections 
from committee and elsewhere, you went back to Plum Island, 
throw that in the mix again. Did we sort of get off on the 
wrong foot on this process?
    Mr. Cohen. I can't address all of the history. I can tell 
you that I was sworn in on the 10th of August 2006. That was a 
memorable day. You may remember, that was the day the liquid 
explosives plot with British Airways and no carry-ons and the 
impact it had on the airlines. I do remember that on Friday, 11 
August, the Congress contacted me bipartisan as to why I had 
not solved the liquid explosives problem. Now, we have the 3-1-
1 rule, which is risk mitigation. It is not the solution. So on 
day 2 of my tenure, I understood the responsibility I had to 
the American public and to the Congress. That is the same 
responsibility that I put in place for NBAF. On 10 August, I 
had 12 States and 18 sites.
    Mr. Stupak. That is fine, August 10, 11, 12. My question 
didn't ask about any of that. My question was, don't you think 
we should have made the decision about what we were going to do 
with Plum Island before we move to the mainland? It appears 
from where we sit and the work we have done on this, this is 
our second hearing on biolabs and we are going to have more 
hearings on biolabs, that DHS received money to do biolabs and 
they didn't start making biolabs without cost-benefit analysis, 
risk assessment, whether they are necessary. The more labs you 
have and the more harmful materials you deal with, the more 
chance of human error, which leads to more problems. It seems 
like a bunch of money was given to DHS and they just started 
spending money without knowing if it is even necessary, and 
that is sort of what my question is being asked.
    Mr. Cohen. Well, I think in the aftermath--and I think it 
is a very good question, Chairman. I think in the aftermath of 
9/11, both the Administration and the Congress--I was in the 
Navy at the time but I watched this and I know going to New 
York right after 9/11, speaking with the police and dealing 
with Arlington police, there was a feeling that the major 
threats to us were nuclear, whether that was a dirty bomb or 
nuclear weapon, or biological, radiological. You know, right 
after 9/11, we were delivering death by the U.S. mail, anthrax. 
Now, while this facility won't look at anthrax, because it is 
naturally occurring, the 9/11 Commission report said that we 
suffered from a lack of imagination. I can tell you based on my 
10 August story to you, sir, that while I am responsible, my 
component will not suffer from a lack of imagination.
    And so there is a focus on bio. What has issued from that 
is the NBAC, which is at Fort Dietrich. We are going to 
commission that this fall with the full support, bipartisan, of 
the Congress and in cooperation with the FBI. This is a CSI-
like facility but it is a biological laboratory. If we had had 
that, I believe, in operation on 9/11, we might very well know 
who was responsible for the anthrax. We are also partnered with 
the Department of Defense and others at Aberdeen for receipt 
facility----
    Mr. Stupak. What basis----
    Mr. Cohen [continuing]. The third one----
    Mr. Stupak. What basis do you say if we would have had 
these labs available that we would have been able to trace the 
source of the anthrax? What this committee has shown through 
our hearings so far, and this is our second one, money was 
given to DHS. You started building labs before anyone even 
considers if it is necessary to build more labs, or can the 
work be done at the current labs we have in this country? 
Instead, we are building labs all over the place where the 
experts are warning us, the more labs you build, the more 
people handling it, whether it is the Ebola, whether it is 
foot-and-mouth disease, the more problems you are going to 
have.
    Mr. Cohen. First of all, I don't have an unlimited number 
of labs that I am building. I have just shared with you the 
three laboratories----
    Mr. Stupak. Well, I know at least four or five you have 
built already, DHS has built, without even a benefit or if it 
is even necessary. It seems like we are throwing money and 
building labs and hoping the problems will come. It should be 
the other way around. We should identify the problems and then 
build the labs we need.
    Mr. Cohen. I am only knowledgeable of the labs which I have 
shared with you but I will tell you, as stated in the second 
panel, there is great concern that these laboratories might be 
terror targets, and for that reason, inherently governmental, 
we have a responsibility not only to make them efficacious but 
to make them secure, and that is why NBAC is on Fort Dietrich.
    Mr. Stupak. And the second panel unanimously said to a 
question I asked each one of them, they would rather not have 
Department of Homeland Security deal with this. They would 
rather have USDA deal with it because they feel they have more 
expertise.
    Mr. Cohen. And Chairman, I agree with them. I am the 
tenant. I am the caretaker. I am the steward. Because the 
reason I believe we created the Department of Homeland 
Security, this incredible experiment in nuclear fusion of 22 
very disparate agencies, was to eliminate or minimize seams. I 
am very pleased to be the steward for my tenant, USDA, who does 
the research at Plum Island. I think that has significant 
advantages in a terror-enabled world.
    Mr. Stupak. And it also under H.R. 1717 which expands your 
authority in areas of agriculture. We think that, at least some 
of us feel, Ag. should do it, not DHS.
    Mr. Knight. And from the Department of Agriculture, if I 
might add, we are very comfortable with the relationship that 
has evolved since the authorities were provided in the creation 
of DHS. This has worked very well with them as the landlord 
taking care of many of those logistics. Adding the skills that 
DHS brings to the table has freed up our USDA folks to focus on 
the core research needs, especially on FMD.
    Mr. Stupak. I am not arguing that. What we are arguing is, 
shouldn't you have made the decision on Plum Island before you 
started going to mainland and everything? It seems like we got 
the cart before the horse, the disease before the animal, 
whatever it is.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Secretary Knight, you were here for all the other panels. I 
posed a question about the timeliness of information and the 
exponential risks that could occur. Can you speak to that or--
am I right, or just kind of add to----
    Mr. Knight. We have had some real-life experiences in the 
last year that are worthy of consideration in this process. 
About a year ago, we had a potential concern that we may have 
had FMD at a packing facility. The hogs were found with lesions 
on their face. It had all the signs, the visible signs of FMD. 
We needed to extract samples, get those to a lab to be--for 
diagnosis. We can only do that at Plum Island, and so we then 
lost many hours in the effort it took to actually get those 
physical samples to Plum Island. If I recall correctly, we had 
fog at the airport, closure there. Then we had the logistics of 
getting it over there. So there are some legitimate concerns 
associated with that facility and its ability to get samples to 
and bring out the results very quickly.
    Mr. Shimkus. The new facility will not be operational until 
at least 2015. What do you propose to do in the meantime to 
ensure that America is protected from foreign animal diseases? 
So that brings in a lot of options--renovate Plum Island, begin 
preliminary research elsewhere, and then the follow-up question 
is, why the immediate need for a new NBAF? Secretary Cohen?
    Mr. Cohen. Yes, sir. You know, terror doesn't take a 
holiday and they don't want for our building schedule, and this 
is why we have invested and are investing with the help of the 
Congress, and I appreciate that very much, over $50 million in 
Plum Island. We are doubling their capacity hopefully to get--
and Dr. Barrett may want to address this more--possibly 
investigation for two efficacious vaccines and continue to 
build the workforce that is so critically important because it 
is about the people.
    In terms of other diseases, we will have to look hard at 
what BSL facilities exist, what authorities we have. As was 
indicated earlier in the testimony, some of the BSL-4 that are 
looking at smaller primates already exist at universities and 
elsewhere. CDC, NIH, HHS, of course, are focused on those but 
these would be responsibilities that we would pursue once we 
had the NBAF.
    Mr. Knight. From a USDA perspective, certainly the 
potential of the disease risk is a constant. That is what keeps 
all of us in the Administration up at night and worried about 
that. Our first line of defense is generally border security, 
the work that is done. USDA provides an underlying information 
policy in support to Customs and Border Protection for that 
first line of defense. Then if there is a potential outbreak, 
we are building at USDA systems to be able to respond quickly, 
a national animal ID system that has been highly controversial 
but extremely important in being able to build the baseline to 
be able to notify farmers and ranchers of a disease outbreak in 
a very quick manner. We also work in capacity building with our 
partners at the state level, the state veterinarians who are on 
the front line of making decisions with us, putting barriers up 
for movement of animals, each of those things. So we make that 
investment on a daily basis, on a weekly basis. That will 
continue to be there. That is one of the most important things 
we need. We need NBAF so that we can anticipate what are the 
next dangerous diseases out there that we need diagnostic tests 
for, be able to develop those tests. We need NBAF to be able to 
do the research for eradication of those diseases around the 
globe, not just in the United States.
    Mr. Shimkus. Dr. Barrett, do you want to add to this?
    Dr. Barrett. Well, I was just wanting to make a comment 
that this is going back to the question, is it safe to move 
this to the mainland, and I would just like to say that there 
is risk in any operation, but if you go to the GAO report and 
you look at the listings of the 15 or so laboratories where 
there has been release of FMD. They took that from the 
Pirbright report and they left out one column. The column that 
they left out was the column that identified that every one of 
those releases except the top two that occurred in 1960 were 
the result of the production of live virus vaccine for foot-
and-mouth disease. We don't even make live virus for foot-and-
mouth disease because of that. We don't make foot-and-mouth 
disease vaccine in this country. So all of those were 
associated with the production of foot-and-mouth disease 
vaccine. In the new NBAF, we will not be producing foot-and-
mouth disease vaccine. In fact, there will be a small vaccine 
capability in it, about 8 gallons, and that will be used for 
basically new vaccines going into development and then our 
scientists can test it there and then take them on into 
production. So the danger in these labs and the reason you had 
all these releases, because of making live virus vaccine with 
foot-and-mouth. In the future, we are not going to do that. Our 
new vaccine that we are producing right now and we are making 
in the United States, if it escapes, it doesn't infect the cow; 
it doesn't cause foot-and-mouth disease.
    So I feel that you can move this safely to the mainland, 
and the reason is it is just like Under Secretary Knight is 
saying, this laboratory is part of this nation's emergency 
response system. If you see cattle out on the field and they 
have blisters on them, and as a veterinarian, you want to get 
that tested, you have to send it to this lab. I was in 
California working on the foot-and-mouth disease plan. I was at 
a meeting and the USDA veterinarian was there, and I had also, 
because I worked in public health, I was involved in developing 
our bioterrorism response plans. We can diagnose smallpox in 
California in 24 hours. In California, to get a diagnosis of 
foot-and-mouth disease, you have to send it to Plum Island 
across the country. We need to get the technology and the 
diagnostics out to these States so they can test it, but right 
now until we get that capability and that science, it exists at 
Plum Island. Plum Island is a great facility. As the director, 
I am proud to work there. My goal is to get a vaccine out and 
protect the livestock of this country. At the same time, to 
move this facility on the mainland provides a lot of protection 
too.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Stupak. The same would be true no matter where it is. 
There could be a hurricane in Texas or the Carolinas or 
wherever we are going to put it, right?
    Dr. Barrett. Yes, there are always things that you have to 
take a risk. I mean, I basically took risk management off the 
Air Force flight line, put it in a model for food security that 
the FDA adopted and they use it for food security in this 
Nation. I am very well aware of risk assessment.
    Mr. Stupak. So there is a guarantee against 103 different, 
90 percent being human errors.
    Dr. Barrett. We had seven cross-contaminations in Plum 
Island. Those cross-contaminations were within our primary 
laboratory environment. That is a box in a box. To get out of 
that facility, our researchers who work in there, to leave 
that, they have to take a shower and they have to change their 
clothes and they have to blow their nose. Our animal caretakers 
get two showers a day and get to blow their nose twice.
    Mr. Stupak. And that is no matter where they are located.
    Dr. Barrett. Right, and one of the things I wanted to add 
in of why I am so--about this issue earlier when I was giving 
my testimony, when I go out and see my dad's cattle, they are 
registered Herefords, and he tells me when he looks at those 
cows, I have to listen to him tell me the mother that was 20 
years ago that was that cow, and so if you go in and you kill 
that herd off it is not coming back. You cannot--that is 50 
years of genetic improvement. It is not coming back. We need to 
move forward in this country and develop a vaccine that we can 
effectively vaccinate our cattle to live with. Dr. Carpenter, 
who was sitting in this chair today, pointed out that in his 
paper, in his publication, he showed that if you vaccinate 
cattle, you can reduce this by 98 percent an outbreak.
    Mr. Stupak. Sure. That is why maybe we should leave it at 
Plum Island and continue the good work we are doing there.
    Dr. Barrett. I would love it to be at Plum Island. I just 
want a vaccine.
    Mr. Cohen. Chairman, if I may, I would just like to share 
with the Committee that we resource Dr. Carpenter's research.
    Mr. Stupak. Mr. Pickering, questions?
    Mr. Pickering. Yes. Thank you, Mr. Chairman.
    Dr. Barrett, I just want to understand what you just said 
just a little bit back in your answer. GAO raised the question 
of outbreaks but in those cases, it dealt with the outbreaks 
related to an FMD vaccine or doing the research. Is that 
correct?
    Dr. Barrett. Yes. What they left out, they left out one 
column in that report. They took that from the Pirbright report 
and they left out the one column. The column they left out was 
the one that showed that the outbreaks were related to live 
virus vaccine manufacturing release, which occurs. At 
Pirbright, the release didn't occur from their laboratory. It 
occurred from Merial, who was producing vaccine there because 
it matched that strain, and if somebody takes and releases----
    Mr. Pickering. Dr. Barrett, would you say the GAO leaving 
that out or not understanding that and that distinctive 
difference and the fact that whether at Plum Island or any of 
the new sites, we are not going to be doing vaccines, that is 
extremely significant in the GAO review?
    Dr. Barrett. Yes.
    Mr. Pickering. I think that is probably one of the most 
significant things that we have heard today, that the hype of 
the risk was really based on a misunderstanding of the causes 
of outbreaks in other cases that has nothing to do with the new 
NBAF, whether it is at Plum Island or another site.
    Mr. Knight, you talked about working with veterinarians and 
I know, Dr. Barrett, you are a veterinarian. The American 
Veterinary Medical Association has come out, and I would think 
that these are the most knowledgeable, the most involved, the 
ones with the most practical experience, the ones working with 
your father and building up his herd, and they are saying that 
you can do this site safely on the mainland. Dr. Barrett, what 
I hear from Mr. Cohen is that he is looking for the cost 
effectiveness of doing the research so that we can get to the 
vaccine that you hope for, and if we spend more money on 
facilities than in research, we are delaying that day of 
getting to the prize.
    Dr. Barrett. And I would just like to add in that Dr. Ron 
De Haven, he used to be the administrator for APHIS, now works 
for AVMA. He is in charge of those programs that helped make 
that decision.
    Mr. Pickering. Well, thank you, and I think it is extremely 
significant that GAO misunderstood and they increased their 
assessment of risk based on not knowing what the research is 
all about, and with that, I yield back, Mr. Chairman.
    Mr. Stupak. That is fine. What GAO missed, I guess we 
should let GAO speak for themselves on that one.
    Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you. I have known since I 
arrived in Congress 12 years ago the desirability of serving on 
the Commerce Committee, and it has been highlighted for me 
today. I have missed something and probably too late in my time 
in Congress to start over in building up my seniority, but I 
understand the value of this committee and particularly this 
Oversight Subcommittee, and again I express my appreciation to 
you, Mr. Chairman, for allowing me to join you. I just had----
    Mr. Stupak. Well, let me interrupt you one minute. Back to 
Mr. Pickering's point, GAO report, page 13, they didn't leave 
it out. They didn't miss it. Table 2 lists known and attributed 
releases of FMD viruses from laboratories worldwide including 
those that produce vaccines, so GAO did take it into 
consideration. I knew that wasn't right.
    Mr. Pickering. Would the chairman yield?
    Mr. Stupak. You bet.
    Mr. Pickering. Did they know that the new NBAF would not be 
doing the vaccine?
    Dr. Barrett. We told Dr. Sharma and the GAO that when they 
visited us.
    Mr. Pickering. Thank you. I yield back.
    Mr. Stupak. Go ahead, Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. I will now recognize 
that when I provide a compliment to you that you are not paying 
any attention, so I will forego any compliments.
    But I want to follow up, and in part it is in regard to 
questions that you were raising that caused me to think about 
this. Recently I had a member of my staff visit Plum Island to 
get an understanding of what transpires there, how it operates, 
and I hope to do that myself, but one of the things that my 
staff member reported upon his return was that the workers, the 
local folks that they visited with were unwilling or 
uninterested in having the facility at Plum Island upgraded or 
its abilities enhanced from the BSL-3 to BSL-4 and reported 
that their Members of Congress would oppose that kind of 
upgrade. Is that anything that is of the record or is that just 
speculation? And I can understand perhaps where that comes from 
with its location so close to New York City and Connecticut 
that there obviously--maybe it is not obvious--that there could 
be concern with that about increasing the nature of that 
facility. Is that something that is an accurate assessment of 
local sentiments and Members of Congress who represent that 
sentiment?
    Dr. Barrett. We had recently a community forum as part of 
the NBAF process because Scott Russell, who is Southold Town 
Supervisor, wanted us to have it to speak to the community. 
When we spoke there, there were a lot of concerned citizens 
about having it there, and Congressman Bishop, I visited with 
him. He is concerned with his constituents having those 
concerns. One of the things that we are doing at Plum Island is 
we are having community day.
    Mr. Stupak. But did you explain to them you don't need a 
BSL-4 lab to foot-and-mouth disease, you only need a level 3 
lab?
    Dr. Barrett. That is a concern that the community has is 
BSL-4.
    Mr. Stupak. And you don't need 4 to do foot-and-mouth?
    Dr. Barrett. No, we don't need 4 to do foot-and-mouth.
    Mr. Moran. Mr. Chairman, that was in a sense my follow-up 
question, which was that there is a consensus that we need a 4 
laboratory. I mean, that is what this process is all about?
    Dr. Barrett. We definitely need a biolevel-4 laboratory for 
this, yes, we do. We do not have one in this country for 
livestock.
    Mr. Moran. Mr. Chairman, thank you.
    Mr. Stupak. Well, I thank both of you for sitting through 
this day, and you are always welcome at the Committee, so 
thanks.
    Let me just ask one last question. Zoonotics, who is in 
charge of that, DHS, HHS, CDC? Who is in charge?
    Dr. Barrett. Two agencies, because zoonotic means 
communicable from animals to people. CDC will take care of the 
person. We take care of the animal side of it.
    Mr. Stupak. By ``we'' do you mean USDA or DHS?
    Dr. Barrett. Centers for Disease Control does the humans. 
USDA does the animals.
    Mr. Stupak. OK.
    Dr. Barrett. But they have to work together as partners 
because these diseases like avian influenza, West Nile, you 
have to work together and use the animal model. And basically 
zoonotic diseases, you prevent them by keeping it out of the 
animals.
    Mr. Stupak. Well, Secretary Cohen had mentioned it, so I 
just wanted to make sure that was clear. I was a little 
confused on that one. OK.
    Any other questions? If not, I will thank and dismiss this 
panel. Thank you very much for being here.
    Mr. Cohen. And Chairman, we thank you for being part of 
this process.
    Mr. Stupak. It is a process that is going to go on a little 
longer, I am afraid.
    That concludes all questioning. I want to thank all of our 
witnesses for coming today and for their testimony. I ask 
unanimous consent that the hearing record will remain open for 
30 days for additional questions for the record. Without 
objection, the record will remain open.
    I ask unanimous consent that contents of our document 
binder be entered into the record. Without objection, the 
documents will be entered in the record.
    This concludes our hearing, and without objection, this 
meeting of the subcommittee is adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                      Statement of Hon. Gene Green

    Mr. Chairman, thank you for holding this hearing today on 
moving the study of foot and mouth disease from Plum Island, 
New York to the mainland US.
    Food and mouth disease is the most contagious animal 
infection. It can travel by the air, through saliva, and on a 
person. It affects cloven-hoofed animals such as cattle, pigs, 
sheep, goats, and deer. Food and mouth disease is not usually 
fatal, but it will cause severe weight loss, hoof deformation, 
breeding problems, and diabetes.
    When animals become infected with hoof and mouth disease, 
the usual course of action to stop the inevitable spread of the 
virus is to slaughter all of the animals in the infected area 
because it is almost guaranteed that all animals in the area 
will contract foot and mouth disease and it will spread at an 
alarming rate.
    For 60 years researchers have been studying food and mouth 
disease at Plum Island Animal Disease Center. Everyone agrees 
the facility is outdated and in need of updating.
    The Department of Homeland Security proposed opening a new 
National Bio and Agro Defense Facility (NBAF) on the mainland 
US instead of updating the Plum Island facility.
    Supporters of the move to the mainland cite increased costs 
in shipping supplies to an island, updated technology to 
contain the disease, and difficulty recruiting scientists to 
work on Plum Island.
    However, supporters of the Plum Island location cite the 
water barrier as the only way to keep foot and mouth disease 
safely contained.
    The proposed NBAF would be the world's largest animal 
disease research center and have a Biosafety Level 4 Lab. 
Currently, 5 sites are being considered for the new NBAF lab 
including one associated with UT in San Antonio.
    I look forward to the testimony from our witnesses today so 
that we may gain a greater understanding of the risks and 
benefits associated locating an NBAF lab on the mainland US.
    Thank you Mr. Chairman, I yield back my time.
                              ----------                              


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
